No.
In the

Supreme Court of the United States
RON FENN, PETITIONER
v.
CITY OF TRUTH OR CONSEQUENCES, MICHAEL APODACA, POLICE CHIEF
LEE ALIREZ, and DANIEL HICKS, RESPONDENTS
On Petition for Writ of Certiorari to the
United States Court of Appeals for the Tenth Circuit
PETITION FOR WRIT OF CERTIORARI

WESTERN AGRICULTURE, RESOURCE AND BUSEINSS ADVOCATES, LLP
A. Blair Dunn
400 Gold Ave SW, Suite 1000
Albuquerque, NM 87102
(505) 760-5060
abdunn@ablairdunn-esq.com
Counsel for Petitioners
June 15, 2021

ii

Questions Presented
As the jurisprudence becomes broader on when a government actor enjoys
qualified immunity and the instances where a citizen can hold that government actor
accountable becomes more limited, beginning with this Court’s guidance in Harlow
v. Fitzerald 457 U.S. 800 (1982) requiring that a person’s violated rights must be
“clearly established,” id., there is a question of at what point, perhaps like the one
this case presents, that should define when a grant of qualified immunity to the
government Respondents that have interfered with free speech on the basis of content
has gone too far.
Thus, the question presented is: Did the lower courts err in dismissing
Petitioners’ case on the basis of Qualified Immunity in the face of US Supreme Court
precedent and New Mexico jurisprudence clearly establishing the right that was
violated?

iii
PARTIES TO THE PROCEEDING
Petitioner is Ron Fenn. He was the Plaintiff in The United States District
Court for the State of New Mexico, Case No. 2:18-cv-00634 WJ-GW, Fenn v. City of
Truth or Consequences et al., wherein judgment for the Defendants was entered
November 6, 2019; and plaintiff-appellant in the United States Court of Appeals for
the 10th Circuit Case No. 19-2201, Fenn v. City f Truth or Consequences et al. wherein
judgment for the defendants-Appellees was entered December 29, 2020.
Respondents are the City of Truth or Consequences, Michael Apodaca, Police
Chief Lee Alirez, and Daniel Hicks. They were Respondents in the District Court
and Respondents-appellees in the Tenth Circuit Court of Appeals.
RULE 29.6
Corporate disclosure statement is not required in this matter.

iv

TABLE OF CONTENTS
QUESTION(S) PRESENTED ...................................................................................... ii
PARTIES TO THE PROCEEDING ............................................................................iii
OPINIONS BELOW ..................................................................................................... 3
JURISDICTION............................................................................................................ 5
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED....................... 5
STATEMENT OF THE CASE ...................................................................................... 7
REASONS FOR GRANTING THE PETITION ........................................................... 8
CONCLUSION............................................................................................................ 26
Circuit Court Decision ................................................................................................ 1a
Circuit Judgment ...................................................................................................... 17a
Circuit Court Decision on Petition for Rehearing .................................................... 18a
District Court Decision Granting in Part Truth or Consequences Defendants’
Motion to Dismiss and Granting Defendant Hick’s Motion to Dismiss .................. 19a
District Court Decision Granting Defendants’ Motion for
Summary Judgment on Second and Third Causes of Action ................................. 38a
District Court’s Rule 58 Judgment ........................................................................... 52a
Appellant’s Opening Brief ......................................................................................... 88a
Appellant’s Petition for Panel Rehearing ............................................................... 119a

v
TABLE OF AUTHORITIES
Cases
Adderley v. Florida; Greer v. Spock,
424 U.S. 828, 96 S.Ct. 1211, 47 L.Ed.2d 505 (1976) ............................................... - 11 Agric. Labor Relations Bd. v. California Coastal Farms, Inc.,
31 Cal. 3d 469, 645 P.2d 739, (1982); ...................................................................... - 12 Anthony v. Baker,
767 F.2d 657 (10th Cir.1985). .................................................................................. - 21 Becker v. Kroll,
494 F.3d 904 (10th Cir. 2007). ................................................................................. - 21 Beedle v. Wilson
422 F.3d 1059, UNited States Court of Appeals (10th Cir. 2005)........................... - 23 Cordova v. City of Albuquerque,
816 F.3d 645 (10th Cir. 2016). .................................................................................. - 17 Cowley v. West Valley City,
2018 WL 1305709 .................................................................................................... - 21 DeMarco v. United States,
415 U.S. 449, 94 S.Ct. 1185, 39 L.Ed.2d 501 (1974). .............................................. - 25 Durham v. Guest
2009-NMSC-007, 145 N.M. 694............................................................................... - 24 Fleetwood Retail Corp. of N.M. v. LeDoux
2007-NMSC-047, 142 N.M. 150............................................................................... - 24 Franks v. Delaware
438 U.S. 154, 98 S. Ct. 2674, 57 L. Ed. 2d 667 (1978 ............................................. - 20 Gehl Group v. Koby
63 F.3d 1528 (10th Cir. 1995), ................................................................................. - 22 Hague v. Comm. for Indus. Org.
307 U.S. 496, 59 S. Ct. 954, 83 L. Ed. 1423 (1939) ................................................. - 11 -

vi
Hartman v. Moore
547 U.S. 250 (2006); ................................................................................................. - 16 Jenkins v. McKeithen
395 U.S. 411, 89 S.Ct. 1843, 23 L.Ed.2d 404 (1969). .............................................. - 27 Kaplan's Fruit and Produce Co. v. Superior Court
(1979) 26 Cal.3d 60, 81, 162 Cal.Rptr. 745, 603 P.2d 1341 .................................... - 12 Kelley v. Southern Pacific Co.
419 U.S. 318, 95 S.Ct. 472, 42 L.Ed.2d 498 (1974) ................................................. - 25 Lusby v. T.G. & Y. Stores
749 F.2d 1423 (10th Cir.1984) ................................................................................. - 21 M. G. v. Young
826 F.3d 1259 (10th Cir. 2016). ................................................................................ - 19 McCullen v. Coakley
134 S. Ct. 2518, 189 L. Ed. 2d 502 (2014). .............................................................. - 10 McGarry v. Bd. Of Cty. Comm’rs for Cty. Of Lincoln
294 F. Supp.3d 1170 (D.N.M. 2018). ....................................................................... - 19 Meyer v. Gran,
486 U.S. 414, 424, 108 S.Ct. 1886, 100 L.Ed.2d 425 (1988 .................................... - 10 Monell v. New York City Dep’t of Social Servs
436 U.S. 658 (1978) .................................................................................................... - 7 Nielander v. Bd. of Cnty Comm’rs
582 F.3d 1155 (10th Cir. 2009) ................................................................................ - 10 Nieves v. Bartlett
139 S. Ct. 1715, 204 L. Ed. 2d 1 (2019) ..................................................................... - 9 Phelps v. Hamilton
59 F.3d 1058, (10th Cir. 1995) ................................................................................. - 22 Poole v. County of Otero
271 F.3d 955 (10th Cir. 2001) .................................................................................. - 21 Pullman-Standard v. Swint
456 U.S. 273, 102 S. Ct. 1781, 72 L. Ed. 2d 66 (1982). ........................................... - 25 -

vii

Rakovich v. Wade
850 F.2d 1180 (7th Cir. 1988). ................................................................................. - 22 Smith v. Plati
258 F.3d 1167 (10th Cir. 2001) .................................................................................-10State v. Haidle
2012-NMSC-033, 285 P.3d 668, .............................................................................. - 20 State v. McCormack
1984-NMCA-042, 101 N.M. 349, 352, 682 P.2d 742, 745 ....................................... - 12 U.S. Postal Service v. Greenburgh Civic Assns.
453 U.S. 114, 101 S.Ct. 2676, 69 L.Ed.2d 517 (1981). ............................................ - 12 United Farm Workers of America v. Superior Court
(1976) 16 Cal.3d 499, 505, 128 Cal.Rptr. 209, 546 P.2d 713 .................................. - 12 United States v. Armstrong
517 U.S. 456, 116 S.Ct. 1480, 134 L.Ed.2d 687 (1996) ........................................... - 16 United States v. Lampley
127 F.3d 1231 (10th Cir. 1997) ................................................................................ - 21 United States v. P.H.E., Inc.
965 F.2d 848 (10th Cir. 1992) .................................................................................. - 22 United States v. Wall
37 F.3d 1443 (10th Cir. 1994). ................................................................................. - 21 Verlo v. Martinez
820 F.3d 1113 (10th Cir. 2016). ............................................................................... - 15 Wilkins v. DeReyes
528 F.3d 790 (10th Cir. 2008). ................................................................................. - 18 Wolford v. Lasater
78 F.3d 484 (10th Cir. 1996) .................................................................................... - 22 -

viii
Statutes
28 U.S.C. § 1254(1). ................................................................................................... - 5 28 U.S.C. § 2101(c) ..................................................................................................... - 5 Rules
NMSA 1978 § 30-14-1 .............................................................................................. - 19 -

1

PETITION FOR WRIT OF CERTIORARI
It must be that the First Amendment really means nothing at all anymore
when a senior citizen that is unhappy with the taking away of a senior center to give
it to a taxpayer boondoggle can no longer peacefully protest to pamphlet and criticize
his government in a common area public space without being arrested for trespass
because his protest is perceived on the basis of its content as obnoxious. At some point
the line that appears to drift farther away from protecting the civil rights of American
citizens and towards granting greater qualified immunity to government actors must
become capable of being crossed, the public must be allowed to hold their government
to account for trampling constitutionally protected liberty interests. Otherwise at
some point those constitutionally protected rights and the will of Congress in passing
42 U.S.C. § 1983 means nothing. Thus, the longstanding, well-documented, and
known interpretation that one may engage in their First Amendment protected right
to peaceably protest without fear of government reprisal based on the content of his
speech is at the core of maintaining the functionality of Republic. Petitioner Ron Fenn
frequented a senior center at 301 S. Foch St., Truth or Consequences, New Mexico.
The senior center was converted to other uses, and was eventually leased out to
Spaceport America, a New Mexico public agency, for use as a visitor center.
Petitioner publicly protested the conversion of the senior center.
On May 5, 2017, Captain Apodaca responded to a call by John Muenster, a
volunteer of Geronimo Trail Scenic Byway center (another government agency tenant
from a separate part of the building from Spaceport America), about Mr. Fenn being

2
on the property in violation of trespass orders (there was no trespass order in place
preventing Mr. Fenn from occupying the public space of Spaceport America) as Mr.
Fenn was putting posters and pamphlets on a counter inside the center. Captain
Apodaca told Mr. Fenn that he could “put up his propaganda and stay… but not to
harass any visitors.” Mr. Muenster was concerned that expensive items kept in the
center could be damaged or stolen. Ms. Rosemary Bleth (of Geronimo Trail Scenic
Byway center) notified the officer that she was interested in a criminal trespass order
against Mr. Fenn to prevent him from entering the location because she found his
protest obnoxious.
On May 11, 2017, Mr. Hicks, CEO of Spaceport America (a state agency) was
contacted by Chief Alirez who encouraged him to request a trespass order from Chief
Alirez based on prior incidents of peaceful protest as a preventative measure to halt
Mr. Fenn’s criticism of the City and the Spaceport which Mr. Hicks agreed to request.
Chief Alirez drove 75 miles to the offices of Spaceport America for Respondent Hicks’
signature that day. Chief Alirez then met with Mr. Fenn on May 12, 2017, to serve
the trespass order. Mr. Fenn received it but refused to sign it.
On June 4, 2017, Larena Miller contacted the police department to report Mr.
Fenn inside 301 S. Foch St. Sgt. Baker responded and found Mr. Fenn inside the
“common use area of the building,” in the area housing a satellite library. Sgt. Baker
and Chief Alirez told Petitioner to leave, and Mr. Fenn refused. Then Chief Alirez
met with Petitioner on June 13, 2017, in his office, and offered to hold the trespass

3
citation in abeyance as long as Petitioner Fenn had no further violations at 301 S.
Foch St.
On June 18, 2017, Officer Ontiveros was dispatched to another trespass call at
301 S. Foch St. Mr. Fenn was “within the common area of the areas he had previously
been trespassed from.” Mr. Fenn said he was not trespassing but was protesting. Both
Officer Ontiveros and Chief Alirez ordered Petitioner to leave, and he refused. Chief
Alirez then arrested Petitioner and a criminal complaint was filed against him for
Criminal Trespass pursuant to NMSA § 30-14-1(C). The criminal complaint was
eventually dismissed nolle prosequi and never refiled within the statute of limitations
for the event.
The District Court erred in Dismissing Petitioners’ Case based on qualified
immunity. The District Court erred in dismissing Petitioners claims as his actions
are fully protected by the Constitution. Petitioners pled, and applicable law supports,
Petitioner’s right to engage in his First Amendment protected right to peaceably
protest without fear of reprisal based solely on the content of his speech. Petitioners
respectfully request that lower Court’s decisions be overturned. The Circuit Court
lacked any meaningful basis for its decision to affirm the District Court and could
only reach its decision to affirm by deciding facts that were not established regarding
whether or not the public area that Mr. Fenn chose to protest was a traditional public
location which was in clear error.
OPINIONS BELOW
The unpublished judgment of the United States Court of Appeals for the Tenth

4
Circuit in Fenn v. City of Truth or Consequences et al., ca 19-2201, 983 F.3d 1143
dated December 29, 2020, affirming the district court’s judgment of dismissal is set
forth in the appendix hereto.
The unpublished judgment of the United States Court of Appeals for the Tenth
Circuit in Fenn v. City of Truth or Consequences et al., ca 19-2201, dated December
29, 2020, affirming the district court’s judgment of dismissal is set forth in the
appendix hereto.
The unpublished Order denying Petitioner’s Petition for Rehearing Fenn v.
City of Truth or Consequences et al., dated January 26, 2021, is set forth in the
appendix hereto.
The unpublished Memorandum Opinion and Order Granting in Part Truth or
Consequences Respondents’ Motion to Dismiss and Granting Respondent Daniel
Hicks’ Motion to Dismiss in Fenn v. City of Truth or Consequences et al., 2019 WL
943518, dated February 26, 2019, is set forth in the appendix hereto.
The unpublished Memorandum Opinion and Order Granting Respondent’s
Motion for Summary Judgement on Petitioner’s Second and Third Causes of Action
Fenn v. City of Truth or Consequences et al., 2019 WL 5789279, dated November 6,
2019, is set forth in the appendix hereto.
The unpublished Rule 58 Judgment granting Respondents’ Motion for
Summary Judgment on Petitioner’s Second and Third Causes of Action in Fenn v.
City of Truth or Consequences et al., dated November 6, 2019, is set forth in the
appendix hereto.

5

JURISDICTION
The judgment of the United States Court of Appeals for the Tenth Circuit
affirming the District Court judgment of dismissal was entered on December 29,
2020. The judgment of the United States Court of Appeals for the Tenth Circuit
denying Appellants’ Petition for Rehearing was entered January 26, 2021. This
petition for writ of certiorari by Ron Fenn is filed within one hundred fifty (150) days
from the date of the Order denying the petition for rehearing. 28 U.S.C. § 2101(c).
The jurisdiction of this Court is invoked pursuant to the provisions of 28 U.S.C. §
1254(1).
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
United States Constitution, Article III, Section 1:
The Judicial power of the United States shall be vested in one Supreme Court,
and in such inferior Courts as the Congress may from time to time ordain and
establish…
United States Constitution, Amendment I:
Congress shall make no law respecting an establishment of religion or
prohibiting the free exercise thereof; or abridging the freedom of speech, or of
the press; or the right of the people peaceably to assemble, and to petition the
Government for a redress of grievances.
28 U.S.C. Section 1291

6
The courts of appeals (other than the United States Court of Appeals for the
Federal Circuit) shall have jurisdiction of appeals from all final decisions of
the district courts of the United States … except where a direct review may be
had in the Supreme Court.
28 U.S.C. Section 1343
(a) The district courts shall have original jurisdiction of any civil action authorized
by law to be commenced by any person: 1) to recover damages for injury to his
person or property, or because of the deprivation of any right or privilege of a
citizen of the United States, 2) to redress the deprivation, under color of any
State law, statute, ordinance, regulation, custom or usage, of any right,
privilege or immunity secured by the Constitution of the United States or by
any Act of Congress providing for equal rights of citizens or of all persons
within the jurisdiction of the United States; and 3) to recover damages or to
secure equitable or other relief under an Act of Congress providing for the
protection of civil rights…
42 U.S.C. Section 1983
Every person who, under color of any statute ordinance, regulation, custom, or
usage, of any State…, subjects, or causes to be subjected, any citizen of the
United States or other person within the jurisdiction thereof to the deprivation
of any rights, privileges, or immunities secured by the Constitution and laws,
shall be liable to the party injured in an action at law, suit in equity, or other
proper proceeding for redress, except that in any action brought against a

7
judicial officer for an act or omission taken in such officer’s judicial capacity,
injunctive relief shall not be granted unless a declaratory decree was violated
or declaratory relief was unavailable. For the purposes of this section…
STATEMENT OF THE CASE
A. Right to Peacefully Protest
Petitioner brought 42 USC §1983 litigation against the CEO of Spaceport
America, a New Mexico government agency, for the intentional and malicious
deprivation of the Petitioner’s First Amendment right to free speech based solely on
the content of his speech and against City of Truth or Consequences (“T or C”), its
Chief of Police and a police officer for retaliatory prosecution for the exercise of
Petitioner’s right to free speech.
In sum, Petitioner filed a Complaint alleging (1) First Amendment Retaliation; (2)
Malicious Prosecution and Abuse of Process; and (3) supervisory and Monell liability
in the U.S. District Court for the District of New Mexico on July 5, 2018. T or C
Respondents moved for partial dismissal on qualified immunity on August 2, 2018,
and Respondent Hicks moved for dismissal on qualified immunity on August 28,
2018. After completion of briefing, the District Court granted in part the T or C
Respondents’ Motion and granted Respondent Hick’s Motion. T or C Respondents
then moved to dismiss the remaining claims on qualified immunity grounds which
after the completion of briefing the District Court granted.
B. District Court Proceedings.

8
The Complaint was filed in the United States District Court for The District of
New Mexico on July 5, 2018. Final judgment was entered on the district court docket
on November 6, 2019. The notice of appeal was filed on December 2, 2019.
C. Tenth Circuit Decision.
The Tenth Circuit Affirmed the District Court decision on December 29, 2020.
The Appeals Court affirmed on the basis that no constitutional violation had occurred
based upon their determination of a fact never adjudicated by the District Court that
“because the Center is not the type of public forum in which the government must
allow picketing and other forms of protest Fenn claims to have engaged in.” Fenn v.
City of Truth or Consequences, 983 F.3d 1143, 1148 (10th Cir. 2020). The Petitioners
petitioned for rehearing on January 11, 2021, and the Tenth Circuit denied rehearing
on January 26, 2021.
REASONS FOR GRANTING THE PETITION
I. THE DISTRICT COURT ERRED IN DISMISSING PETITIONERS’
CASES ON THE BASIS OF QUALIFIED IMMUNITY AND THE
CIRCUIT COURT ERRED IN AFFIRMING THE DISMISSAL.
At the core of the case before the District Court was the basic premise that one
may exercise his free speech peacefully in a public forum as protected under the
Constitution without fear of reprisal from the government based solely on content of
speech that is critical of the government. The District Court erred in granting
qualified immunity to all Respondents and those decisions along with Tenth Circuit’s
affirmance conflicts with this Court’s decision in Nieves v. Bartlett, 139 S. Ct. 1715,
204 L. Ed. 2d 1 (2019) as well as the precedent of the Tenth Circuit.

9
A. The District Court Erred in Affording Dan Hicks Qualified
Immunity
Regarding Mr. Hicks, Petitioner alleged, and the District Court refused to
recognize, discrimination against the free exercise of protected speech by Mr. Hicks
of Mr. Fenn based solely on the content of his speech as reported by Chief Alirez and
Captain Apodaca. The act of trespassing Mr. Fenn from a public area clearly violated
Mr. Fenn’s clearly established right protected by the First Amendment to peaceably
pamphlet in a public place and engage in protected speech. The District Court
concluded that Mr. Hicks was entitled to qualified immunity from suit in his
individual capacity. However, the actions alleged in in the Complaint supported his
personal and specific involvement in discriminatory and retaliatory conduct directed
at Petitioner. Mr. Hicks took the specific action to request a trespass order against
Mr. Fenn when he was invited to do so, in collusion with Chief Alirez, who drove 75
miles to obtain Mr. Hicks signature on the trespass order request.
1. Hicks Violated Petitioner’s First Amendment Rights.
Mr. Fenn correctly pointed out to the District Court that to prove a claim of
retaliation for the exercise of his First Amendment rights, he must prove the
following: (1) he was engaged in constitutionally protected activity; (2) that Hicks’
actions caused Petitioner to suffer an injury that would chill a person of ordinary
firmness from continuing to engage in that activity; and (3) Hicks’ adverse action was
substantially motivated as a response to Petitioner's exercise of constitutionally
protected conduct. Nielander v. Bd. of Cnty Comm’rs, 582 F.3d 1155, 1165 (10th Cir.
2009); Smith v. Plati, 258 F.3d 1167, 1176-77 (10th Cir. 2001).

10
There is no doubt that Mr. Fenn was engaged in a constitutionally protected
activity while present at the public visitor’s center in the open public area to discuss
his concerns and protest the elimination of the senior center and lease of the center
to Mr. Hicks’ entity. This same protected right has been well established and revisited
as recently as 2014. Meyer v. Grant, 486 U.S. 414, 424, 108 S.Ct. 1886, 100 L.Ed.2d
425 (1988)(in the context of petition campaigns, “one-on-one communication” is “the
most effective, fundamental, and perhaps economical avenue of political discourse.”);
McCullen v. Coakley, 134 S. Ct. 2518, 2536, 189 L. Ed. 2d 502 (2014).
As to the second prong, “that Hicks’ actions caused Mr. Fenn to suffer an injury
that would chill a person of ordinary firmness from continuing to engage in that
activity,” Mr. Hicks’ sole argument that was accepted by the District Court, i.e. that
Petitioner was not injured because he could “voice his concerns at other venues.” The
assertion was fundamentally flawed, as seen from the discussion supra., that a
person’s right to protest at public locations is protected and curtailment is limited.
There is no question that Mr. Hicks’ action (to obtain a trespass order for no other
reason than the content of Mr. Fenn’s speech) did chill Mr. Fenn, a person of above
ordinary firmness, because Mr. Hicks’ action in conjunction with other Respondents
did exactly what each intended, to stop Mr. Fenn from seeking redress at the very
location that had been impacted by the City’s actions.
Importantly, Mr. Fenn was falsely arrested for trespass, based solely on a
trespass order derived from representations to Mr. Hicks’ that Mr. Fenn was
“disruptive.” Yet, the only suggested disruptiveness was the content of Mr. Fenn’s

11
speech and seeking redress at the former senior center/vis a vis Spaceport visitor
center. There was no report of vulgar speech, nor report of abusive or hostile speech.
Simply put, but for Mr. Fenn speaking out against the visitor center/senior center
closure he would not have been removed or “trespassed” from the open public location,
accessible by all citizens and invitees and visitors, inclusive of a public library.
This action by Mr. Hicks was motivated as a response to Mr. Fenn’s exercise
of constitutionally protected conduct, his protest in a public forum regarding the use
of portions of 301 S. Foch St. for Spaceport purposes. These averments were evident
from the complaint and included exhibits and the District Court plainly erred in
determining otherwise. Moreover, the Tenth Circuit’s adjudication that the public
area where Mr. Fenn was protesting was not in a public forum is detached from and
unsupported by any allegations in the pleadings in this matter.
2. Petitioner had a Right to Protest at the Visitor Center.
“‘The right to peaceably assemble and petition for redress of grievance . . . are
rights of the citizen guaranteed by the Federal Constitution.’ ” Hague v. Comm. for
Indus. Org., 307 U.S. 496, 513, 59 S. Ct. 954, 963, 83 L. Ed. 1423 (1939), citing to the
Slaughter-House Cases, 16 Wall. page 79, 21 L.Ed. 394. In assessing a restriction on
the right to assemble, the Supreme Court has queried whether the place of assembly
is or is not a traditional public forum. Adderley v. Florida; Greer v. Spock, 424 U.S.
828, 96 S.Ct. 1211, 47 L.Ed.2d 505 (1976); U.S. Postal Service v. Greenburgh Civic
Assns., 453 U.S. 114, 101 S.Ct. 2676, 69 L.Ed.2d 517 (1981). To answer that question,
the Courts have asked whether the character of the place is appropriate for the

12
expression of views and ideas generally. State v. McCormack, 1984-NMCA-042, ¶¶
17-18, 101 N.M. 349, 352, 682 P.2d 742, 745. Not a relevant inquiry is whether the
location is appropriate to the demonstration.
Invariably, the First Amendment provides and protects the rights of United
States citizens to peacefully assemble and seek redress from their government
representatives – regardless of whether those representatives like or desire to hear
such complaints. Long have the Courts been required to preserve the “presumptively
protected status of peaceful picketing activities...” in the face of overreaching to
curtail this well-established right.

See Agric. Labor Relations Bd. v. California

Coastal Farms, Inc., 31 Cal. 3d 469, 481–82, 645 P.2d 739, 745–46 (1982); Kaplan's
Fruit and Produce Co. v. Superior Court (1979) 26 Cal.3d 60, 81, 162 Cal.Rptr. 745,
603 P.2d 1341; United Farm Workers of America v. Superior Court (1976) 16 Cal.3d
499, 505, 128 Cal.Rptr. 209, 546 P.2d 713.)

Thus, courts must be “cautious in

entertaining actions to enjoin or restrain [peaceful picketing activities]’ (United Farm
Workers of America v. Superior Court, supra, 16 Cal.3d 499, 505, 128 Cal.Rptr. 209,
546 P.2d 713) and any action by a government official preventing or impacting the
right to peaceably assemble must “‘be couched in the narrowest terms that will
accomplish the pin-pointed objective permitted by constitutional mandate and the
essential needs of the public order’ (id., at p. 504, 128 Cal.Rptr. 209, 546 P.2d 713).”
Any judicially imposed restraints must be tailored with caution, reserved for cases in
which the threat of harm is clear. See United Farm Workers of America v. Superior
Court, supra, 16 Cal.3d 499, 506, 128 Cal.Rptr. 209, 546 P.2d 713; Kaplan's Fruit and

13
Produce Co. v. Superior Court, supra, 26 Cal.3d at p. 81, 162 Cal.Rptr. 745, 603 P.2d
1341.)
The question the District Court erred in answering is whether Mr. Fenn, a
citizen, had the right to petition and enjoyed freedom of speech at the public visitor
location that he selected and which all other citizens were invited to attend. The
Spaceport America visitor center was an open public location at which every citizen
as well as international visitors, were invited to enter during its open hours. Mr.
Fenn enjoyed the same rights to enter the visitor center as did other citizens and
visitors, as long as his actions were peaceful. Mr. Hicks took specific action to impair
Mr. Fenn’s right to peacefully assembly, to air his grievances and to seek redress
when Mr. Hicks obtained a “trespass order”/restraining order to prevent Mr. Fenn’s
access to the pubic location with the express intent and purpose of quashing Mr.
Fenn’s speech. Mr. Hicks never denied his intent was to stop Mr. Fenn from speaking
out against Spaceport America’s use of the former senior center. Nor did Mr. Hicks
deny that he worked with Respondents Alirez and Apodaca to restrain Mr. Fenn from
access to the public visitor center and cease Mr. Fenn’s speech by issuance of a
trespass order. While “exclusion” from a public location may – in certain instances –
be “lawful” as the District Court accepted, such curtailment of rights to speech and to
seek redress are not lawful simply because a public official personally desires to
exclude access based upon finding the content spoken by the person to be critical of
the government’s actions. Such exclusion is not lawful when the intent and purpose
of the actor is to prevent speech, and then perfected outside of the careful judicial

14
considerations required before curtailing First Amendment rights.
This

Court

has

reaffirmed

that

pamphleteering

and

one-on-one

communications are First–Amendment–protected activities. See McCullen, 134 S.Ct.
at 2536. In McCullen, the Court “observed that one-on-one communication is the most
effective, fundamental, and perhaps economical avenue of political discourse” and
that “no form of speech is entitled to greater constitutional protection” than
leafletting. Id. (internal quotation marks and alteration omitted). This Court went on
to state that when a governmental actor “makes it more difficult to engage in these
modes of communication, it imposes an especially significant First Amendment
burden.” Id. Petitioner’s communications here are thus clearly established to be
protected by the First Amendment.
Nor did Mr. Hicks argue to the District Court or provide any facts to support
or legitimately assert that the location from which he sought to restrict Mr. Fenn was
not a public location. Instead, the District Court accepted the suggestion that a person
can be “excluded” from a location. While that may be the case, such exclusion must
be considered in the constitutional context, when it is sought at a public location:
Turning now to the constitutional restrictions on speech, our analysis is
guided by Plaintiffs' wish to engage in First Amendment-protected
activity on government property. “Nothing in the Constitution requires
the Government freely to grant access to all who wish to exercise their
right to free speech on every type of Government property without
regard to the nature of the property or to the disruption that might be
caused by the speaker's activities.” Cornelius, 473 U.S. at 799–800, 105
S.Ct. 3439. But in some instances, the public may have acquired by
tradition or prior permission the right to use government property for
expressive purposes. See id. at 802, 105 S.Ct. 3439. To determine when
and to what extent the Government may properly limit expressive
activity on its property, the Supreme Court has adopted a range of

15
constitutional protections that varies depending on the nature of the
government property, or forum. Id. at 800, 105 S.Ct. 3439.
Verlo v. Martinez, 820 F.3d 1113, 1128–29 (10th Cir. 2016). Thus, applying Nieves,
this Court should find Mr. Hicks’ animus was clear and necessarily shows that the
actions of Mr. Hicks induced by the actions of Chief Alirez and Captain Apodaca who
but for the signing of the trespass order could not have pressed charges for trespass
against Mr. Fenn.
B. The District Court Erred in Affording T or C Respondents
Qualified Immunity
1. The Actions of Chief Alirez and Captain Apodaca to “Press
Charges” by Seeking Out and Inducing Mr. Hicks to Obtain a
Trespass Order Against Mr. Fenn when there was No Probable
Cause that a Crime was Being Committed was Objectively
Unreasonable and Therefore Conflicts with the Supreme Court’s
Decision in Nieves regarding Retaliatory Arrest.
Regardless of whether the District Court reviewed the actions of T or C
Respondents as a false arrest or a malicious prosecution under Nieves; the decision
should not have been to afford qualified immunity with regard to retaliatory arrest
based upon probable cause. In reviewing the lack of probable cause requirement for
retaliatory arrest this Court examined both malicious prosecutions and false arrest
context to conclude that the “no-probable-cause requirement should not apply when
a plaintiff presents objective evidence that he was arrested when otherwise similarly
situated individuals not engaged in the same sort of protected speech had not been.
Cf. United States v. Armstrong, 517 U.S. 456, 465, 116 S.Ct. 1480, 134 L.Ed.2d 687
(1996).” Nieves v. Bartlett, 139 S. Ct. 1715, 1727, 204 L. Ed. 2d 1 (2019). Thus, when
the record clearly indicates that there was no other evidence that a crime was being

16
committed and that the officers were responding purely to the content and location of
Mr. Fenn’s speech to press charges, arrest Mr. Fenn and prosecute Mr. Fenn that
objectively but for the officer’s animus towards the protected activities of Mr. Fenn
he would not have been persecuted. And having sufficiently demonstrated the same
to the District Court as he did, Mr. Fenn’s claims for retaliatory prosecution should
have been allowed to “proceed in the same manner as claims where the plaintiff has
met the threshold showing of the absence of probable cause. See Lozman, 585 U.S.,
at ––––, 138 S.Ct., at 1952–1953.” Nieves at 1727. Thus, it is beyond argument that
the retaliatory arrest of Mr. Fenn falls well outside of the realm for which Chief Alirez
and Captain Apodaca enjoyed qualified immunity.

This Court’s application of

Hartman in Nieves serves to highlight that violation of Mr. Fenn’s constitutional
rights through retaliatory arrest based solely upon the location and content of his
peaceful protest was clearly established at the time of injury.
2. The District Court’s Decision Regarding the Prosecution of Mr.
Fenn is Inconsistent with the Jurisprudence from the U.S.
Supreme Court and the 10th Circuit.
Likewise, rightfully putting aside the analysis of whether or not the ensuing
prosecution of Mr. Fenn was initiated with malice, the District Court erred in
determining that the prosecution did not terminate favorably. Of course, Fourth
Amendment malicious prosecution requires “(1) the defendant caused the plaintiff's
continued confinement or prosecution; (2) the original action terminated in favor of
the plaintiff; (3) no probable cause supported the original arrest, continued
confinement, or prosecution; (4) the defendant acted with malice; and (5) the plaintiff

17
sustained damages.” Wilkins v. DeReyes, 528 F.3d 790, 799 (10th Cir. 2008). The
District Court, in evaluating favorable termination, should have considered and
accepted that entry of Mr. Fenn’s legal counsel into the criminal case and the
subsequent discussions of counsel resulting in the dismissal nolle prosequi, coupled
with the fact that the case was never refiled within the statute of limitations proved
favorable termination for Mr. Fenn.

The Tenth Circuit’s guidance should have

confirmed for the District Court this where it stated:
[I]n Wilkins ... the prosecutor had dismissed the underlying charges by
filing a so-called nolle prosequi—a voluntary dismissal of charges.... We
found the mere fact that a prosecutor had chosen to abandon a case was
insufficient to show favorable termination. Instead, the termination
must in some way “indicate the innocence of the accused.” ... (quoting
Restatement (Second) of Torts § 660 cmt. a (1977)). When it is unclear
whether the termination indicates innocence, we “look to the stated
reasons for the dismissal as well as to the circumstances surrounding it”
and determine “whether the failure to proceed implies a lack of
reasonable grounds for the prosecution.” ... Or, as a leading treatise put
it, the abandonment of prosecution that “does not touch the merits ...
leaves the accused without a favorable termination.” Dan B. Dobbs et
al., Dobb's Law of Torts § 590 (2d ed. 2015).
Cordova v. City of Albuquerque, 816 F.3d 645, 651 (10th Cir. 2016) (emphasis added).
Importantly, as noted above, the actions of Respondents to manufacture
probable cause, out of retaliation for the content of Mr. Fenn’s protected speech, is
fatal to the conclusion the District Court reached in analyzing malicious prosecution.
Perhaps more importantly, with regard to malicious prosecution’s second element,1
the fact that litigation terminated by the admission that there was “insufficient
evidence to proceed” by the District Attorney’s Office after Mr. Fenn pointed out pro

1

See Wilkins v. De Rey 528 F.3d 790,799(10th Cir. 2008)

18
se in his Motions to Dismiss (which though denied resulted in the District Attorney
dismissing the case nolle prosequi for the same reasons) that the element of intent
could not be met to convict a person of trespass that entered into a public place upon
the reasonable belief that their First Amendment right to engage in protected speech
to peaceably protest gave them the right to be in an open public forum. Thus, a
recognition that there was insufficient evidence to prosecute is exactly the type of
favorable termination that Mr. Fenn sought pro se in the criminal proceeding.
Two other critical facts largely ignored by the District Court support the notion
that Mr. Fenn’s criminal prosecution terminated favorably. The first is the fact that
following Mr. Fenn’s retention of counsel, along with that counsel’s entry into the case
to discuss and pointing out to the District Attorney’s Office the lack of merit to the
criminal prosecution, caused the District Attorney’s Office to abandon their
prosecution. Further, while the abandonment of prosecution was without prejudice,
it was never refiled before the statute of limitations ran. All of these add support to
the notion that Mr. Fenn has met his “burden to show that the termination was
favorable.” Cordova v. City of Albuquerque, 816 F.3d 645, 630 (10th Cir. 2016). The
admission of the District Attorney to recognize that with a complete factual record
before them they lack sufficient evidence to prosecute such that a jury could easily
determine that proceeding terminated “for reasons indicative of innocence” is a
termination favorable to Petitioner. See M. G. v. Young, 826 F.3d 1259, 1263 (10th Cir.
2016).

19
Thus, the remaining inquiry not reached by the District Court of whether or
not the third element of determining “probable cause…during the institution of legal
process” was fact specific and critical for the District Court to have evaluated in
examining the claim of malicious prosecution. McGarry v. Bd. Of Cty. Comm’rs for
Cty. Of Lincoln, 294 F. Supp.3d 1170, 1194 (D.N.M. 2018). At the time prosecution
was initiated the Respondents clearly knew they lacked an essential element of
probable cause to support prosecution, namely, that Mr. Fenn had “enter[ed] or
remain[ed] on the lands of another knowing that such consent to enter or remain is
denied.” NMSA 1978 § 30-14-1. What the District Court ignored was that that the
Respondents were lacking in the elements necessary to establish probable cause at
the time that they sought a trespass order as evidenced by the fact that Respondents
had to contact the current tenant and travel to Las Cruces to obtain a new trespass
order for Spaceport America’s Visitor Center as the current tenant had never
complained of Mr. Fenn’s presence in their leased, open-to-the-public space, much
less requested that Mr. Fenn be trespassed from Spaceport America Visitor’s Center.
A previous tenant, ostensibly still in violation of Mr. Fenn’s First Amendment rights,
Follow the Sun Tours (a government actor), had requested that Mr. Fenn no longer
be allowed to peacefully protest against their government action, but they we no
longer the tenants at the time Mr. Fenn resumed his exercise of protected speech to
peacefully protest the use of a government public space for the government agency
Spaceport America Visitor’s Center. Respondents admitted to the District Court that
the critical element of knowingly entering and remaining at a place where consent

20
was revoked to remain was notably not present at the time that they commenced
their malicious prosecution and retaliatory prosecution such that they had to
proactively seek out and persuade the current tenant to revoke consent so that they
could claim probable cause. This was the equivalent of filing a deficient affidavit to
obtain a warrant for arrest or seizure. Under the great weight of federal
jurisprudence and New Mexico substantive law that warrant must be tossed out as
lacking probable cause just as this arrest must be held to have lacked probable cause.
See Franks v. Delaware, 438 U.S. 154, 156, 98 S. Ct. 2674, 2676, 57 L. Ed. 2d 667
(1978); see also State v. Haidle, 2012-NMSC-033, ¶ 12, 285 P.3d 668, 672. Obtaining
a trespass order from a current tenant that had not complained of Mr. Fenn’s conduct
of protected speech during the act of peaceful protest is the functional equivalent to
obtaining an arrest warrant based upon the fabrication of facts that support that a
crime had been committed.
As to retaliatory prosecution, Mr. Fenn presented to the District Court what
the elements of a retaliatory prosecution or vindictive prosecution are, but the
District Court misapplied the facts to the law: first, the undisputed material facts
establish Mr. Fenn was clearly engaged in protected speech to criticize his
government during peaceful protest which is unquestionably a constitutionally
protected activity especially in light of the fact that at the time of the initiation of the
prosecution there was no trespass order (valid or not) in place; second, it is beyond
question that Mr. Fenn’s arrest and prosecution for engaging in peaceful protest
would chill a person of ordinary firmness from continuing to engage in that activity;

21
and third, that Respondents’ actions were undeniably motivated solely as a response
to the First Amendment speech rights of Mr. Fenn that are only discernably different
from any other person based upon the content of his speech as being critical of the
government that employed those officers. See Becker v. Kroll, 494 F.3d 904, 925 (10th
Cir. 2007).
Thus, retaliatory prosecutions such as this one that also display a lack of
probable cause, see Hartman v. Moore, 547 U.S. 250, 262 (2006); see also Cowley v.
West Valley City, supra, 2018 WL 1305709 at *8 & n.12, are appropriately viewed
through the lens of the 10th Circuit’s decisions on vindictive prosecutions that “if the
misuse of the legal procedure is egregious there may be a deprivation of constitutional
dimensions for which a plaintiff can invoke § 1983.” Lusby v. T.G. & Y. Stores, 749
F.2d 1423, 1431 (10th Cir.1984), cert. denied, 474 U.S. 818, 106 S.Ct. 65, 88 L.Ed.2d
53 (1985). Such view was reiterated in Anthony v. Baker, 767 F.2d 657, 662–63 (10th
Cir.1985). The 10th Circuit has also provided helpful guidance of Poole v. County of
Otero, 271 F.3d 955 (10th Cir. 2001), in evaluating a claim for violation of a First
Amendment right thru vindictive prosecution stating:
[a] claim for vindictive prosecution ordinarily arises when, during the
course of criminal proceedings, a Plaintiff exercises constitutional or
statutory rights and the government seeks to punish him therefor by
instituting additional or more severe charges, see, e.g., United States v.
Wall, 37 F.3d 1443, 1448 (10th Cir. 1994). In this context, such a claim
is governed by a two-part test, see United States v. Lampley, 127 F.3d
1231, 1245 (10th Cir. 1997). Nonetheless, we recognize that this court
has not limited the term to the criminal prosecution setting, but has
characterized First Amendment claims similar to Mr. Poole's as
“vindictive prosecution.” See Wolford v. Lasater, 78 F.3d 484, 488 (10th
Cir. 1996) (comparing a First Amendment claim to a “vindictive
prosecution action”); Gehl Group, 63 F.3d at 1534 (stating that a First

22
Amendment claim alleging retaliatory prosecution “is essentially one of
vindictive prosecution”); United States v. P.H.E., Inc., 965 F.2d 848, 853
(10th Cir. 1992) (discussing vindictive prosecution claim in terms of
prosecution motivated by “the improper purpose of interfering with the
Appellee's constitutionally protected speech”); cf. Phelps v. Hamilton, 59
F.3d 1058, 1065 n.12 (10th Cir. 1995) (stating that prosecution brought
for the purpose of hindering an exercise of constitutional rights may
constitute “harassing and/or bad faith prosecution”).”
Poole v. County of Otero, 271 F.3d 955, fn. 5 (10th Cir. 2001) (emphasis added).
In Wolford, the Tenth Circuit examined whether a plaintiff’s constitutional
rights were violated by the government’s prosecution of her, where she alleged the
government’s action was motivated in part to retaliate against her for exercising her
First Amendment rights. In that case the 10th Circuit commented that “[i]n the
context of a government prosecution, the decision to prosecute which is motivated by
a desire to discourage protected speech or expression violates the First Amendment
and is actionable under § 1983.” Wolford v. Lasater, 78 F.3d 484, 488 (10th Cir. 1996).
The Tenth Circuit reasoned that a central question to be addressed in such an action
was “whether retaliation for the exercise of First Amendment rights was the ‘cause’
of the prosecution and the accompanying injuries to plaintiff.” Id.; citing Rakovich v.
Wade, 850 F.2d 1180, 1189 (7th Cir. 1988)). Likewise, in Gehl Group v. Koby, 63 F.3d
1528 (10th Cir. 1995), a controversy the 10th Circuit characterized as a vindictive
prosecution case brought in retaliation against the plaintiffs’ exercise of their First
Amendment rights, 63 F.3d at 1534, the Tenth Circuit noted that “the ultimate
inquiry is whether as a practical matter there is a realistic or reasonable likelihood
of prosecutorial conduct that would not have occurred but for the hostility or punitive
animus towards the Appellee because he exercised his specific legal rights.” Id. at n.6

23
(emphasis added) The Tenth Circuit framed the § 1983 claim for First Amendment
rights violations under the tort of “vindictive prosecution.” Id. “These cases make
clear that a governmental lawsuit brought with the intent to retaliate against a
citizen for the exercise of his First Amendment rights is of itself a separate violation
that provides grounds for a § 1983 suit.” Beedle v. Wilson, 422 F.3d 1059 United
States Court of Appeals (10th Cir. 2005)Ibid. at 1066.
Thus, when the District Court should have appropriately found that when
Respondents initiated their prosecution, by seeking out a trespass order to
manufacture probable cause for the arrest and continued prosecution of Mr. Fenn,
that they lacked probable cause, then the District Court should have found that Mr.
Fenn could sustain a Section 1983 claim for both a malicious prosecution and a
vindictive prosecution claim.
3. Without a Determination that Respondents are Entitle to
Qualified Immunity the District Court’s Decision Regarding the
Monell claims was in Error.
The District Court’s determination of that qualified immunity is determinative
of Mr. Fenn’s Monell claims, at least initially. Thus, without belaboring the analysis
contained in the District Court’s decision, Mr. Fenn offers that if the Respondents
lacked probable cause to initiate the prosecution that they undertook at the onset;
then the District Court’s decision must fail with regard to both Monell claims and the
state law claim for Malicious Abuse of Process. See Monell v. New York City Dep’t of
Social Servs, 436 U.S. 658, 694 (1978); see also Durham v. Guest, 2009-NMSC-007, ¶

24
29, 145 N.M. 694; see also Fleetwood Retail Corp. of N.M. v. LeDoux, 2007-NMSC047, ¶ 12, 142 N.M. 150.
C. The Tenth Circuit was Wrong to Engage in Fact Finding.
Finally, facing a clearly erroneous District Court decision the Tenth Circuit
created an escape hatch in the factual record regarding whether or not the large open
meeting space open to the public in the Spaceport Visitor Center was a public forum
in order to preserve qualified immunity for the Respondents. Quite simply, the facts
regarding whether or not this was a public forum were never at issue before the
District Court, because the parties never disputed that it was. Yet, the Tenth Circuit,
without the benefit of substantive factual record regarding the space, adjudicated for
the first time on appeal that the open public space was not a public forum.
Few things are as basic and fundamental to our system of justice as the notion
that we are innocent until proven guilty. Such an important precept comes into play
in a civil case such as this when the District Court, and then the Tenth Circuit,
construed or fabricated facts to convict Mr. Fenn of being “obnoxious” or determine
without any factual development that Mr. Fenn was not peacefully protesting in a
traditional public forum. This Court has been abundantly clear for a significant
amount of time that “factfinding is the basic responsibility of district courts, rather
than appellate courts, and ... the Court of Appeals should not have resolved in the
first instance this factual dispute which had not been considered by the District
Court.” DeMarco v. United States, 415 U.S. 449, 450, n., 94 S.Ct. 1185, 1186, n., 39
L.Ed.2d 501 (1974). Moreover, where there is more than one way to construe ultimate

25
facts, as is the case here regarding Mr. Fenn’s conduct, or whether or not the public
space was traditional public fora, this Court has directed that a remand is the proper
course unless the record permits only one resolution of the factual issue. Kelley v.
Southern Pacific Co., 419 U.S. 318, 331–332, 95 S.Ct. 472, 479–480, 42 L.Ed.2d 498
(1974). Instead, contrary to the holdings of this Court, the Tenth Circuit engaged not
only in affirming the mistakes of the district court but took its own independent step
to further construe allegations or create factual support to construe conclusions that
support a finding of qualified immunity. As the Supreme Court has stated:
Proceeding in this manner seems to us incredible unless the Court of
Appeals construed its own well-established Circuit rule with respect to
its authority to arrive at independent findings on ultimate facts free of
the strictures of Rule 52(a) also to permit it to examine the record and
make its own independent findings with respect to those issues on which
the district court's findings are set aside for an error of law.
Pullman-Standard v. Swint, 456 U.S. 273, 293, 102 S. Ct. 1781, 1792, 72 L. Ed. 2d 66
(1982). Thus, Tenth Circuit erred in construing the facts as follows:
1) Dan Hicks, the Spaceport Director, never complaint about Mr. Fenn,
instead police initiated a conversation with Mr. Hicks and encouraged
him to request a trespass based upon their opinion of Mr. Fenn’s
speech and conduct.
2) There is absolutely no factual support in the record that would allow
the lower court, much less this Panel on Appeal, to construe that there
was probable cause to trespass Mr. Fenn from the open auditorium
spaces. Moreover, unsubstantiated, unfounded allegations from other
building tenants not in control of the portion of the building where

26
Mr. Fenn was peacefully protesting, of feeling unsafe that a senior
citizen would suddenly turn violent or begin damaging property when
he did not exhibit nor is even alleged to have engaged in words or
actions that could reasonably be indicative of imminent threat,
cannot provide the support Tenth Circuit used to shield the
government with qualified immunity.
3) There is no factual development that supports the Tenth Circuit’s
determination that the auditorium, no longer used (for over 75 years)
for meetings and political assembly, currently housing a promotional
exhibit for a government agency, was not “traditional public fora.” In
fact, there are actually facts not in the record that disprove this
conclusion by the Tenth Circuit.
Thus, the Tenth Circuit created facts not contained in the record that never
happened, such as that Respondent Dan Hicks complained about Mr. Fenn and that
the space (previously an auditorium used for public meetings) was not a type of space
where a person would traditionally engage in protected speech or conduct such as
petitioning for redress. Such action by the Tenth Circuit is incorrect and is a clear
contradiction of this Court’s direction. The Tenth Circuit in so interpreting facts
compounded its error by affirming the district court’s decision construing facts
concerning Mr. Fenn’s behavior against Mr. Fenn. Both the trial and reviewing
courts must accept as true all material allegations of the complaint and must construe
the complaint in favor of the complaining party. E.g., Jenkins v. McKeithen, 395 U.S.

27
411, 421—422, 89 S.Ct. 1843, 1848—1849, 23 L.Ed.2d 404 (1969).
CONCLUSION
It is the sincere hope that cases that present such an extreme departure from
the clearly established direction of this Court are as rare as it seems to present to
Petitioner, but it should be just as clear that to allow such an obviously flawed
decision to stand would be manifestly unjust. And despite the troubling trend of the
erosion of the ability to hold one’s government accountable for depriving a person of
their liberty interests, this case presents a startling step too far, a step over a line
already far removed from where it started, that ignores the precedent of this Court
and the clearly established weight of the jurisprudence from New Mexico. This
Court’s review is necessary if the boundaries of qualified immunity are to mean
anything, and the matter is likely capable of being corrected summarily which
Petitioners respectfully pray the Court consider.
Respectfully submitted,
WESTERN AGRICULTURE, RESOURCE
AND BUSINESS ADVOCATES, LLP
/s/ A. Blair Dunn
A. Blair Dunn, Esq.
400 Gold Ave SW, Suite 1000
Albuquerque, NM 87102
(505) 750-3060
abdunn@ablairdunn-esq.com
Attorney for Ron Fenn

28
CERTIFICATE OF COMPLIANCE
Undersigned counsel certifies that Petitioner’s petition complies with the typevolume limitation of Supreme Court Rule 33.1 and 33.2 regarding page limitation as
it consists of 7316 words using Microsoft Office Word 2010 in 12-point font in the
Century family.
CERTIFICATE OF SUBMISSION
I hereby certify that the copy of the foregoing submitted in digital form via the
Court’s ECF system is an exact copy of the written document filed with the clerk. I
further certify that all required privacy redactions have been made and that this brief
has been scanned for viruses with the Avast Premier version 11.1.2245 and is free of
viruses.
CERTIFICATE OF SERVICE
I certify that on June 15, 2021, I filed the foregoing through the United States
Supreme Court ECF System and served one hardcopy of the Petition with the Clerk
of the Court. Additionally, I certify that on June 15, 2021, I caused a copy of the
foregoing to be served upon counsel for Respondents via their counsel of record as
follows:
JARMIE & ROGERS, P.C.
Mark D. Standridge
Cody R. Rogers
Po Box 344
Las Cruces, NM 88004
mstandridge@jarmielaw.com
crogers@jarmielaw.com
Attorneys for City of Truth or Consequences,
Lee Alirez, and Michael Apodaca
MONTGOMERY & ANDREWS, P.A.
Michael R. Heitz
Matthew A. Zidovsky
PO Box 2307
Santa Fe, NM 87504-2307
mheitz@montand.com
mzidovsky@montand.com
Attorneys for Daniel Hicks
/s/ A. Blair Dunn
A. Blair Dunn, Esq.

APPENDIX

Appellate Case: 19-2201

1a
Document: 010110457297
PUBLISH

FILED Page: 1
Date Filed: 12/29/2020
United States Court of Appeals
Tenth Circuit

December 29, 2020
Christopher M. Wolpert
Clerk of Court

UNITED STATES COURT OF APPEALS
TENTH CIRCUIT

RON FENN,
Plaintiff - Appellant,
v.

No. 19-2201

CITY OF TRUTH OR
CONSEQUENCES; MICHAEL
APODACA, Truth or Consequences
Police Captain, individually acting
under the color of law; LEE ALIREZ,
Truth or Consequences Police Chief,
individually acting under color of state
law; DANIEL HICKS, Director of
Spaceport America,
Defendants - Appellees.

APPEAL FROM THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
(D.C. NO. 2:18-CV-00634-WJ-GBW)

A. Blair Dunn, Western Agriculture, Resource an Business Advocates, LLP,
Albuquerque, New Mexico, for Appellant.
Matthew Zidovsky (Michael R. Heitz with him on the brief), Montgomery &
Andrews, P.A., Santa Fe, New Mexico, for Appellee Daniel Hicks.
Mark Standridge (Cody R. Rogers with him on the brief), Jarmie & Rogers, P.C.,
Las Cruces, New Mexico, for Appellees City of Truth or Consequences, Chief
Lee Alirez, and Captain Michael Apodaca.

Appellate Case: 19-2201

2a
Document: 010110457297

Date Filed: 12/29/2020

Page: 2

Before TYMKOVICH, Chief Judge, LUCERO, and BACHARACH, Circuit
Judges.

TYMKOVICH, Chief Judge.

The City of Truth or Consequences converted a community center for
senior citizens into a visitor center operated by Spaceport America. Seeking
leadership in the emerging space industry, New Mexico created Spaceport as a
public agency to attract investment in a planned space launch facility near Truth
or Consequences. The facility, the Lee Belle Johnson Center, contained not only
Spaceport, but other tenants, including Geronimo Trail Scenic Byway and Follow
the Sun Tours.
A local resident, Ron Fenn, was unhappy with this change, and beginning
in 2015 he publicly protested his opposition over a period of several years. Some
of his protests were inside the building and included offensive behavior and
unauthorized uses of the facility. Several tenants in the building, including
Spaceport Director Daniel Hicks, complained to local law enforcement about
Fenn’s behavior and presence at the Center. He was issued three no trespass
notices pursuant to New Mexico law over that time. Finally, in June 2017, Fenn
was arrested and charged with trespass. The charges were later dismissed.

-2-

Appellate Case: 19-2201

3a
Document: 010110457297

Date Filed: 12/29/2020

Page: 3

Fenn sued, asserting (1) a 42 U.S.C. § 1983 civil rights claim for First
Amendment retaliation against Hicks, arresting officer Michael Apodaca, and
Police Chief Lee Alirez; (2) a § 1983 claim for malicious prosecution against
Apodaca and Alirez; (3) claims against Truth or Consequences for supervisory
liability and under Monell v. Dep’t of Soc. Servs., 436 U.S. 658 (1978); (4) a
§ 1983 claim for supervisory liability against Alirez; and (5) a state law claim for
malicious abuse of process against Apodaca and Alirez.
The district court rejected Fenn’s claims on qualified immunity grounds,
and we affirm. The individual defendants are entitled to qualified immunity
because no constitutional violation occurred. And, in the absence of a
constitutional violation by Apodaca or Alirez, there is no basis for the Monell and
supervisory claims. Finally, the district court correctly dismissed Fenn’s state law
claim for malicious abuse of process.

I. Background
As the district court noted, Fenn has “a lengthy history of being asked to
leave the Lee Belle Johnson Center.” App. at 112. In June 2015, a tenant at the
Center asked police to ban Fenn from the premises because he was offensive and
made her feel unsafe. Another tenant reported to the police that Fenn was
improperly soliciting business at the Center and requested he be banned from the
Center. Police were told by witnesses that while at the Center, Fenn handed out a

-3-

Appellate Case: 19-2201

4a
Document: 010110457297

Date Filed: 12/29/2020

Page: 4

business card that read, “Spaceport Tour Video Memory Services,” and asked for
donations in connection with his video services.
Apodaca and Alirez subsequently served no-trespass notices on Fenn as a
result of the tenants’ requests. Fenn was later prosecuted for conducting business
without a license and convicted on September 9, 2015.
Approximately a year later, someone contacted the police department and
reported Fenn had entered the Center and was making “obnoxious comments.”
Apodaca reported to the Center and was informed Fenn had been “carrying on”
about how the building was no longer being used as a senior center. Apodaca
took no action against Fenn.
Apodaca responded to another call from the Center in May 2017.
Witnesses reported Fenn had been on the premises yet again and was putting up
posters. One tenant expressed concern that expensive items kept in the Center
could be damaged or stolen, and another notified the officer she was interested in
pursuing a no-trespass notice against Fenn to prevent him from returning. Around
the same time, Hicks also requested such a notice on behalf of Spaceport—the
first such request made by Spaceport. After collecting Hicks’ complaint, Alirez
served the new no-trespass notice on Fenn.
On June 4, 2017, someone at the Center again contacted the police to report
Fenn’s presence inside the building. An officer responded and found Fenn inside

-4-

Appellate Case: 19-2201

5a
Document: 010110457297

Date Filed: 12/29/2020

Page: 5

the “common use area of the building,” in an area housing a satellite library
(although the library was closed at the time). The responding officer told Fenn to
leave, but he refused. The officer then issued Fenn a citation for trespass, which
Alirez later offered to hold in abeyance as long as Fenn committed no further
violations.
Two weeks later, an officer was dispatched to respond to yet another report
of Fenn’s trespassing. Fenn told the responding officer he was not trespassing but
protesting. Both the officer and Alirez ordered Fenn to leave, and he again
refused. Alirez then arrested Fenn and a complaint was filed against him for
Criminal Trespass pursuant to N.M. Stat. § 30-14-1(C).
In the criminal case, Fenn filed a motion to dismiss for failure to establish
essential elements of the offense. The motion was denied after a hearing. The
criminal case, however, was later dismissed without prejudice and never refiled.
In the dismissal papers, the district attorney stated the charges were being
dismissed because there was “insufficient evidence to proceed with charges at this
time.” App. at 117 .

II. Analysis
Fenn argues that all of his claims should be allowed to proceed to trial.
We disagree, concluding the district court properly granted qualified immunity on
Fenn’s § 1983 claims of First Amendment retaliation and malicious prosecution.
-5-

Appellate Case: 19-2201

6a
Document: 010110457297

Date Filed: 12/29/2020

Page: 6

Fenn did not establish the elements of these constitutional claims. And because
those claims fail, his claims for supervisory liability against Alirez and for Monell
liability against the City also fail. Finally, Fenn’s state claim for malicious abuse
of process fails because he cannot show the criminal complaint was unsupported
by probable cause.
We review de novo a district court’s dismissal of an action under Rule
12(b)(6), as well as a district court’s grant of summary judgment under Rule 56.
Khalik v. United Air Lines, 671 F.3d 1188, 1190 (10th Cir. 2012) (Rule 12(b)(6)
dismissals); Simms v. Okla. ex rel. Dep’t of Mental Health & Substance Abuse
Servs., 165 F.3d 1321, 1326 (10th Cir. 1999) (grants of summary judgment).
Defendants here raised a defense of qualified immunity, “which shields
public officials from damages actions unless their conduct was unreasonable in
light of clearly established law.” T.D. v. Patton, 868 F.3d 1209, 1220 (10th Cir.
2017). “Once an individual defendant asserts qualified immunity, the plaintiff
carries a two-part burden to show: (1) that the defendant’s actions violated a
federal constitutional or statutory right, and, if so, (2) that the right was clearly
established at the time of the defendant’s unlawful conduct.” Gutierrez v. Cobos,
841 F.3d 895, 900 (10th Cir. 2016) (internal quotation marks omitted).
We consider each of Fenn’s claims in turn.

-6-

Appellate Case: 19-2201

7a
Document: 010110457297

Date Filed: 12/29/2020

Page: 7

A. First Amendment Retaliation
Fenn argues that he has sufficiently alleged the violation of his First
Amendment right to peaceful assembly and protest, and that the district court
erred in concluding otherwise. We disagree.
To prove a claim of retaliation for the exercise of First Amendment rights,
Fenn must establish: (1) he was engaged in constitutionally protected activity;
(2) that Defendants’ actions caused Fenn to suffer an injury that would chill a
person of ordinary firmness from continuing to engage in that activity; and (3) the
Defendants’ adverse action was substantially motivated as a response to Fenn’s
exercise of constitutionally protected conduct. Nielander v. Bd. of Cty. Comm’rs,
582 F.3d 1155, 1165 (10th Cir. 2009).
Fenn has failed to establish a violation of his First Amendment rights for
two reasons. First, he has not shown he was engaged in constitutionally protected
activity because the Center is not the type of public forum in which the
government must allow picketing and other forms of protest Fenn claims to have
engaged in. “Nothing in the Constitution requires the Government freely to grant
access to all who wish to exercise their right to free speech on every type of
government property without regard to the nature of the property.” Cornelius v.
NAACP Legal Def. & Educ. Fund, 473 U.S. 788, 799–800 (1985). The Center is a
city-owned building, leased to various entities, and we conclude it is a nonpublic

-7-

Appellate Case: 19-2201

8a
Document: 010110457297

Date Filed: 12/29/2020

Page: 8

forum. In contrast, traditional public fora are places that “by long tradition or by
government fiat have been devoted to assembly and debate,” such as streets,
sidewalks, and parks. Perry Ed. Ass’n v. Perry Local Ed. Ass’n, 460 U.S. 37, 45
(1983).
Our case law illustrates this distinction. 1 In Hawkins v. City & County of
Denver, 170 F.3d 1281, 1287–88 (10th Cir. 1999), we held that the main walkway
of the Denver Performing Arts Complex, which the city leased to several
commercial and public agency tenants, was not a traditional public forum despite
its high volume of public traffic. We explained that although the walkway was
generally open to the public, “[p]ublicly owned or operated property does not
become a public forum simply because members of the public are permitted to
come and go at will.” Id. at 1287 (internal quotations omitted). That is because
“when government property is not dedicated to open communication, the
government may—without further justification—restrict use to those who
participate in the forum’s official business.” Perry, 460 U.S. at 53; see also
International Society for Krishna Consciousness v. Lee, 505 U.S. 672, 686 (1992)
(O’Connor, J., concurring). We also noted in Hawkins that the walkway was not

1

In addition, a designated public forum is a place the government creates “by
intentionally opening a non-traditional forum for public discourse.” Cornelius v.
NAACP Legal Defense & Ed. Fund, Inc., 473 U.S. 788, 802 (1985). Fenn has not
argued the Center is a designated public forum.
-8-

Appellate Case: 19-2201

9a
Document: 010110457297

Date Filed: 12/29/2020

Page: 9

analogous to a public right of way or thoroughfare because it “does not form part
of Denver’s . . . transportation grid, for it is closed to vehicles, and pedestrians do
not generally use it as a throughway to another destination.” 170 F.3d at 1287.
The same holds true with respect to the Center, which has been leased to
various tenants for specific uses, and is not used as a throughway or other
pedestrian walkway. Even if the Center may have at one time been “open-to-thepublic space,” as Fenn puts it, that does not by itself confer the status of a
traditional public forum. “The government may, by changing the physical nature
of its property, alter it to such an extent that it no longer retains its public forum
status.” Hawkins, 170 F.3d at 1287. And while First Amendment restrictions in a
nonpublic forum may still be challenged as unreasonable in light of the purposes
they are intended to serve, see id. at 1288–89, Fenn has made no such argument
here. Rather, he continues to insist that the Center is a traditional public forum
for purposes of the First Amendment. It is not.
Second, where the adverse action takes the form of an arrest and
subsequent prosecution, the plaintiff must show an absence of probable cause.
Hartman v. Moore, 547 U.S. 250, 252, 265–66 (2006) (retaliatory prosecution);
Nieves v. Bartlett, 139 S. Ct. 1715, 1726 (2019) (retaliatory arrest). The presence
of probable cause, therefore, is a bar to a First Amendment retaliation claim, and
Fenn has not shown a lack of probable cause here.

-9-

Appellate Case: 19-2201

10a
Document: 010110457297

Date Filed: 12/29/2020

Page: 10

“Probable cause is based on the totality of the circumstances, and requires
reasonably trustworthy information that would lead a reasonable officer to believe
that the person about to be arrested has committed or is about to commit a crime.”
Cortez v. McCauley, 478 F.3d 1108, 1116 (10th Cir. 2007). Here, the Defendants
had ample trustworthy information that would have led a reasonable officer to
believe Fenn had committed criminal trespass under New Mexico law. The
relevant portion of the trespass statute states: “Criminal trespass . . . consists of
knowingly entering or remaining upon lands owned, operated or controlled by the
state or any of its political subdivisions knowing that consent to enter or remain is
denied or withdrawn by the custodian thereof.” N.M. Stat. § 30-14-1(C). The
Center is owned by the City of Truth or Consequences. And Fenn’s own
complaint alleges that building tenants reported to the police that Fenn’s behavior
made some tenants feel unsafe and gave rise to concerns about damage or theft,
thus resulting in at least three no-trespass notices being issued against him. App.
at 10–12. On this set of facts, there was probable cause for the officers to arrest
Fenn after multiple violations of that notice, and for the subsequent prosecution
of Fenn for criminal trespass.
Fenn argues, however, that a lack of probable cause is not a required
element of First Amendment retaliation under the circumstances presented here.
He claims to fit within a narrow exception to the no-probable-cause requirement,

-10-

Appellate Case: 19-2201

11a
Document: 010110457297

Date Filed: 12/29/2020

Page: 11

as described by the Supreme Court in Nieves. In that case, the Court held a
plaintiff need not show a lack of probable cause “when a plaintiff presents
objective evidence that he was arrested when otherwise similarly situated
individuals not engaged in the same sort of protected speech had not been.” 139
S. Ct. at 1727. But Fenn has not pointed to any evidence in the record that he was
arrested when other similarly situated individuals were not. Indeed, it seems
unlikely that any such similarly situated individuals exist. The record
demonstrates, after all, that Fenn was arrested only after having violated notrespass orders at the Center at least three times, and only after multiple
complaints from building tenants about his behavior. Fenn does not fit within the
narrow exception carved out in Nieves.
Accordingly, because Fenn has not shown he was engaged in
constitutionally protected activity and because Defendants had probable cause for
Fenn’s arrest and prosecution, he has not established a constitutional claim for
First Amendment retaliation.
B. Malicious Prosecution under § 1983
To state a § 1983 claim for malicious prosecution, a plaintiff must show,
among other things, that the original action terminated in favor of the plaintiff,
and that no probable cause supported the original arrest, continued confinement,
or prosecution. Wilkins v. DeReyes, 528 F.3d 790, 799 (10th Cir. 2008). While

-11-

Appellate Case: 19-2201

12a
Document: 010110457297

Date Filed: 12/29/2020

Page: 12

Fenn has established—for summary judgment purposes—that the prosecution
ended in his favor, he again fails to establish that probable cause was lacking.
To show that the termination was favorable, a plaintiff must allege facts
that, if true, would allow a reasonable jury to find the proceedings terminated “for
reasons indicative of innocence.” See M.G. v. Young, 826 F.3d 1259, 1263 (10th
Cir. 2016). Here, the charges were dismissed without prejudice, and the state
court denied Fenn’s motion to dismiss for failure to establish all the elements of
the offense. Defendants point to case law stating that a § 1983 malicious
prosecution claim may proceed “only if the criminal prosecution against the
plaintiff is disposed of in a way which indicates his innocence.” Mendoza v. KMart, Inc., 587 F.2d 1052, 1057 (10th Cir. 1978).
Dismissal without prejudice does not necessarily indicate innocence, but
here the district attorney stated in the dismissal papers that there was insufficient
evidence to proceed. When the issue of termination indicating innocence is
unclear, the court “look[s] to the stated reasons for the dismissal as well as to the
circumstances surrounding it and determine[s] whether the failure to proceed
implies a lack of reasonable grounds for the prosecution.” Cordova v. City of
Albuquerque, 816 F.3d 645, 651 (10th Cir. 2016) (internal quotations omitted).
The surrounding circumstances point in both directions, but Fenn has cleared this

-12-

Appellate Case: 19-2201

13a
Document: 010110457297

Date Filed: 12/29/2020

Page: 13

hurdle for summary judgment purposes based on the district attorney’s stated
reason for the dismissal.
Probable cause is an element of malicious prosecution “because not every
arrest, prosecution, confinement, or conviction that turns out to have involved an
innocent person should be actionable.” See Pierce v. Gilchrist, 359 F.3d 1279,
1294 (10th Cir. 2004). Fenn cannot show that his prosecution was without
probable cause, for the same reasons discussed above. His own complaint
establishes a basis for probable cause to support his arrest and prosecution. A
reasonable officer would have believed that probable cause existed given New
Mexico’s definition of criminal trespass and the multiple complaints from various
tenants about Fenn’s behavior.
The district court did not err in dismissing this claim.
C . Monell and Supervisory Liability

In the single paragraph Fenn devotes to these claims in his brief, he argues
only that if the panel overturns the district court’s qualified immunity
determination with respect to the individual defendants, then the Monell and
supervisory claims must be revived. This argument implicitly recognizes that “[a]
municipality may not be held liable where there was no underlying constitutional
violation by any of its officers.” Hinton v. City of Elwood, Kan., 997 F.2d 774,

-13-

Appellate Case: 19-2201

14a
Document: 010110457297

Date Filed: 12/29/2020

Page: 14

782 (10th Cir. 1993). Because Fenn cannot establish a violation of a clearly
established constitutional right, his Monell and supervisory liability claims fail.
Accordingly, the claims against the City and Alirez were properly
dismissed.
D. Malicious Abuse of Process Under New Mexico Law
The district court also correctly granted summary judgment on Fenn’s state
law claim. The elements of malicious abuse of process are: (1) the use of process
in a judicial proceeding that would be improper in the regular prosecution or
defense of a claim or charge; (2) a primary motive in the use of process to
accomplish an illegitimate end; and (3) damages. Fleetwood Retail Corp. v.
LeDoux, 164 P.3d 31, 35 (N.M. 2007). A mere allegation that one has
maliciously filed a complaint is insufficient to state a claim unless it was done
without probable cause or was accompanied by some subsequent abuse of process.
Durham v. Guest, 204 P.3d 19, 25 (N.M. 2009). Fenn has made no allegation of
an abuse of process after the complaint was filed, so he must show the criminal
complaint was unsupported by probable cause. For the same reasons discussed
above, Fenn cannot make such a showing.

-14-

Appellate Case: 19-2201

15a
Document: 010110457297

Date Filed: 12/29/2020

Page: 15

III. Conclusion
For the foregoing reasons, we affirm the district court’s dismissal of Fenn’s
First Amendment retaliation claims and its granting of summary judgment in
favor of the Defendants on Fenn’s remaining claims.

-15-

Appellate Case: 19-2201

cc:

16a
Document: 010110457304

Michael R. Heitz
Cody R. Rogers
Mark D. Standridge
Matthew A. Zidovsky

CMW/jjh

Date Filed: 12/29/2020

Page: 2

Appellate Case: 19-2201

17a
Document: 010110457308

Date Filed: 12/29/2020

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
RON FENN,

Page: 1

FILED
United States Court of Appeals
Tenth Circuit

December 29, 2020
Christopher M. Wolpert
Clerk of Court

Plaintiff - Appellant,
v.

No. 19-2201
(D.C. No. 2:18-CV-00634-WJ-GBW)
(D. N.M.)

CITY OF TRUTH OR CONSEQUENCES;
MICHAEL APODACA, Truth or
Consequences Police Captain, individually
acting under the color of law; LEE
ALIREZ, Truth or Consequences Police
Chief, individually acting under color of
state law; DANIEL HICKS, Director of
Spaceport America,

Defendants - Appellees.
_________________________________
JUDGMENT
_________________________________
Before TYMKOVICH, Chief Judge, LUCERO, and BACHARACH, Circuit Judges.
_________________________________
This case originated in the District of New Mexico and was argued by counsel.
The judgment of that court is affirmed.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

Appellate Case: 19-2201

18a
Document: 010110471175

Date Filed: 01/26/2021

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
RON FENN,

Page: 1

FILED
United States Court of Appeals
Tenth Circuit

January 26, 2021
Christopher M. Wolpert
Clerk of Court

Plaintiff - Appellant,
v.
CITY OF TRUTH OR CONSEQUENCES;
MICHAEL APODACA, Truth or
Consequences Police Captain, individually
acting under the color of law; LEE
ALIREZ, Truth or Consequences Police
Chief, individually acting under color of
state law; DANIEL HICKS, Director of
Spaceport America,

No. 19-2201
(D.C. No. 2:18-CV-00634-WJ-GBW)
(D. N.M.)

Defendants - Appellees.
_________________________________
ORDER
_________________________________
Before TYMKOVICH, Chief Judge, LUCERO, and BACHARACH, Circuit Judges.
_________________________________
Appellant's petition for rehearing is denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

19a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 1 of 19

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
___________________________
RON FENN,
Plaintiff,
vs.

No. 2:18-cv-00634 WJ-GW

CITY OF TRUTH OR CONSEQUENCES,
MICHAEL APODACA, Truth or Consequences
Police Captain individually acting under the color of Law,
LEE ALIREZ, Truth or Consequences Police Chief individually
Acting under color of state law, and DANIEL HICKS,
Director of Spaceport America,
Defendants.

MEMORANDUM OPINION AND ORDER
GRANTING IN PART TRUTH OR CONSEQUENCES DEFENDANTS’ MOTION TO
DISMISS and GRANTING DEFENDANT DANIEL HICKS’ MOTION TO DISMISS
THIS MATTER comes before the Court upon the Truth or Consequences Defendants’ (Lee
Alirez’s, Michael Apodaca’s, and City of Truth or Consequences’) Motion for Partial Dismissal
of Plaintiff’s Complaint, filed August 2, 2018 (Doc. 13), and Defendant Daniel Hicks’ Motion to
Dismiss, filed August 28, 2018 (Doc. 18). Having reviewed the parties’ pleadings and the relevant
law, the Court finds that Defendants’ motions are well-taken and, therefore, are GRANTED IN
PART.
BACKGROUND
Plaintiff Ron Fenn frequented a senior center at 301 S. Foch St., Truth or Consequences,
New Mexico. The senior center was converted to other uses, and was leased out to Spaceport
America, a New Mexico public agency, for use as a visitor center. Plaintiff publicly protested the
conversion of the senior center.

20a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 2 of 19

On June 26, 2015, an employee of Geronimo Trail Scenic Byway, also located at 301 S.
Foch St, asked police that Plaintiff “be trespassed” from 301 S. Foch. St. because Plaintiff “had
been offensive to her, and that she felt unsafe around Plaintiff.” Comp. ¶ 11-12.
On that same day, Rosemary Bleth, CEO for Follow the Sun Tours, located at 301 S. Foch.
St., contacted police to report that Plaintiff was improperly soliciting. Ms. Bleth requested a
trespass authorization against Plaintiff. When police arrived, the manager, Mr. Bleth, told officers
he had observed Plaintiff walking around the inside of center engaged in conversation with an
unidentified woman. Plaintiff requested a pen and paper to jot down her email address. Mr. Bleth
alleged that Plaintiff handed a business card to the woman that said “Spaceport Tour video
Memory services, and that Plaintiff asked for a $10 donation for the videos. Mr. Bleth told officers
that Plaintiff had been a very vocal opponent of the opening of the Spaceport visitor center.
Plaintiff alleges that a “trespass authorization” was issued at the request of the Rosemary
Bleth, a “representative” of Spaceport America, restricting Plaintiff from 301 S. Foch St. That
same day, Captain Apodaca and Chief Alirez attempted to serve the trespass authorization on Mr.
Fenn. Mr. Fenn took receipt of the trespass form. Chief Alirez received a copy of the business
card Plaintiff had been handing out, which stated “help save our Lee Belle Johnson Senior
Recreation center.”
Chief Alirez questioned Plaintiff whether he had a business license.

Plaintiff was

prosecuted for conducting business without a license and convicted on September 9, 2015.
On October 10, 2016, Linda DeMarino contacted the police department and reported
Plaintiff had entered 301 S. Foch St. and was making “obnoxious comments.” Captain Apodaca
responded. Ms. DeMarino informed Captain Apodaca that Plaintiff had been “carrying on” about

21a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 3 of 19

the building no longer being used as a senior center. Ms. DeMarino filmed Plaintiff’s behavior.
There is no allegation that Cpt. Apodaca took any action.
On May 5, 2017, Captain Apodaca responded to a call by John Muenster, a volunteer of
Geronimo Trail Scenic Byway center, about Plaintiff being on the property in violation of trespass
orders. Plaintiff was putting up posters on a counter inside the center. Captain Apodaca told
Plaintiff that he could “put up his propaganda and stay… but not to harass any visitors.” Mr.
Muenster was concerned that expensive items kept in the center could be damaged or stolen. Ms.
Bleth notified the officer that she was interested in a criminal trespass order against Mr. Fenn to
prevent him from entering the location.
On May 11, 2017, Defendant Hicks, CEO of Spaceport America requested a trespass order
from Chief Alirez based on prior incidents as preventative measure. Chief Alirez drove 75 miles
to the officers of Spaceport America for Defendant Hicks’ signature that day. Chief Alirez then
met with Plaintiff on May 12, 2017 to serve the trespass order. Plaintiff received it but refused to
sign it.
On June 4, 2017, Larena Miller contacted the police department to report Plaintiff Fenn
inside 301 S. Foch St. Sgt. Baker responded and found Mr. Fenn inside the “common use area of
the building,” in the area housing a satellite library. Sgt. Baker and Chief Alirez told Plaintiff to
leave, and Plaintiff refused. There is no allegation whether Plaintiff was made to leave or whether
any further action as taken.
Chief Alirez met with Plaintiff on June 13, 2017 in his office, and offered to hold the newest
citation in abeyance as long as Plaintiff Fenn had no further violations at 301 S. Foch St.
On June 18, 2017, Officer Ontiveros was dispatched to another trespassing call at 301 S.
Foch St. Plaintiff was “within the common area of the areas he had previously been trespassed

22a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 4 of 19

from.” Plaintiff said he was not trespassing but was protesting. Both Officer Ontiveros and Chief
Alirez ordered Plaintiff to leave, and he refused. Chief Alirez then arrested Plaintiff and a criminal
complaint was filed against him for Criminal Trespass pursuant to NMSA § 30-14-1(C).
In the criminal case, Plaintiff filed a motion to dismiss for failure to establish essential
elements of the offense. A hearing was held, and the motion to dismiss was denied. The criminal
case was dismissed without prejudice (Nolle Proseque) on October 11, 2017.
Plaintiff filed this complaint alleging (1) First Amendment Retaliation; (2) Malicious
Prosecution and Abuse of Process; and (3) supervisory and Monell liability. The Truth or
Consequences Defendants seek dismissal of Plaintiff’s First and Third causes of action on the basis
of qualified immunity. Moreover, Defendant Hicks seeks dismissal of the First Amendment claim
on similar grounds.
Because some arguments were either not addressed by Plaintiff in his response or were
raised for the first time by the T or C Defendants in their reply brief, the Court ordered
supplemental briefing from Plaintiff.
LEGAL STANDARD
Rule 12(b)(6) permits the Court to dismiss a complaint for “failure to state a claim upon
which relief can be granted.” Fed. R. Civ. P. 12(b)(6). To survive a motion to dismiss, a plaintiff’s
complaint must have sufficient factual matter that if true, states a claim to relief that is plausible
on its face. Ashcroft v. Iqbal, 556 U.S. 662, 677 (2009) (“Iqbal”). As such, a plaintiff’s “[f]actual
allegations must be enough to raise a right to relief above the speculative level.” Bell Atlantic Corp.
v. Twombly, 550 U.S. 544 (2007) (“Twombly”). All well-pleaded factual allegations are “viewed
in the light most favorable to the nonmoving party.” Brokers’ Choice of Am., Inc. v. NBC
Universal, Inc., 757 F.3d 1125, 1136 (10th Cir. 2014). In ruling on a motion to dismiss, “a court

23a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 5 of 19

should disregard all conclusory statements of law and consider whether the remaining specific
factual allegations, if assumed to be true, plausibly suggest the defendant is liable.” Kan. Penn
Gaming, LLC v. Collins, 656 F.3d 1210, 1214 (10th Cir. 2011). Mere “labels and conclusions” or
“formulaic recitation[s] of the elements of a cause of action” will not suffice. Twombly, 550 U.S.
at 555.
DISCUSSION
Plaintiff alleges that Defendants violated his free speech rights under the First Amendment.
The free speech rights protected by the First Amendment include the right to petition the
government for redress of grievances. Crawford-El v. Britton, 523 U.S. 574, 592 (1998).
Governmental retaliation for exercising one’s freedom of speech constitutes infringement of that
freedom. Worrell v. Henry, 219 F.3d 1197, 1212 (10th Cir. 2000). To state a First Amendment
retaliation claim, a plaintiff must allege “(1) he was engaged in constitutionally protected activity,
(2) the government's actions caused him injury that would chill a person of ordinary firmness from
continuing to engage in that activity, and (3) the government's actions were substantially motivated
as a response to his constitutionally protected conduct.” Mocek v. City of Albuquerque, 813 F.3d
912, 930 (10th Cir. 2015), quoting Nielander v. Bd. of Cty. Comm'rs, 582 F.3d 1155, 1165 (10th
Cir. 2009).
I.

First Amendment Retaliation Claim against Defendants Apodaca and Alirez (Count

I).
Plaintiff alleges that Defendants Apodaca and Alirez violated his First Amendment right
to free speech by issuing trespass notices to him and ordering him to vacate 301 S. Foch St.
Plaintiff also alleges that Defendant Alirez arrested him, in retaliation for his protest about the

24a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 6 of 19

alleged misuse of 301 S. Foch St. Plaintiff also frames this case as a retaliatory prosecution case
in violation of the First Amendment. See Doc. 17, p. 4-6.
The Truth or Consequences Defendants seek dismissal of the First Amendment Retaliation
claim on qualified immunity grounds. Defendants argue that these claims should be dismissed
under qualified immunity because (1) the officers had at least arguable probable cause to arrest
Plaintiff, and (2) the law was not clearly established that arresting and prosecuting Plaintiff where
there was probable cause to do so would constitute First Amendment retaliation. In its discretion,
the Court addresses only the second prong of qualified immunity, which is dispositive. Pearson
v. Callahan, 129 S.Ct. 808, 818 (2009).
A.

General Law on Clearly Established Prong and Arguable Probable Cause.

When a Plaintiff alleges an unlawful retaliatory arrest in violation of the First Amendment,
the First and Fourth Amendment analyses overlap to some extent. See Sause v. Bauer, 138 S. Ct.
2561, 2563, 201 L. Ed. 2d 982 (2018) (“When an officer's order to stop praying is alleged to have
occurred during the course of investigative conduct that implicates Fourth Amendment rights, the
First and Fourth Amendment issues may be inextricable.”). The Court agrees with Defendants
that for a First Amendment retaliatory arrest or prosecution case, it must analyze whether there
was arguable probable cause. See Mocek v. City of Albuquerque, 813 F.3d 912, 931–32 (10th Cir.
2015) (In First Amendment Retaliation claim, Plaintiff must show lack of probable cause for
retaliatory prosecution cases, and law not clearly established that officers violate First Amendment
where there is probable cause for arrests), citing Hartman v. Moore, 547 U.S. 250, 265–66, 126
S.Ct. 1695, 164 L.Ed.2d 441 (2006) (plaintiff in first amendment retaliatory prosecution case must
show lack of probable cause); Peterson v. Kopp, 754 F.3d 594, 602 (8th Cir. 2014) (in retaliatory

25a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 7 of 19

arrest claim for violation of First Amendment, analyzing whether there was a lack of probable
cause or arguable probable cause).
“A right is clearly established in this circuit when a Supreme Court or Tenth Circuit
decision is on point, or if the clearly established weight of authority from other courts shows that
the right must be as the plaintiff maintains.” Thomas v. Kaven, 765 F.3d 1183, 1194 (10th Cir.
2014) (internal quotation marks omitted); Gadd v. Campbell, 2017 WL 4857429, at *4 (10th Cir.
2017) (unpublished). “A clearly established right is one that is sufficiently clear that every
reasonable official would have understood that what he is doing violates that right.” Mullenix v.
Luna, ––– U.S. ––––, 136 S.Ct. 305, 308, 193 L.Ed.2d 255 (2015) (per curiam) (internal quotation
marks omitted). “Clearly established law should not be defined at a high level of generality.” White
v. Pauly, ––– U.S. ––––, 137 S.Ct. 548, 552, 196 L.Ed.2d 463 (2017) (internal quotation marks
omitted). Instead, “the clearly established law must be ‘particularized’ to the facts of the case.”
Id.
To determine whether an officer violated clearly established law, the Court looks to
whether there was “arguable probable cause” for an arrest. Garcia v. Escalante, 678 F. App'x 649,
655 (10th Cir. 2017). Arguable probable cause exists where “a reasonable police officer in the
same circumstances . . . and possessing the same knowledge as the officer in question could have
reasonably believed that probable cause existed in light of well-established law.” Felders ex rel.
Smedley v. Malcom, 755 F.3d 870, 879 (10th Cir. 2014). “Arguable probable cause is another way
of saying that the officers' conclusions rest on an objectively reasonable, even if mistaken, belief
that probable cause exists.” Stonecipher v. Valles, 759 F.3d 1134, 1141 (10th Cir. 2014).
Therefore, to the extent this is a retaliatory arrest or prosecution case, Plaintiff must show
the absence of arguable probable cause.

26a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 8 of 19

B.

Defendant Alirez had arguable probable cause to arrest or prosecute Plaintiff.

The Court agrees with Defendants that a reasonable officer could have reasonably believed
that probable cause existed for criminal trespass in light of well-established law. The New Mexico
Criminal Trespass Statute (NMSA § 30-14-1) provides:
C. Criminal trespass also consists of knowingly entering or remaining upon lands
owned, operated or controlled by the state or any of its political subdivisions
knowing that consent to enter or remain is denied or withdrawn by the custodian
thereof.
NMSA § 30-14-1 (C). Here, Defendant Hicks revoked consent for Plaintiff to be on the premises
and signed a trespass notice.1 Defendant Hicks was the CEO of Spaceport America, which leased
a portion of 301 S. Foch St. as a visitor center. A reasonable officer would believe that Defendant
Hicks was a custodian of 301 S. Foch St. who could revoke Plaintiff’s permission to be on the
property. Moreover, Plaintiff was hand-delivered the trespass notice by Defendants. Finally, an
officer observed Plaintiff at the Spaceport America Visitors Center and was repeatedly warned to
leave and he refused. Therefore, based on Plaintiff’s allegations, a reasonable officer would
believe that Plaintiff trespassed, because (1) the custodian revoked Plaintiff’s authorization to be
on the premises, (2) officers gave notice to Plaintiff that he must vacate, and (3) Plaintiff was
observed by an officer at 301 S. Foch St. and he refused to leave.
Plaintiff argues that Defendant Hicks was not the custodian of 301 S. Foch St., which
Spaceport America leased, and therefore could not revoke Plaintiff’s permission to be there. The
Court finds no support for this position in the New Mexico statutes or case law. Defendant Hicks
was the CEO of Spaceport America, which leased the property for its visitor center, and therefore
is likely the “custodian” permitted to revoke. Nevertheless, even if mistaken, the Court finds that

1

To the extent Plaintiff argues that Ms. Bleth previously signed a trespass notice on behalf of Spaceport America,
Plaintiff does not allege that the officers arrested or prosecuted Plaintiff based on that prior trespass notice.
Therefore, Ms. Bleth’s trespass notice is not relevant to the arguable probable cause analysis.

27a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 9 of 19

a reasonable officer would believe that Defendant Hicks had authority to revoke Plaintiff’s
permission to be on the property.
Plaintiff also argues that there was no probable cause, because he did not do anything to
warrant being excluded from the visitor center by the custodian. Initially, the Court notes that
Plaintiff did not cite any law on when probable cause for trespass is valid in the First Amendment
context. Plaintiff does not cite to case law showing when a trespass statute can be enforced or
argue that the trespass statute is overbroad. This falls short of Plaintiff’s burden under the clearly
established prong.
Nevertheless, as explained below, the issue here is whether it is clearly established that an
officer, assuming retaliatory animus, would violate Plaintiff’s First Amendment rights by arresting
him where there is probable cause. See Mocek v. City of Albuquerque, 813 F.3d 912, 931-32 (10th
Cir. 2015) (regardless of officer’s retaliatory motives, it was not clearly established that officer
could not arrest plaintiff when he reasonably believed he had probable cause); Moral v. Hagen,
553 F. App'x 839, 840 (10th Cir. 2014) (unpublished) (evidence of retaliatory motive not enough
to overcome qualified immunity in first amendment retaliatory arrest case, where there was
probable cause), citing Reichle v. Howards, ––– U.S. ––––, 132 S.Ct. 2088, 182 L.Ed.2d 985
(2012). Here, Plaintiff fails to cite to any case that indicates that a reasonable officer would believe
that he did not have probable cause to arrest Plaintiff based on the First Amendment.
C.

Law was not Clearly Established as to Arrest and Prosecution.

Defendants argue that it was not clearly established at the time of Plaintiff’s arrest in June
2017 that an arrest supported by probable cause could constitute First Amendment Retaliation.
The Court agrees.

28a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 10 of 19

1.

Plaintiff did not carry heavy burden of citing to clearly established law.

Initially, the Court notes that Plaintiff failed to carry his burden of citing to any clearly
established law that states that he has a right to be free from retaliatory arrest or prosecution where
there is arguable probable cause. On that basis alone, Plaintiff failed to carry his heavy burden.
See Cox v. Glanz, 800 F.3d 1231, 1247 (10th Cir. 2015) (plaintiff failed burden under qualified
immunity by failing to cite to any Supreme Court or Tenth Circuit opinion that would indicate
right was clearly established); Gutierrez v. Cobos, 841 F.3d 895, 907 (10th Cir. 2016) (plaintiff
failed to meet burden where they did not cite to legal authority for clearly established law or use
term “clearly established”); citing Thomas v. Durastanti, 607 F.3d 655, 669 (10th Cir. 2010) (“The
plaintiff bears the burden of citing to us what he thinks constitutes clearly established law.”); see
also Rojas v. Anderson, 727 F.3d 1000, 1004 (10th Cir. 2013) (same); Smith v. McCord, 707 F.3d
1161, 1162 (10th Cir. 2013); Hedger v. Kramer, 2018 WL 1082983, at *5 (10th Cir. 2018) (“The
failure to identify [] a case is fatal to the claim.”).
Plaintiff argues that Reichle v. Howards, 132 S.Ct. 2088, 2083 (2012), clearly established
that an arrest supported by probable cause could give rise to a First Amendment Violation. Doc.
17, p. 10-11. But in that case, the United States Supreme Court expressly declined to hold whether
a First Amendment retaliatory arrest claim could sound where the arrest was supported by probable
cause and held instead that it was not clearly established that an arrest supported by probable cause
could violate the First Amendment.
2.

Law otherwise indicates that right is not clearly established. Alternatively,

the Court agrees with Defendants that the law is not clearly established that an officer would violate
Plaintiff’s First Amendment right against retaliatory arrest or prosecution when there was arguable
probable cause.

29a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 11 of 19

In Hartman v. Moore, the United States Supreme Court held a plaintiff in a retaliatory
prosecution claim must show there was no probable cause to support the indictment. 547 U.S. 250,
265–66, 126 S.Ct. 1695, 164 L.Ed.2d 441 (2006). Later, in Reichle v. Howards, the Supreme
Court held that it was not clearly established in the Tenth Circuit that there is “First Amendment
right to be free from a retaliatory arrest that is supported by probable cause.” 132 S.Ct. 2088, 2083
(2012) (“This Court has never recognized a First Amendment right to be free from retaliatory arrest
that is supported by probable cause... [arresting officers] are thus entitled to qualified immunity.”).
The Reichle Court did not address whether a First Amendment retaliation claim may sound where
there is probable cause. Since then, neither the Tenth Circuit nor the United States Supreme Court
has established any such right. See, e.g., Wilson v. Vill. of Los Lunas, 572 F. App'x 635, 643 (10th
Cir. 2014) (unpublished) (noting that Howard was reversed by Reichle without clearly establishing
any right).
Plaintiff argues that whether there was arguable probable cause is not relevant to a First
Amendment Retaliatory arrest claim. While Plaintiff may or may not be right that probable cause
is not an element of a First Amendment retaliation claim, it is not clearly established that a First
Amendment retaliatory arrest claim may sound where there is probable cause. See, e.g., Reichle
v. Howards, 566 U.S. 658, 132 S.Ct. 2088, 182 L.Ed.2d 985 (2012) (it was not clearly established
at the time of the defendant's arrest in June 2006 (six months before Marshall's arrest in the instant
case) that an arrest supported by probable cause could violate the First Amendment); Moran v.
Cameron, 362 F. App'x 88, 96–97 (11th Cir. 2010) (applying arguable probable cause standard in
case of first amendment retaliation); Mocek v. City of Albuquerque, 813 F.3d 912, 931 (10th Cir.
2015)( in first amendment claim retaliation claim, stating “When Mocek was arrested, it was not
clearly established that a plaintiff could show the requisite motive where his arrest was arguably

30a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 12 of 19

supported by probable cause. Mocek has not addressed Tenth Circuit or Supreme Court precedent
compelling that conclusion.”); Marshall v. City of Farmington Hills, 693 F. App'x 417, 426 (6th
Cir. 2017) (holding that Reichle is dispositive of First Amendment retaliatory arrest claim); see
also Green v. Nocciero, 676 F.3d 748, 751–52 (8th Cir. 2012) (arresting officers were entitled to
qualified immunity on Fourth Amendment claim where activist was disruptive and refused to leave
a public meeting and there was probable cause to arrest the activist for trespass under Missouri
state law).
Moreover, Howards v. McLaughlin, 634 F.3d 1131, 1148 (10th Cir. 2011), rev'd and
remanded sub nom. Reichle v. Howards, 566 U.S. 658, 132 S. Ct. 2088, 182 L. Ed. 2d 985 (2012),
once reversed, did not clearly establishes the law in the Tenth Circuit. The Supreme Court in
Reichle explicitly declined to address whether an arrest supported by probable cause violated the
First Amendment, and instead reversed on the ground that it was not clearly established in the
Tenth Circuit before then. The Court finds that this reversal creates enough uncertainty that a
reasonable officer could not pick up Howard and then Reichle and conclude that Howard clearly
establishes law beyond debate. To do so, officers would have to analyze both cases and determine
which portions of Howards are still good law. See, e.g., Ross v. Balderas, 2017 WL 2963885, at
*4 (D.N.M. Mar. 16, 2017) (Kelly, J.) (for post-Howards arrest in 2016, Plaintiff must plead and
prove absence of probable cause for underlying criminal charge); Brewer v. Ross, No. 1:15-CV87-TC, 2018 WL 3128998, at *8 (D. Utah June 26, 2018) (in post-Howards arrest in September
2011, finding that law was not clearly established); see also Karns v. Shanahan, 879 F.3d 504, 522
(3d Cir. 2018) (in post-Reichle arrest, it was reasonable for officers to believe that arrest otherwise
supported by probable cause would not violate plaintiff’s First Amendment rights); Moral v.
Hagen, 553 F. App'x 839, 840 (10th Cir. 2014) (unpublished) (“Only recently the Supreme Court

31a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 13 of 19

[ in Reichle]explained that it remains unsettled under current law whether an officer violates the
Fourth Amendment by initiating an arrest for retaliatory reasons when the arrest itself happens to
be supported, as an objective matter, by probable cause.”)
Under these circumstances, the Court declines to find that a constitutional right was
“sufficiently clear that every reasonable official would have understood that what he is doing
violates that right.” Mullenix, 136 S.Ct. at 308 (quoting Reichle v. Howards, 566 U.S. 658, 664,
132 S.Ct. 2088, 182 L.Ed.2d 985 (2012)). Generally, “existing precedent must have placed the
statutory or constitutional question beyond debate” for a right to be clearly established. Id. A
reasonable officer would not read Howard and Reichle determine that the relevant law is clearly
established. To find it clearly established, an officer would have to discern a distinction that even
the counseled parties in this case did not do in their briefs.
The relevant law in the Tenth Circuit is unclear and unsettled, and certainly not “beyond
debate” for arrests post-2011. Therefore, the Court finds that Defendants Apodaca and Alirez are
entitled to qualified immunity for the arrest and subsequent prosecution in June 2017.
3.

Plaintiff failed to carry burden that issuing trespass notices under these

circumstances violated clearly established First Amendment law.2
Plaintiff also alleges that Defendants violated his First Amendment rights by issuing
trespass notices and ordering him to vacate 301 S. Foch St. Comp., ¶ 63. In a reply brief,
Defendants argued that Plaintiff did not clearly establish that issuing trespass notices violated his
First Amendment rights. The Court directed Plaintiff to respond to those arguments in a sur-reply.
None of Plaintiff’s references in his sur-reply satisfy his burden of citing to clearly
established law. Plaintiff cited to Edwards v. South Carolina, 372 U.S. 229, 83 S.Ct. 680 (1963).

2

Plaintiff also appears to agree that the statute of limitations otherwise bars claims based on earlier trespass notices
– but not the trespass notices issued in 2017. Doc. 37, p. 3.

32a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 14 of 19

In that case, the criminal defendants were convicted of breach of the peace following public
protests on the streets. That case does not inform officers of when they can or cannot issue trespass
warnings for the visitor center of a state agency. Plaintiff also cited to Reed v. Town of Gilbert,
Ariz., 135 S.Ct. 2218, 2226 (2015), but that case addressed a town’s content-based regulation of
signs. These cases cite to the broad general proposition that prohibits government from “abridging
the freedom of speech.” U.S. Const., Amdt 1. However, none of these cases address whether an
officer violates the First Amendment by serving trespass notices at the request of the apparent
custodian of the building. Plaintiff did not attempt to address the legal contours of this issue.
Plaintiff’s quote of The Big Lebowski mentions prior restraint, but Plaintiff otherwise did not
attempt to brief the issue of prior restraint.
Plaintiff also cited to, and quoted from, a movie – The Big Lebowski – arguing that the First
Amendment right is so clearly established that it is prevalent in pop culture. See Doc. 37, p. 3.
The Court disagrees and does not find that any of the cases cited by Plaintiff “have placed the
statutory or constitutional question beyond debate.” Mullenix, 136 S.Ct. at 308. Therefore, the
Court concludes that these references do not satisfy Plaintiff’s burden of citing to clearly
established law under the specific facts of this case.
II.

Supervisory and Monell claims against Defendant Alirez and T or C (Count III).
Plaintiff asserts that Chief Alirez and the City of Truth or Consequences are liable under

Monell for failing to properly train, supervise, and admonish officers in his department. Plaintiff
alleges that Chief Alirez is a “policymaker” and created a climate that led officers under his
supervision to believe they could act with impunity and violate civil rights. Defendants Alirez and
the City of Truth or Consequences argue that because the law is not clearly established, they cannot
be held liable under a supervisory theory or under Monell.

33a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 15 of 19

A.

Supervisor Liability for Chief Alirez as to First Amendment Violation.

To assert a § 1983 supervisory claim and overcome Defendant Alirez’s assertions of
qualified immunity, Plaintiff must establish that Chief Alirez, by virtue of a policy over which he
possessed supervisory responsibility, caused a violation of Plaintiff’s clearly established
constitutional rights. Pahls v. Thomas, 718 F.3d 1210, 1228 (10th Cir. 2013) (Plaintiff “must
identify specific actions taken by particular defendants, or specific policies over which particular
defendants possessed supervisory responsibility, that violated [his] clearly established
constitutional rights.”); see also Cox v. Glanz, 800 F.3d 1231, 1250 (10th Cir. 2015) (analyzing
clearly established law as to supervisory liability claim). Here, since, the underlying First
Amendment claim was dismissed on the clearly established prong, the Court dismisses the
supervisory liability claim against Defendant Alirez.
B.

Municipal liability.

To the extent Plaintiff sues Chief Alirez in his official capacity, that is in reality a Monell
claim against the City of Truth or Consequences. Porro v. Barnes, 624 F.3d 1322, 1328 (10th Cir.
2010). Defendant Truth or Consequences only argues that the Monell claim against it should be
dismissed, because the First Amendment right at issue was not clearly established.
Generally, in the Tenth Circuit, granting qualified immunity to individual officers based
on the clearly established prong does not do away with a Monell claim. Hinton v. City of Elwood,
997 F.2d 774, 782-83 (10th Cir. 1993); see also Medina v. City and County of Denver, 960 F.2d
1493, 1499–1500 (10th Cir. 1992) (granting qualified immunity on clearly established prong does
not relieve local government of Monell claim), citing Watson v. City of Kansas City, Kansas, 857
F.2d 690, 697 (10th Cir.1988). Here, the Defendants argued that the violations were not clearly
established, and therefore the Court did not address whether there was a constitutional violation.

34a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 16 of 19

Because Defendant Truth or Consequences does not argue any other basis to dismiss the Monell
claim, Defendant Truth or Consequences’ request to dismiss the Monell claim is denied.
However, if Plaintiff nevertheless seeks to abandon his Monell claim, he should notify the
Court and opposing parties. See Doc. 37, p. 3.
III.

Defendant Daniel Hicks is entitled to Qualified Immunity as to the First Amendment

Claim (Count I).
A.

Plaintiff’s Allegations.

Plaintiff alleged that Defendant Hicks violated his First Amendment rights in two ways.
First, Defendant Hicks requested a trespass order “based on prior incidents as a preventive
measure”. Second, Plaintiff alleges that Defendant Hicks signed a trespass order on May 11, 2016.
Plaintiff did not allege the content of the notice or specify the scope of the trespass notice in his
complaint. Plaintiff also does not allege that Defendant Hicks was involved in the arrest or
prosecution.
Plaintiff alleged that he was protesting the use of a former T or C senior center as a visitor
center for Spaceport America, a New Mexico state agency. The complaint details a long saga of
Tor C officers responding to Plaintiff’s presence at the visitor center, and either allowing him to
stay, or asking him to leave, without taking any further action. But he also alleges that he (1) made
other building occupants, including Larena Miller, feel unsafe, Compl. ¶ 12, (2) was soliciting and
conducting business without a license, id. ¶¶ 12-13, 18-19, 21-24; (3) commenting that he was
unhappy that the building was no longer being used as a senior center, id. ¶ 25-26, and (4) a
volunteer at Geronimo Trial Scenic Byway was concerned about expensive items in the center
being damaged or stolen and the police warned Plaintiff not to harass any visitors. For example,
Plaintiff pled that he had previously approached visitors at the visitor center, handed out business

35a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 17 of 19

cards that said “Spaceport Tour Video Memory Services”, and offered videos for a $10.00
donation.
B.

Defendant Hicks’ Defense of Qualified Immunity.

Defendant Hicks raised qualified immunity and specifically argued that the law was not
clearly established.3 The Court need not address whether there was a constitutional violation. For
the reasons stated by Defendant Hicks, even assuming there was a constitutional violation, the
Court concludes that Plaintiff failed to carry his heavy burden that the law was clearly established.
Qualified immunity “is an entitlement not to stand trial or face the other burdens of
litigation. The privilege is an immunity from suit rather than a mere defense to liability. When a
defendant asserts the defense of qualified immunity, the burden shifts to the plaintiff to overcome
the asserted immunity.” Ahmad v. Furlong, 435 F.3d 1196, 1198 (10th Cir. 2006) (internal
citations and quotation marks omitted). “Cleary established law should not be defined at a high
level of generality…the clearly established law must be “particularized” to the facts of the case.”
White v. Pauly, 137 S. Ct. 548, 552, 196 L. Ed. 2d 463 (2017) (quotation marks and internal
citations omitted). Under the White v. Pauly analysis, the Supreme Court requires courts to identify
a case where a government official acting under similar circumstances as Defendant Hicks was
held to have violated the First Amendment. Id.
Plaintiff bears the burden of citing to case law and articulating the clearly established right
he claims had been violated. See Thomas v. Durastanti, 607 F.3d 655, 669 (10th Cir. 2010);
Martinez v. Carr, 479 F.3d 1292, 1295 (10th Cir. 2007) (“[T]he record must clearly demonstrate
the plaintiff has satisfied his heavy two-part burden; otherwise, the defendants are entitled to

3

Defendant Hicks is the CEO of Spaceport America, a New Mexico state governmental entity. Plaintiff does not
dispute that Defendant Hicks is an individual entitled to assert the defense of qualified immunity.

36a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 18 of 19

qualified immunity.” (internal quotation marks omitted)). In analyzing clearly established law, the
Court looks at the cases cited by Plaintiff to determine whether those cases can serve as clearly
established law. See, e.g., A.M. v. Holmes, 830 F.3d 1123, 1154 (10th Cir. 2016) (granting
qualified immunity where “neither of Plaintiff’s cited sources can serve as the clearly established
law governing this First Amendment retaliation claim.”)
Here, Plaintiff cites to cases which are not factually on point or are cited for general
statements of law which would not make a reasonable official aware that he or she was violating
Plaintiff’s First Amendment rights. Plaintiff cites to no cases that apply the complex First
Amendment analysis to the facts of this case, i.e., that it was clearly established that issuing a
trespass notice barring Plaintiff for his alleged conduct from a state agency visitor center would
violate Plaintiff’s First Amendment rights. Therefore, those cases cited by Plaintiff do not clearly
establish that Defendant Hicks would violate Plaintiff’s First Amendment rights by having a
trespass notice served on him.
For example, in an attempt to satisfy his burden, Plaintiff cited to Wolford v. Lasater, 78
F.3d 484, 488 (10th Cir. 1996). In that case the Tenth Circuit affirmed dismissal of a First
Amendment retaliatory prosecution claim because probable cause supported the charges filed
against Plaintiff. Here, Defendant Hicks was not alleged to have been involved in the arrest or
prosecution of Plaintiff, and that case would not have placed Defendant Hicks on notice that he
could violate Plaintiff’s First Amendment rights by signing the trespass notice. Plaintiff also cites
to a number of California state cases that the “presumptively protected status of peaceful picketing
activities” is a well-established right. Doc. 26, p. 10-11.
Plaintiff also cites to the First Amendment retaliation elements. Nielander v. Bd. Of Cnty
Comm’rs, 582 F.3d 1155, 1165 (10th Cir. 2009) and Smith v. Plati, 258 F.3d 1167, 1176-77 (10th

37a

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 19 of 19

Cir. 2001). Again, that law is too general to identify to a reasonable official under these
circumstances that his or her conduct was unlawful.
Most of Plaintiff’s response ably argues why a constitutional violation occurred. While a
constitutional violation may or may not have occurred, Plaintiff did not satisfy his burden of citing
to cases that make it apparent to a reasonable government official that his conduct was unlawful.
CONCLUSION
The Court finds and concludes that Defendants Apodaca and Alirez are entitled to qualified
immunity on the First Amendment claim (Count I). Defendant Alirez is also entitled to qualified
immunity as to the supervisory liability claim (Count III). However, the Monell claim (Count III)
against the City of Truth or Consequence remains. Moreover, Defendant Hicks is entitled to
qualified immunity on Count I. Finally, Count II, which was not addressed in any of the motions
to dismiss, remains.
IT IS THEREFORE ORDERED that the Truth or Consequences Defendants’ Motion to
Dismiss Plaintiff’s Complaint for Failure to State a Claim and Lack of Jurisdiction (Doc. 13) is
hereby GRANTED IN PART for reasons described in this Memorandum Opinion and Order; and
IT IS FURTHER ORDERED that the Defendant Hicks’ Motion to Dismiss (Doc. 18) is
hereby GRANTED for reasons described in this Memorandum Opinion and Order.

______________________________________
CHIEF UNITED STATES DISTRICT JUDGE

38a

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 1 of 14

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
_________________________
RON FENN,
Plaintiff,
vs.

No. 2:18-cv-00634 WJ-GW

CITY OF TRUTH OR CONSEQUENCES,
MICHAEL APODACA, Truth or Consequences
Police Captain individually acting under the color of Law,
LEE ALIREZ, Truth or Consequences Police Chief individually
Acting under color of state law, and DANIEL HICKS,
Director of Spaceport America,
Defendants.
MEMORANDUM OPINION AND ORDER
GRANTING DEFENDANT’S MOTION FOR SUMMARY JUDGMENT ON
PLAINTIFF’S SECOND AND THIRD CAUSES OF ACTION
THIS MATTER comes before the Court upon a Motion for Summary Judgment on
Plaintiff’s Second and Third Causes of Action, filed by Defendants City of Truth or Consequences,
Chief Lee Alirez, and Captain Michael Apodaca (“Defendants” herein) on August 12, 2019 (Doc.
42).

Having reviewed the parties’ pleadings and the applicable law, the Court finds that

Defendant’s motion is well-taken and, therefore, is granted.
BACKGROUND
Plaintiff, a resident of Sierra County, New Mexico, was an outspoken critic of the
Spaceport America facility located in Sierra County. According to the complaint, Plaintiff claims
that he “has been very outspoken regarding his disagreement with the city of Truth or
Consequences regarding the lease of a city building to” Spaceport America. Compl., ¶¶1, 10. He

39a

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 2 of 14

alleges that “[h]e has frequently attended meetings and publicly protested in traditional forums
against the use of Truth or Consequences funds for the benefit of Spaceport America.” Id. at ¶ 10.1
Aug. 2, 2018).
Plaintiff has a lengthy history of being asked to leave the Lee Belle Johnson Center, 301
S. Foch St., which was a senior center in Truth or Consequences (where the Spaceport America
Visitor’s Center is housed, alongside other facilities). He was ultimately arrested for trespassing
at the Johnson Center in June of 2017, and criminal trespass charges were filed against him. In
the criminal case, Plaintiff filed a motion to dismiss for failure to establish essential elements of
the offense. A hearing was held, and the motion to dismiss was denied. The criminal case was
dismissed without prejudice (Nolle Proseque) on October 11, 2017.
Plaintiff filed this complaint alleging (1) First Amendment Retaliation; (2) Malicious
Prosecution and Abuse of Process; and (3) supervisory and Monell liability.
In its prior Memorandum Opinion and Order, this Court granted in part Defendants’ First
Motion to Dismiss, concluding that:
(1) Defendants Apodaca and Alirez were entitled to qualified immunity on the First
Amendment claim (Count I) because a “reasonable [law enforcement] officer could have
reasonably believed that probable cause existed for criminal trespass in light of well-established
law,” Doc. 38 at 8;
(2) Defendant Alirez was also entitled to qualified immunity as to the supervisory
liability claim (Count III); and that
(3) Defendant Hicks is entitled to qualified immunity on the First Amendment claim
(Count I);
(4) However, the Court found that the Monell claim (Count III) against the City of Truth
or Consequence remains.

1

A more detailed factual account is contained in the Court’s previous Memorandum Opinion and Order, Doc. 38.

40a

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 3 of 14

DISCUSSION
In this motion, Defendants seek summary judgment on the second and third counts
in the complaint which assert claims of (1) Malicious Prosecution and Abuse of Process;
and (2) supervisory and Monell liability.
I.

Legal Standard
Defendants have raised the defense of qualified immunity, which shields government

officials from liability for civil damages “insofar as their conduct does not violate clearly
established statutory or constitutional rights of which a reasonable person would have known.”
Pearson v. Callahan, 555 U.S. 223, 231 (2009); Romero v. Story, 672 F.3d 880 (10th Cir. 2012).
“In resolving questions of qualified immunity at summary judgment, courts engage in a twopronged inquiry.” Tolan v. Cotton, 134 S.Ct. 1861, 1865(2014). The first prong asks whether the
facts, taken in the light most favorable to the party asserting the injury—here the Defendant
officers—show that the officer’s conduct violated a federal right. The second asks whether the
right in question was “clearly established” at the time of the violation. Id. at 1865–66 (citations
and quotation marks omitted). The Court may consider these two inquiries in any order. See
Pearson, 555 U.S. 223, 236 (2009).
Once a defendant asserts a defense of qualified immunity, the burden shifts to the plaintiff
to show that the defendant violated a constitutional or statutory right, and that the right was clearly
established at the time of the conduct. See McBeth v. Himes, 598 F.3d 708, 716 (10th Cir. 2010).
The contours of the right must be sufficiently clear that a reasonable official would understand
what he is doing violates that right.” Thomas v. Kaven, 765 F.3d 1183, 1194 (10th Cir. 2014).
Courts may decide “which of the two prongs of the qualified immunity analysis should be

41a

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 4 of 14

addressed first in light of the circumstances in the particular case.” Pearson, 555 U.S. at 236
(2009); Quinn v. Young, 780 F.3d 998, 1004 (10th Cir. 2015).
As Defendants point out, Plaintiff has not complied with Fed.R.Civ.P.56 by offering any
responsive facts to Defendants’ thirty-one Statement of Undisputed Facts. Under Rule 56, a party
opposing a motion for summary judgment must set out in its response specific facts showing a
genuine issue for trial.” Failure to do so allows the Court to consider the movant’s facts as
undisputed and enter summary judgment against the non-movant. See Fed.R.Civ.P. 56(e)(2);
Elephant Butte Irr. Dist. of New Mexico v. U.S. Dep't of Interior, 538 F.3d 1299, 1305 (10th Cir.
2008); see also D.N.M.LR-Civ.56.1(b) (“All material facts set forth in the Memorandum will be
deemed undisputed unless specifically controverted”).
All of Defendants’ statement of facts are supported by evidence presented in exhibits.
Based on Plaintiff’s failure to controvert any of these facts, the Court deems as undisputed all facts
leading up to Plaintiff’s arrest for criminal trespass, as well as the description and disposition of
the criminal charges that were filed.
II.

Second Cause of Action: Malicious Prosecution/Abuse of Process
Plaintiff asserts claims of malicious prosecution/abuse of process against Defendants

Apodaca and Alirez.2 Defendants contend that Plaintiff cannot maintain a claim for malicious
prosecution under the first qualified immunity prong, and that Defendants Alirez and Apodaca are
entitled to qualified immunity under the second “clearly established” prong.
A.

Malicious Prosecution: Probable Cause and Favorable Termination

To state a Section 1983 claim for malicious prosecution, a plaintiff must show:

2

Defendants point out that Captain Apodaca did not actually arrest Plaintiff on June 18, 2017 or file charges against
him. Doc. 42 at 11, n.5. Chief Alirez arrested Plaintiff and filed the second complaint regarding the June 4, 2017
encounter with plaintiff. See Doc. 38 at 3 (details of encounters and arrests). However, the identity of the arresting
officer is not critical for purposes of deciding whether Plaintiff can maintain the second cause of action.

42a

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 5 of 14

(1) the defendant caused the plaintiff’s continued confinement or prosecution;
(2) the original action terminated in favor of the plaintiff;
(3) no probable cause supported the original arrest, continued confinement, or
prosecution;
(4) the defendant acted with malice; and
(5) the plaintiff sustained damages.
Wilkins v. DeReyes, 528 F.3d 790, 799 (10th Cir. 2008); see also Margheim v. Buljko, 855 F.3d
1077, 1085 (10th Cir. 2017); Griffin v. Kinnison, 2018 WL 1415185, *8 (D.N.M. Mar. 21, 2018)
(unpublished). To meet the second element, the plaintiff has the “burden to show that the
termination was favorable.” Cordova v. City of Albuquerque, 816 F.3d 645, 650 (10th Cir. 2016).
To carry that burden, a plaintiff must allege facts which, if true, would allow a reasonable jury to
find the proceedings terminated “for reasons indicative of innocence.” See M.G. v. Young, 826
F.3d 1259, 1263 (10th Cir. 2016). A plaintiff must prove lack of probable cause to prosecute as
an essential element of his malicious prosecution or false arrest claim. See, e.g., McCarty v.
Gilchrist, 646 F.3d 1281, 1285-86 (10th Cir. 2011); U.S. v. White, 584 F.3d 935, 945 (10th Cir.
2009); Novitsky v. City of Aurora, 491 F.3d 1244, 1258 (10th Cir. 2007); Hoffman v. Martinez, 92
F. App’x 628,

631 (10th Cir. 2004) (unpublished). This is so “because not every arrest,

prosecution, confinement, or conviction that turns out to have involved an innocent person should
be actionable.” See Pierce v. Gilchrist, 359 F.3d 1279, 1294 (10th Cir. 2004). In a Fourth
Amendment malicious prosecution case such as this one, “the third element deals only with the
probable cause determination during the institution of legal process.” McGarry v. Bd. of Cnty.
Comm’rs for Cnty. of Lincoln, 294 F.Supp.3d 1170, 1194 (D.N.M. 2018).

43a

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 6 of 14

1.

Probable Cause

The question here is whether the officers “arguably had probable cause.” Kaufman v.
Higgs, 697 F.3d 1297, 1300 (10th Cir. 2012). The validity of an arrest “does not depend on whether
the suspect actually committed the crime; the mere fact that the suspect is later acquitted of the
offense for which he is arrested is irrelevant to the validity of the arrest.” Michigan v. DeFillippo,
443 U.S. 31, 37 (1979); see also Summers v. Utah, 927 F.2d 1165, 1166-67 (10th Cir. 1991)
(citations omitted).
Plaintiff’s own admissions in the complaint and references to documents attached to the
complaint constitute evidence that Defendants arguably had probable cause. See Guidry v. Sheet
Metal Workers Int’l. Ass’n., 10 F.3d 700, 716 (10th Cir. 1993) (allegations contained in a
complaint can constitute judicial admissions). Plaintiff’s trespassing and disruptive activities at
the Johnson senior center over a period of nearly two years. He was issued trespass warnings
directing him to stay away from center on multiple occasions and by his own admission, Plaintiff
ignored or refused orders by law enforcement to leave the center. Moreover, while the criminal
charges against plaintiff were pending, the Sierra County Magistrate Court ordered plaintiff to stay
away from the Johnson Center/Spaceport America Visitor’s Center. See Docs. 1-2, 1-3; 1-6 to 18; Doc. 23 at 1-2). Thus, under these undisputable facts, arguable (if not actual) probable cause
existed to prosecute plaintiff. See, e.g., Williams v. Town of Greenburgh, 535 F.3d 71, 78-79 (2d
Cir. 2008) (plaintiff’s false arrest and malicious prosecution claims failed because “there was
probable cause to arrest [plaintiff], who was therefore not deprived of any constitutional right”).3

3

Defendants argue that Plaintiff is collaterally estopped from challenging the existence of probable cause for his
criminal charges under the full faith and credit doctrine, see 28 U.S.C. §1738. Doc. 42 at 13. However, given that
the Court finds that probable cause existed, this issue is irrelevant to the issues raised in this motion.

44a

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 7 of 14

2.

Favorable Termination

It is not entirely clear whether the original action terminated in Plaintiff’s favor.
Defendants contend that the nolle prosequis does not constitute a favorable termination for
Plaintiff because a “bare nolle prosse without more is not indicative of innocence.” Wilkins v.
DeReyes, 528 F.3d 790, 803 (10th Cir. 2008). Rather, the “dispositive inquiry is whether the failure
to proceed implies a lack of reasonable grounds for the prosecution.” Id.
Defendants argue that because the nolle prosequis was filed without prejudice, it could
have been refiled at a later time and does not imply a lack of reasonable grounds for the
prosecution.

Therefore, they argue, it is insufficient to satisfy the favorable termination

requirement. However, Wilkins does not entirely resolve the question of whether Plaintiff’s case
ended favorably. In that case, the Tenth Circuit concluded that the nolle proseques “should be
considered terminations in favor of Plaintiffs [because the] dismissals were not entered due to
any compromise or plea for mercy. . . [but rather] they were the result of a judgment by the
prosecutor that the case could not be proven beyond a reasonable doubt” and that it was “the State’s
opinion that currently there is insufficient evidence upon which to retry the defendant[s] for these
crimes.” Id. (emphasis added).
In this case, the State of New Mexico found that there was “insufficient evidence to proceed
with charges at this time.” Doc. 42-8. One might conclude that this basis for dismissal is not
unlike the reason given in Wilkins, which would mean that Plaintiff’s proceeding ended favorably
for him. However, Plaintiff cannot sustain a malicious prosecution claim even if the original
criminal action had a favorable termination because the elements of the claim are conjunctive and
probable cause existed for the criminal charges. Because at least arguable probable cause existed,
Plaintiff cannot proceed on this claim.

45a

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 8 of 14

B.

Malicious Abuse of Process4

The tort of malicious abuse of process recognizes that the legal process may be invoked or
used in a wrongful manner, causing harm to the party forced to bear the consequences of the
wrongful lawsuit. The malicious abuse of process tort is disfavored in the law because of the
potential chilling effect on the right of access to the courts. Fleetwood Retail Corp. v. LeDoux, 142
N.M. at 150, 156 (N.M. 2007). Maliciously filing a complaint is insufficient to state a malicious
abuse of process claim unless it was done without probable cause or was accompanied by some
subsequent abuse of process. Durham v. Guest, 204 P.3d 19, 25 (N.M. 2009). The elements of this
tort are: (1) the use of process in a judicial proceeding that would be improper in the regular
prosecution or defense of a claim or charge; (2) a primary motive in the use of process to
accomplish an illegitimate end; and (3) damages.
An improper use of process may be shown several different ways, either by showing that
a complaint was filed without probable cause or by demonstrating a misuse of procedural devices
such as discovery, subpoenas, or attachments, or an irregularity or impropriety in the proceedings
suggesting extortion, delay, or harassment. Fleetwood, 142 N.M. at 155. Here. Plaintiff can show
neither the lack of probable cause or the use of impropriety since his own judicial admissions
demonstrate that the criminal charges were based on probable cause. Therefore, Plaintiff cannot
maintain a claim of malicious abuse of process.

4

When addressing malicious prosecution claims brought pursuant to §1983, a court uses common law elements of
malicious prosecution as starting point for its analysis; however, the ultimate question is whether plaintiff has
proven the deprivation of a constitutional right. Novitsky v. City Of Aurora, 491 F.3d 1244 (10th Cir. 2007).
In New Mexico, the Supreme Court has merged the torts of malicious prosecution and abuse of process into a
single cause of action known as malicious abuse of process. DeVaney v. Thriftway Mktg. Corp., 124 N.M. 512, 953
P.2d 277, 285-86 (1997), cert. denied 118 S.Ct. 2296 (1998) (listing elements). Neither party suggests addressing
count II as a merged tort. Plaintiff styles Count II as “Malicious prosecution, Abuse of Process” and Defendants
analyze these as separate claims as well.

46a

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 9 of 14

C.

Retaliatory Malicious Prosecution

Plaintiff does not expressly assert a claim for retaliatory malicious prosecution, but
Defendants contend that to the extent he intends to assert such a claim, it would fail.5 For this
claim, a plaintiff must show both retaliatory motive on the part of the official urging prosecution
and lack of probable cause. Hartman v. Moore, 547 U.S. 250, 265 (2006). Becker v. Kroll, 494
F.3d 904, 925 (10th Cir. 2007) (stating elements of retaliatory prosecution claim); Reichle v.
Howards, 566 U.S. 658, 666 (2012) (“a plaintiff cannot state a claim of retaliatory prosecution in
violation of the First Amendment if the charges were supported by probable cause”).
The Court agrees with Defendants that based on the undisputed facts, Plaintiff has failed
to show lack of probable cause as well as retaliatory motive on the part of Defendants and so
Plaintiff cannot sustain this claim, either.
D.

Defendants Alirez and Apodaca are Entitled to Qualified Immunity

(1) First Prong of Qualified Immunity Inquiry:
In the foregoing discussion, the Court has determined that Plaintiff has not shown that
Defendants violated his constitutional rights based on claims of Malicious Prosecution, Malicious
Abuse of Process and Retaliatory Malicious Prosecution. These findings are sufficient to entitle
Defendants to qualified immunity under the first prong of the inquiry.
(2) Second Prong of Qualified Immunity Inquiry: The Court need not consider the second
part of the inquiry, since if a plaintiff “fails to satisfy either part of the two-part inquiry, the court
must grant . . . qualified immunity.” Gross v. Pirtle, 245 F.3d 1151, 1156 (10th Cir. 2001).

Defendants’ desire to be thorough in its analysis is understandable, given the lack of clarity in the complaint.
While the Second Cause of Action is titled as “Malicious Prosecution, Abuse of Process,” the text of that count
alleges that Defendants attempted to “chill his activities and retaliate against him for disclosing their malfeasance”—
which looks similar to Plaintiff’s First Amendment retaliatory prosecution claim asserted in the First Cause of
Action. Compl., ¶70.
5

47a

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 10 of 14

However, the Court will consider it to illustrate that there is no basis for Plaintiff to continue
litigating his claims. Defendants claim they would be entitled to qualified immunity on the second
part of the inquiry because there is an absence of controlling authority that specifically prohibited
Defendants from their actions toward Plaintiff regarding the criminal trespass charges. The Court
agrees with Defendants that Plaintiff has failed to satisfy his burden to show that the law was
clearly established such that Defendants Alirez and Apodoca would have known that their conduct
violated Plaintiff’s Fourth Amendment rights.
Plaintiff’s first legal error is to urge the Court to espouse a more general concept of “clearly
established” law, when this notion has been soundly rejected by the United States Supreme Court.
Cases offered to show “clearly established law” must include facts that are sufficiently analogous
and specific so that a reasonable official would know “that his conduct was unlawful in the
situation he confronted.” Saucier v. Katz, 533 U. S. 194, 202 (2001); D.C. v. Wesby, 138 S. Ct.
577, 590 (2018) (“We have repeatedly stressed that courts must not “define clearly established law
at a high level of generality, since doing so avoids the crucial question whether the official acted
reasonably in the particular circumstances that he or she faced”):
A rule is too general if the unlawfulness of the officer’s conduct “does not follow
immediately from the conclusion that [the rule] was firmly established.” The
rule's contours must be so well defined that it is “clear to a reasonable officer that
his conduct was unlawful in the situation he confronted.” This requires a high
degree of specificity.
Wesby, 138 S. Ct. at 590 (emphasis added) (citing Saucier, 533 U.S. at 202. Plaintiff commits a
second error as well: even after having advanced the position that “clearly established” law should
be premised on a more general statement of the law, he offers no case law at all as examples.
Instead, Plaintiff engages in legal argument (Doc. 45 at 1-2) and lamely argues that the operative

48a

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 11 of 14

inquiry is whether officer’s actions were objectively reasonable (id. at 3)—which does not in any
way satisfy his burden of showing the law was clearly established.
Plaintiff’s failure to carry his burden of showing the law was clearly established entitles
Defendants to qualified immunity. See Cox v. Glanz, 800 F.3d 1231, 1247 (10th Cir. 2015)
(plaintiff failed burden under qualified immunity by failing to cite to any Supreme Court or Tenth
Circuit opinion that would indicate right was clearly established); citing Thomas v. Durastanti,
607 F.3d 655, 669 (10th Cir. 2010) (“The plaintiff bears the burden of citing to us what he thinks
constitutes clearly established law.”); Hedger v. Kramer, 2018 WL 1082983, at *5 (10th Cir. 2018)
(“The failure to identify [] a case is fatal to the claim.”). Accordingly, Defendants are entitled to
qualified immunity on Plaintiff’s second cause of action, under either prong of the qualified
immunity inquiry.
III.

Third Cause of Action: §1983 Municipal and Supervisory Liability for

Violations of Federal Constitutional Rights.
In the Third Cause of Action, Plaintiff claims that Chief Alirez, by virtue of a policy
over which he possessed supervisory responsibility, and the City of Truth or Consequences
(“City”) through this policy, caused a violation of Plaintiff’s clearly established
constitutional rights.
Plaintiff’s municipal liability and supervisory liability claims hinge on a finding
that the complaint alleges the violation of a constitutional right. To establish municipal
liability under § 1983, a plaintiff must demonstrate a direct causal link between an
underlying constitutional violation and a municipal policy or custom exists. See Graves v.
Thomas, 450 F.3d at 1218. A plaintiff may impose liability upon a defendant-supervisor
who creates, promulgates, implements, or in some other way possesses responsibility for

49a

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 12 of 14

the continued operation of a policy which results in a deprivation of constitutional rights.
Dodds v. Richardson, 614 F.3d 1185 (10th Cir. 2010).
The Court has already determined that Plaintiff cannot maintain his second cause of action,
whether presented as a claim for Malicious Prosecution, Malicious Abuse of Process or Retaliatory
Malicious Prosecution; and that as a result, Defendants are entitled to qualified immunity on
Plaintiff’s second cause of action under the first prong of a qualified immunity inquiry. This
finding bars Plaintiff’s third cause of action against the City because there is no underlying
constitutional violation on which to base a Monell claim. See, Apodaca v. Rio Arriba County
Sheriff's Dept., 905 F.2d 1445, 1447 (10th Cir. 1990) (a municipality may not be held liable where
there is no underlying constitutional violation by any of its officers (citing City of Los Angeles v.
Heller, 475 U.S. 796, 799 (1986)); Hinton v. City of Elwood, Kan., 997 F.2d 774, 782 (10th Cir.
1993) (where an individual law enforcement officer is entitled to qualified immunity on the ground
that his or her conduct did not violate the law, it is proper to dismiss claims against the
municipality.
Plaintiff’s supervisory liability claim against Defendant Alirez also fails for the same
reason. See Butler v. City of Norman, 992 F.2d 1053, 1055 (10th Cir.1993) (liability of supervisor
based on showing that the defendant-supervisor personally directed the violation or had actual
knowledge of the violation and acquiesced in its continuance); Cox v. Glanz, 800 F.3d 1231, 1250
(10th Cir. 2015) (analyzing clearly established law as to supervisory liability claim). In addition,
the Court’s finding that Plaintiff has failed to show the law was clearly established also entitles
Defendant Alirez to qualified immunity. See Owen v. City of Independence, 445 U.S. 622, 638
(1980); Seamons v. Snow, 206 F.3d 1021, 1029 (10th Cir. 2000) (Qualified immunity is not
available as a defense to municipal liability.).

50a

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 13 of 14

CONCLUSION
In sum, this Court finds and concludes that:
(1) Plaintiff cannot sustain his second cause of action against Defendants Apodaca and
Alirez asserting Malicious Prosecution and Abuse of Process and as a result, Defendants are
entitled to qualified immunity on both parts of the qualified immunity analysis;
(2) Plaintiff cannot sustain his second cause of action against Defendant Alirez based on
supervisory liability and as a result Defendant is entitled to qualified immunity on the second cause
of action; and that
(3) Plaintiff cannot sustain his second cause of action against Defendant City of Truth or
Consequences (“City”) based on municipal liability because there is no underlying constitutional
violation and as a result, the City is entitled to summary judgment on Count III in the Monell claim.
In its previous decision, the Court did not address the Monell claim with regard to the First
Amendment claim in Count I because Defendants did not offer any argument on this issue. See
Doc. 38 at 16. In their summary judgment motion, however, Defendants argue that the Monell
claim should be dismissed because Plaintiff cannot show that his constitutional rights were
violated. While the Court focused on the “clearly established” prong in the Order granting in part
Defendants’ motion to dismiss (Doc. 38 at 15-16), it is also clear that Plaintiff cannot show that
Defendants retaliated against him in violation of his First Amendment rights either, because
probable cause existed for the criminal trespass charge. See Mocek v. City of Albuquerque, 813
F.3d 912, 931–32 (10th Cir. 2015) (In First Amendment Retaliation claim, Plaintiff must show
lack of probable cause for retaliatory prosecution cases). As a result, the Monell claims in Count
III must be dismissed entirely, with regard to both of Plaintiff’s underlying substantive claims in
Count I and Count II.

51a

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 14 of 14

THEREFORE,
IT IS ORDERED that Defendants’ Motion for Summary Judgment on Plaintiff’s Second
and Third Causes of Action (Doc. 42) is hereby GRANTED for reasons described in this
Memorandum Opinion and Order.
As a result of the Court’s cumulative findings in this Opinion and in its previous Opinion,
there are no claims remaining in Plaintiff’s complaint, and the rulings herein dispose of Plaintiff’s
case in its entirety.
By separate pleading, the Court shall issue a Rule 58 Judgment.

_________________________________________
CHIEF UNITED STATES DISTRICT JUDGE

52a

Case 2:18-cv-00634-WJ-GBW Document 53 Filed 11/06/19 Page 1 of 1

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
_________________________
RON FENN,
Plaintiff,
vs.

No. 2:18-cv-00634 WJ-GW

CITY OF TRUTH OR CONSEQUENCES,
MICHAEL APODACA, Truth or Consequences
Police Captain individually acting under the color of Law,
LEE ALIREZ, Truth or Consequences Police Chief individually
Acting under color of state law, and DANIEL HICKS,
Director of Spaceport America,
Defendants.

RULE 58 JUDGMENT
THIS MATTER came before the Court upon Defendants’ Motion for Summary
Judgment on Plaintiff’s Second and Third Causes of Action (Doc. 42). Pursuant to the findings
and conclusions set forth in the Memorandum Opinion and Order which accompanies this Rule
58 Judgment (Doc. 52).
IT IS THEREFORE ORDERED and ADJUDGED that Defendants’ Motion for
Summary Judgment on Plaintiff’s Second and Third Causes of Action (Doc. 42) is hereby
GRANTED, thus disposing of this case on its merits and in its entirety.

______________________________________
CHIEF UNITED STATES DISTRICT JUDGE

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 1 of 19
53a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 32

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
___________________________
RON FENN,
Plaintiff,
vs.

No. 2:18-cv-00634 WJ-GW

CITY OF TRUTH OR CONSEQUENCES,
MICHAEL APODACA, Truth or Consequences
Police Captain individually acting under the color of Law,
LEE ALIREZ, Truth or Consequences Police Chief individually
Acting under color of state law, and DANIEL HICKS,
Director of Spaceport America,
Defendants.

MEMORANDUM OPINION AND ORDER
GRANTING IN PART TRUTH OR CONSEQUENCES DEFENDANTS’ MOTION TO
DISMISS and GRANTING DEFENDANT DANIEL HICKS’ MOTION TO DISMISS
THIS MATTER comes before the Court upon the Truth or Consequences Defendants’ (Lee
Alirez’s, Michael Apodaca’s, and City of Truth or Consequences’) Motion for Partial Dismissal
of Plaintiff’s Complaint, filed August 2, 2018 (Doc. 13), and Defendant Daniel Hicks’ Motion to
Dismiss, filed August 28, 2018 (Doc. 18). Having reviewed the parties’ pleadings and the relevant
law, the Court finds that Defendants’ motions are well-taken and, therefore, are GRANTED IN
PART.
BACKGROUND
Plaintiff Ron Fenn frequented a senior center at 301 S. Foch St., Truth or Consequences,
New Mexico. The senior center was converted to other uses, and was leased out to Spaceport
America, a New Mexico public agency, for use as a visitor center. Plaintiff publicly protested the
conversion of the senior center.

Aplt. App. 078

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 2 of 19
54a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 33

On June 26, 2015, an employee of Geronimo Trail Scenic Byway, also located at 301 S.
Foch St, asked police that Plaintiff “be trespassed” from 301 S. Foch. St. because Plaintiff “had
been offensive to her, and that she felt unsafe around Plaintiff.” Comp. ¶ 11-12.
On that same day, Rosemary Bleth, CEO for Follow the Sun Tours, located at 301 S. Foch.
St., contacted police to report that Plaintiff was improperly soliciting. Ms. Bleth requested a
trespass authorization against Plaintiff. When police arrived, the manager, Mr. Bleth, told officers
he had observed Plaintiff walking around the inside of center engaged in conversation with an
unidentified woman. Plaintiff requested a pen and paper to jot down her email address. Mr. Bleth
alleged that Plaintiff handed a business card to the woman that said “Spaceport Tour video
Memory services, and that Plaintiff asked for a $10 donation for the videos. Mr. Bleth told officers
that Plaintiff had been a very vocal opponent of the opening of the Spaceport visitor center.
Plaintiff alleges that a “trespass authorization” was issued at the request of the Rosemary
Bleth, a “representative” of Spaceport America, restricting Plaintiff from 301 S. Foch St. That
same day, Captain Apodaca and Chief Alirez attempted to serve the trespass authorization on Mr.
Fenn. Mr. Fenn took receipt of the trespass form. Chief Alirez received a copy of the business
card Plaintiff had been handing out, which stated “help save our Lee Belle Johnson Senior
Recreation center.”
Chief Alirez questioned Plaintiff whether he had a business license.

Plaintiff was

prosecuted for conducting business without a license and convicted on September 9, 2015.
On October 10, 2016, Linda DeMarino contacted the police department and reported
Plaintiff had entered 301 S. Foch St. and was making “obnoxious comments.” Captain Apodaca
responded. Ms. DeMarino informed Captain Apodaca that Plaintiff had been “carrying on” about

Aplt. App. 079

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 3 of 19
55a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 34

the building no longer being used as a senior center. Ms. DeMarino filmed Plaintiff’s behavior.
There is no allegation that Cpt. Apodaca took any action.
On May 5, 2017, Captain Apodaca responded to a call by John Muenster, a volunteer of
Geronimo Trail Scenic Byway center, about Plaintiff being on the property in violation of trespass
orders. Plaintiff was putting up posters on a counter inside the center. Captain Apodaca told
Plaintiff that he could “put up his propaganda and stay… but not to harass any visitors.” Mr.
Muenster was concerned that expensive items kept in the center could be damaged or stolen. Ms.
Bleth notified the officer that she was interested in a criminal trespass order against Mr. Fenn to
prevent him from entering the location.
On May 11, 2017, Defendant Hicks, CEO of Spaceport America requested a trespass order
from Chief Alirez based on prior incidents as preventative measure. Chief Alirez drove 75 miles
to the officers of Spaceport America for Defendant Hicks’ signature that day. Chief Alirez then
met with Plaintiff on May 12, 2017 to serve the trespass order. Plaintiff received it but refused to
sign it.
On June 4, 2017, Larena Miller contacted the police department to report Plaintiff Fenn
inside 301 S. Foch St. Sgt. Baker responded and found Mr. Fenn inside the “common use area of
the building,” in the area housing a satellite library. Sgt. Baker and Chief Alirez told Plaintiff to
leave, and Plaintiff refused. There is no allegation whether Plaintiff was made to leave or whether
any further action as taken.
Chief Alirez met with Plaintiff on June 13, 2017 in his office, and offered to hold the newest
citation in abeyance as long as Plaintiff Fenn had no further violations at 301 S. Foch St.
On June 18, 2017, Officer Ontiveros was dispatched to another trespassing call at 301 S.
Foch St. Plaintiff was “within the common area of the areas he had previously been trespassed

Aplt. App. 080

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 4 of 19
56a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 35

from.” Plaintiff said he was not trespassing but was protesting. Both Officer Ontiveros and Chief
Alirez ordered Plaintiff to leave, and he refused. Chief Alirez then arrested Plaintiff and a criminal
complaint was filed against him for Criminal Trespass pursuant to NMSA § 30-14-1(C).
In the criminal case, Plaintiff filed a motion to dismiss for failure to establish essential
elements of the offense. A hearing was held, and the motion to dismiss was denied. The criminal
case was dismissed without prejudice (Nolle Proseque) on October 11, 2017.
Plaintiff filed this complaint alleging (1) First Amendment Retaliation; (2) Malicious
Prosecution and Abuse of Process; and (3) supervisory and Monell liability. The Truth or
Consequences Defendants seek dismissal of Plaintiff’s First and Third causes of action on the basis
of qualified immunity. Moreover, Defendant Hicks seeks dismissal of the First Amendment claim
on similar grounds.
Because some arguments were either not addressed by Plaintiff in his response or were
raised for the first time by the T or C Defendants in their reply brief, the Court ordered
supplemental briefing from Plaintiff.
LEGAL STANDARD
Rule 12(b)(6) permits the Court to dismiss a complaint for “failure to state a claim upon
which relief can be granted.” Fed. R. Civ. P. 12(b)(6). To survive a motion to dismiss, a plaintiff’s
complaint must have sufficient factual matter that if true, states a claim to relief that is plausible
on its face. Ashcroft v. Iqbal, 556 U.S. 662, 677 (2009) (“Iqbal”). As such, a plaintiff’s “[f]actual
allegations must be enough to raise a right to relief above the speculative level.” Bell Atlantic Corp.
v. Twombly, 550 U.S. 544 (2007) (“Twombly”). All well-pleaded factual allegations are “viewed
in the light most favorable to the nonmoving party.” Brokers’ Choice of Am., Inc. v. NBC
Universal, Inc., 757 F.3d 1125, 1136 (10th Cir. 2014). In ruling on a motion to dismiss, “a court

Aplt. App. 081

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 5 of 19
57a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 36

should disregard all conclusory statements of law and consider whether the remaining specific
factual allegations, if assumed to be true, plausibly suggest the defendant is liable.” Kan. Penn
Gaming, LLC v. Collins, 656 F.3d 1210, 1214 (10th Cir. 2011). Mere “labels and conclusions” or
“formulaic recitation[s] of the elements of a cause of action” will not suffice. Twombly, 550 U.S.
at 555.
DISCUSSION
Plaintiff alleges that Defendants violated his free speech rights under the First Amendment.
The free speech rights protected by the First Amendment include the right to petition the
government for redress of grievances. Crawford-El v. Britton, 523 U.S. 574, 592 (1998).
Governmental retaliation for exercising one’s freedom of speech constitutes infringement of that
freedom. Worrell v. Henry, 219 F.3d 1197, 1212 (10th Cir. 2000). To state a First Amendment
retaliation claim, a plaintiff must allege “(1) he was engaged in constitutionally protected activity,
(2) the government's actions caused him injury that would chill a person of ordinary firmness from
continuing to engage in that activity, and (3) the government's actions were substantially motivated
as a response to his constitutionally protected conduct.” Mocek v. City of Albuquerque, 813 F.3d
912, 930 (10th Cir. 2015), quoting Nielander v. Bd. of Cty. Comm'rs, 582 F.3d 1155, 1165 (10th
Cir. 2009).
I.

First Amendment Retaliation Claim against Defendants Apodaca and Alirez (Count

I).
Plaintiff alleges that Defendants Apodaca and Alirez violated his First Amendment right
to free speech by issuing trespass notices to him and ordering him to vacate 301 S. Foch St.
Plaintiff also alleges that Defendant Alirez arrested him, in retaliation for his protest about the

Aplt. App. 082

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 6 of 19
58a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 37

alleged misuse of 301 S. Foch St. Plaintiff also frames this case as a retaliatory prosecution case
in violation of the First Amendment. See Doc. 17, p. 4-6.
The Truth or Consequences Defendants seek dismissal of the First Amendment Retaliation
claim on qualified immunity grounds. Defendants argue that these claims should be dismissed
under qualified immunity because (1) the officers had at least arguable probable cause to arrest
Plaintiff, and (2) the law was not clearly established that arresting and prosecuting Plaintiff where
there was probable cause to do so would constitute First Amendment retaliation. In its discretion,
the Court addresses only the second prong of qualified immunity, which is dispositive. Pearson
v. Callahan, 129 S.Ct. 808, 818 (2009).
A.

General Law on Clearly Established Prong and Arguable Probable Cause.

When a Plaintiff alleges an unlawful retaliatory arrest in violation of the First Amendment,
the First and Fourth Amendment analyses overlap to some extent. See Sause v. Bauer, 138 S. Ct.
2561, 2563, 201 L. Ed. 2d 982 (2018) (“When an officer's order to stop praying is alleged to have
occurred during the course of investigative conduct that implicates Fourth Amendment rights, the
First and Fourth Amendment issues may be inextricable.”). The Court agrees with Defendants
that for a First Amendment retaliatory arrest or prosecution case, it must analyze whether there
was arguable probable cause. See Mocek v. City of Albuquerque, 813 F.3d 912, 931–32 (10th Cir.
2015) (In First Amendment Retaliation claim, Plaintiff must show lack of probable cause for
retaliatory prosecution cases, and law not clearly established that officers violate First Amendment
where there is probable cause for arrests), citing Hartman v. Moore, 547 U.S. 250, 265–66, 126
S.Ct. 1695, 164 L.Ed.2d 441 (2006) (plaintiff in first amendment retaliatory prosecution case must
show lack of probable cause); Peterson v. Kopp, 754 F.3d 594, 602 (8th Cir. 2014) (in retaliatory

Aplt. App. 083

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 7 of 19
59a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 38

arrest claim for violation of First Amendment, analyzing whether there was a lack of probable
cause or arguable probable cause).
“A right is clearly established in this circuit when a Supreme Court or Tenth Circuit
decision is on point, or if the clearly established weight of authority from other courts shows that
the right must be as the plaintiff maintains.” Thomas v. Kaven, 765 F.3d 1183, 1194 (10th Cir.
2014) (internal quotation marks omitted); Gadd v. Campbell, 2017 WL 4857429, at *4 (10th Cir.
2017) (unpublished). “A clearly established right is one that is sufficiently clear that every
reasonable official would have understood that what he is doing violates that right.” Mullenix v.
Luna, ––– U.S. ––––, 136 S.Ct. 305, 308, 193 L.Ed.2d 255 (2015) (per curiam) (internal quotation
marks omitted). “Clearly established law should not be defined at a high level of generality.” White
v. Pauly, ––– U.S. ––––, 137 S.Ct. 548, 552, 196 L.Ed.2d 463 (2017) (internal quotation marks
omitted). Instead, “the clearly established law must be ‘particularized’ to the facts of the case.”
Id.
To determine whether an officer violated clearly established law, the Court looks to
whether there was “arguable probable cause” for an arrest. Garcia v. Escalante, 678 F. App'x 649,
655 (10th Cir. 2017). Arguable probable cause exists where “a reasonable police officer in the
same circumstances . . . and possessing the same knowledge as the officer in question could have
reasonably believed that probable cause existed in light of well-established law.” Felders ex rel.
Smedley v. Malcom, 755 F.3d 870, 879 (10th Cir. 2014). “Arguable probable cause is another way
of saying that the officers' conclusions rest on an objectively reasonable, even if mistaken, belief
that probable cause exists.” Stonecipher v. Valles, 759 F.3d 1134, 1141 (10th Cir. 2014).
Therefore, to the extent this is a retaliatory arrest or prosecution case, Plaintiff must show
the absence of arguable probable cause.

Aplt. App. 084

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 8 of 19
60a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 39

B.

Defendant Alirez had arguable probable cause to arrest or prosecute Plaintiff.

The Court agrees with Defendants that a reasonable officer could have reasonably believed
that probable cause existed for criminal trespass in light of well-established law. The New Mexico
Criminal Trespass Statute (NMSA § 30-14-1) provides:
C. Criminal trespass also consists of knowingly entering or remaining upon lands
owned, operated or controlled by the state or any of its political subdivisions
knowing that consent to enter or remain is denied or withdrawn by the custodian
thereof.
NMSA § 30-14-1 (C). Here, Defendant Hicks revoked consent for Plaintiff to be on the premises
and signed a trespass notice.1 Defendant Hicks was the CEO of Spaceport America, which leased
a portion of 301 S. Foch St. as a visitor center. A reasonable officer would believe that Defendant
Hicks was a custodian of 301 S. Foch St. who could revoke Plaintiff’s permission to be on the
property. Moreover, Plaintiff was hand-delivered the trespass notice by Defendants. Finally, an
officer observed Plaintiff at the Spaceport America Visitors Center and was repeatedly warned to
leave and he refused. Therefore, based on Plaintiff’s allegations, a reasonable officer would
believe that Plaintiff trespassed, because (1) the custodian revoked Plaintiff’s authorization to be
on the premises, (2) officers gave notice to Plaintiff that he must vacate, and (3) Plaintiff was
observed by an officer at 301 S. Foch St. and he refused to leave.
Plaintiff argues that Defendant Hicks was not the custodian of 301 S. Foch St., which
Spaceport America leased, and therefore could not revoke Plaintiff’s permission to be there. The
Court finds no support for this position in the New Mexico statutes or case law. Defendant Hicks
was the CEO of Spaceport America, which leased the property for its visitor center, and therefore
is likely the “custodian” permitted to revoke. Nevertheless, even if mistaken, the Court finds that

1

To the extent Plaintiff argues that Ms. Bleth previously signed a trespass notice on behalf of Spaceport America,
Plaintiff does not allege that the officers arrested or prosecuted Plaintiff based on that prior trespass notice.
Therefore, Ms. Bleth’s trespass notice is not relevant to the arguable probable cause analysis.

Aplt. App. 085

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 9 of 19
61a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 40

a reasonable officer would believe that Defendant Hicks had authority to revoke Plaintiff’s
permission to be on the property.
Plaintiff also argues that there was no probable cause, because he did not do anything to
warrant being excluded from the visitor center by the custodian. Initially, the Court notes that
Plaintiff did not cite any law on when probable cause for trespass is valid in the First Amendment
context. Plaintiff does not cite to case law showing when a trespass statute can be enforced or
argue that the trespass statute is overbroad. This falls short of Plaintiff’s burden under the clearly
established prong.
Nevertheless, as explained below, the issue here is whether it is clearly established that an
officer, assuming retaliatory animus, would violate Plaintiff’s First Amendment rights by arresting
him where there is probable cause. See Mocek v. City of Albuquerque, 813 F.3d 912, 931-32 (10th
Cir. 2015) (regardless of officer’s retaliatory motives, it was not clearly established that officer
could not arrest plaintiff when he reasonably believed he had probable cause); Moral v. Hagen,
553 F. App'x 839, 840 (10th Cir. 2014) (unpublished) (evidence of retaliatory motive not enough
to overcome qualified immunity in first amendment retaliatory arrest case, where there was
probable cause), citing Reichle v. Howards, ––– U.S. ––––, 132 S.Ct. 2088, 182 L.Ed.2d 985
(2012). Here, Plaintiff fails to cite to any case that indicates that a reasonable officer would believe
that he did not have probable cause to arrest Plaintiff based on the First Amendment.
C.

Law was not Clearly Established as to Arrest and Prosecution.

Defendants argue that it was not clearly established at the time of Plaintiff’s arrest in June
2017 that an arrest supported by probable cause could constitute First Amendment Retaliation.
The Court agrees.

Aplt. App. 086

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 10 of 19
62a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 41

1.

Plaintiff did not carry heavy burden of citing to clearly established law.

Initially, the Court notes that Plaintiff failed to carry his burden of citing to any clearly
established law that states that he has a right to be free from retaliatory arrest or prosecution where
there is arguable probable cause. On that basis alone, Plaintiff failed to carry his heavy burden.
See Cox v. Glanz, 800 F.3d 1231, 1247 (10th Cir. 2015) (plaintiff failed burden under qualified
immunity by failing to cite to any Supreme Court or Tenth Circuit opinion that would indicate
right was clearly established); Gutierrez v. Cobos, 841 F.3d 895, 907 (10th Cir. 2016) (plaintiff
failed to meet burden where they did not cite to legal authority for clearly established law or use
term “clearly established”); citing Thomas v. Durastanti, 607 F.3d 655, 669 (10th Cir. 2010) (“The
plaintiff bears the burden of citing to us what he thinks constitutes clearly established law.”); see
also Rojas v. Anderson, 727 F.3d 1000, 1004 (10th Cir. 2013) (same); Smith v. McCord, 707 F.3d
1161, 1162 (10th Cir. 2013); Hedger v. Kramer, 2018 WL 1082983, at *5 (10th Cir. 2018) (“The
failure to identify [] a case is fatal to the claim.”).
Plaintiff argues that Reichle v. Howards, 132 S.Ct. 2088, 2083 (2012), clearly established
that an arrest supported by probable cause could give rise to a First Amendment Violation. Doc.
17, p. 10-11. But in that case, the United States Supreme Court expressly declined to hold whether
a First Amendment retaliatory arrest claim could sound where the arrest was supported by probable
cause and held instead that it was not clearly established that an arrest supported by probable cause
could violate the First Amendment.
2.

Law otherwise indicates that right is not clearly established. Alternatively,

the Court agrees with Defendants that the law is not clearly established that an officer would violate
Plaintiff’s First Amendment right against retaliatory arrest or prosecution when there was arguable
probable cause.

Aplt. App. 087

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 11 of 19
63a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 42

In Hartman v. Moore, the United States Supreme Court held a plaintiff in a retaliatory
prosecution claim must show there was no probable cause to support the indictment. 547 U.S. 250,
265–66, 126 S.Ct. 1695, 164 L.Ed.2d 441 (2006). Later, in Reichle v. Howards, the Supreme
Court held that it was not clearly established in the Tenth Circuit that there is “First Amendment
right to be free from a retaliatory arrest that is supported by probable cause.” 132 S.Ct. 2088, 2083
(2012) (“This Court has never recognized a First Amendment right to be free from retaliatory arrest
that is supported by probable cause... [arresting officers] are thus entitled to qualified immunity.”).
The Reichle Court did not address whether a First Amendment retaliation claim may sound where
there is probable cause. Since then, neither the Tenth Circuit nor the United States Supreme Court
has established any such right. See, e.g., Wilson v. Vill. of Los Lunas, 572 F. App'x 635, 643 (10th
Cir. 2014) (unpublished) (noting that Howard was reversed by Reichle without clearly establishing
any right).
Plaintiff argues that whether there was arguable probable cause is not relevant to a First
Amendment Retaliatory arrest claim. While Plaintiff may or may not be right that probable cause
is not an element of a First Amendment retaliation claim, it is not clearly established that a First
Amendment retaliatory arrest claim may sound where there is probable cause. See, e.g., Reichle
v. Howards, 566 U.S. 658, 132 S.Ct. 2088, 182 L.Ed.2d 985 (2012) (it was not clearly established
at the time of the defendant's arrest in June 2006 (six months before Marshall's arrest in the instant
case) that an arrest supported by probable cause could violate the First Amendment); Moran v.
Cameron, 362 F. App'x 88, 96–97 (11th Cir. 2010) (applying arguable probable cause standard in
case of first amendment retaliation); Mocek v. City of Albuquerque, 813 F.3d 912, 931 (10th Cir.
2015)( in first amendment claim retaliation claim, stating “When Mocek was arrested, it was not
clearly established that a plaintiff could show the requisite motive where his arrest was arguably

Aplt. App. 088

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 12 of 19
64a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 43

supported by probable cause. Mocek has not addressed Tenth Circuit or Supreme Court precedent
compelling that conclusion.”); Marshall v. City of Farmington Hills, 693 F. App'x 417, 426 (6th
Cir. 2017) (holding that Reichle is dispositive of First Amendment retaliatory arrest claim); see
also Green v. Nocciero, 676 F.3d 748, 751–52 (8th Cir. 2012) (arresting officers were entitled to
qualified immunity on Fourth Amendment claim where activist was disruptive and refused to leave
a public meeting and there was probable cause to arrest the activist for trespass under Missouri
state law).
Moreover, Howards v. McLaughlin, 634 F.3d 1131, 1148 (10th Cir. 2011), rev'd and
remanded sub nom. Reichle v. Howards, 566 U.S. 658, 132 S. Ct. 2088, 182 L. Ed. 2d 985 (2012),
once reversed, did not clearly establishes the law in the Tenth Circuit. The Supreme Court in
Reichle explicitly declined to address whether an arrest supported by probable cause violated the
First Amendment, and instead reversed on the ground that it was not clearly established in the
Tenth Circuit before then. The Court finds that this reversal creates enough uncertainty that a
reasonable officer could not pick up Howard and then Reichle and conclude that Howard clearly
establishes law beyond debate. To do so, officers would have to analyze both cases and determine
which portions of Howards are still good law. See, e.g., Ross v. Balderas, 2017 WL 2963885, at
*4 (D.N.M. Mar. 16, 2017) (Kelly, J.) (for post-Howards arrest in 2016, Plaintiff must plead and
prove absence of probable cause for underlying criminal charge); Brewer v. Ross, No. 1:15-CV87-TC, 2018 WL 3128998, at *8 (D. Utah June 26, 2018) (in post-Howards arrest in September
2011, finding that law was not clearly established); see also Karns v. Shanahan, 879 F.3d 504, 522
(3d Cir. 2018) (in post-Reichle arrest, it was reasonable for officers to believe that arrest otherwise
supported by probable cause would not violate plaintiff’s First Amendment rights); Moral v.
Hagen, 553 F. App'x 839, 840 (10th Cir. 2014) (unpublished) (“Only recently the Supreme Court

Aplt. App. 089

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 13 of 19
65a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 44

[ in Reichle]explained that it remains unsettled under current law whether an officer violates the
Fourth Amendment by initiating an arrest for retaliatory reasons when the arrest itself happens to
be supported, as an objective matter, by probable cause.”)
Under these circumstances, the Court declines to find that a constitutional right was
“sufficiently clear that every reasonable official would have understood that what he is doing
violates that right.” Mullenix, 136 S.Ct. at 308 (quoting Reichle v. Howards, 566 U.S. 658, 664,
132 S.Ct. 2088, 182 L.Ed.2d 985 (2012)). Generally, “existing precedent must have placed the
statutory or constitutional question beyond debate” for a right to be clearly established. Id. A
reasonable officer would not read Howard and Reichle determine that the relevant law is clearly
established. To find it clearly established, an officer would have to discern a distinction that even
the counseled parties in this case did not do in their briefs.
The relevant law in the Tenth Circuit is unclear and unsettled, and certainly not “beyond
debate” for arrests post-2011. Therefore, the Court finds that Defendants Apodaca and Alirez are
entitled to qualified immunity for the arrest and subsequent prosecution in June 2017.
3.

Plaintiff failed to carry burden that issuing trespass notices under these

circumstances violated clearly established First Amendment law.2
Plaintiff also alleges that Defendants violated his First Amendment rights by issuing
trespass notices and ordering him to vacate 301 S. Foch St. Comp., ¶ 63. In a reply brief,
Defendants argued that Plaintiff did not clearly establish that issuing trespass notices violated his
First Amendment rights. The Court directed Plaintiff to respond to those arguments in a sur-reply.
None of Plaintiff’s references in his sur-reply satisfy his burden of citing to clearly
established law. Plaintiff cited to Edwards v. South Carolina, 372 U.S. 229, 83 S.Ct. 680 (1963).

2

Plaintiff also appears to agree that the statute of limitations otherwise bars claims based on earlier trespass notices
– but not the trespass notices issued in 2017. Doc. 37, p. 3.

Aplt. App. 090

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 14 of 19
66a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 45

In that case, the criminal defendants were convicted of breach of the peace following public
protests on the streets. That case does not inform officers of when they can or cannot issue trespass
warnings for the visitor center of a state agency. Plaintiff also cited to Reed v. Town of Gilbert,
Ariz., 135 S.Ct. 2218, 2226 (2015), but that case addressed a town’s content-based regulation of
signs. These cases cite to the broad general proposition that prohibits government from “abridging
the freedom of speech.” U.S. Const., Amdt 1. However, none of these cases address whether an
officer violates the First Amendment by serving trespass notices at the request of the apparent
custodian of the building. Plaintiff did not attempt to address the legal contours of this issue.
Plaintiff’s quote of The Big Lebowski mentions prior restraint, but Plaintiff otherwise did not
attempt to brief the issue of prior restraint.
Plaintiff also cited to, and quoted from, a movie – The Big Lebowski – arguing that the First
Amendment right is so clearly established that it is prevalent in pop culture. See Doc. 37, p. 3.
The Court disagrees and does not find that any of the cases cited by Plaintiff “have placed the
statutory or constitutional question beyond debate.” Mullenix, 136 S.Ct. at 308. Therefore, the
Court concludes that these references do not satisfy Plaintiff’s burden of citing to clearly
established law under the specific facts of this case.
II.

Supervisory and Monell claims against Defendant Alirez and T or C (Count III).
Plaintiff asserts that Chief Alirez and the City of Truth or Consequences are liable under

Monell for failing to properly train, supervise, and admonish officers in his department. Plaintiff
alleges that Chief Alirez is a “policymaker” and created a climate that led officers under his
supervision to believe they could act with impunity and violate civil rights. Defendants Alirez and
the City of Truth or Consequences argue that because the law is not clearly established, they cannot
be held liable under a supervisory theory or under Monell.

Aplt. App. 091

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 15 of 19
67a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 46

A.

Supervisor Liability for Chief Alirez as to First Amendment Violation.

To assert a § 1983 supervisory claim and overcome Defendant Alirez’s assertions of
qualified immunity, Plaintiff must establish that Chief Alirez, by virtue of a policy over which he
possessed supervisory responsibility, caused a violation of Plaintiff’s clearly established
constitutional rights. Pahls v. Thomas, 718 F.3d 1210, 1228 (10th Cir. 2013) (Plaintiff “must
identify specific actions taken by particular defendants, or specific policies over which particular
defendants possessed supervisory responsibility, that violated [his] clearly established
constitutional rights.”); see also Cox v. Glanz, 800 F.3d 1231, 1250 (10th Cir. 2015) (analyzing
clearly established law as to supervisory liability claim). Here, since, the underlying First
Amendment claim was dismissed on the clearly established prong, the Court dismisses the
supervisory liability claim against Defendant Alirez.
B.

Municipal liability.

To the extent Plaintiff sues Chief Alirez in his official capacity, that is in reality a Monell
claim against the City of Truth or Consequences. Porro v. Barnes, 624 F.3d 1322, 1328 (10th Cir.
2010). Defendant Truth or Consequences only argues that the Monell claim against it should be
dismissed, because the First Amendment right at issue was not clearly established.
Generally, in the Tenth Circuit, granting qualified immunity to individual officers based
on the clearly established prong does not do away with a Monell claim. Hinton v. City of Elwood,
997 F.2d 774, 782-83 (10th Cir. 1993); see also Medina v. City and County of Denver, 960 F.2d
1493, 1499–1500 (10th Cir. 1992) (granting qualified immunity on clearly established prong does
not relieve local government of Monell claim), citing Watson v. City of Kansas City, Kansas, 857
F.2d 690, 697 (10th Cir.1988). Here, the Defendants argued that the violations were not clearly
established, and therefore the Court did not address whether there was a constitutional violation.

Aplt. App. 092

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 16 of 19
68a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 47

Because Defendant Truth or Consequences does not argue any other basis to dismiss the Monell
claim, Defendant Truth or Consequences’ request to dismiss the Monell claim is denied.
However, if Plaintiff nevertheless seeks to abandon his Monell claim, he should notify the
Court and opposing parties. See Doc. 37, p. 3.
III.

Defendant Daniel Hicks is entitled to Qualified Immunity as to the First Amendment

Claim (Count I).
A.

Plaintiff’s Allegations.

Plaintiff alleged that Defendant Hicks violated his First Amendment rights in two ways.
First, Defendant Hicks requested a trespass order “based on prior incidents as a preventive
measure”. Second, Plaintiff alleges that Defendant Hicks signed a trespass order on May 11, 2016.
Plaintiff did not allege the content of the notice or specify the scope of the trespass notice in his
complaint. Plaintiff also does not allege that Defendant Hicks was involved in the arrest or
prosecution.
Plaintiff alleged that he was protesting the use of a former T or C senior center as a visitor
center for Spaceport America, a New Mexico state agency. The complaint details a long saga of
Tor C officers responding to Plaintiff’s presence at the visitor center, and either allowing him to
stay, or asking him to leave, without taking any further action. But he also alleges that he (1) made
other building occupants, including Larena Miller, feel unsafe, Compl. ¶ 12, (2) was soliciting and
conducting business without a license, id. ¶¶ 12-13, 18-19, 21-24; (3) commenting that he was
unhappy that the building was no longer being used as a senior center, id. ¶ 25-26, and (4) a
volunteer at Geronimo Trial Scenic Byway was concerned about expensive items in the center
being damaged or stolen and the police warned Plaintiff not to harass any visitors. For example,
Plaintiff pled that he had previously approached visitors at the visitor center, handed out business

Aplt. App. 093

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 17 of 19
69a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 48

cards that said “Spaceport Tour Video Memory Services”, and offered videos for a $10.00
donation.
B.

Defendant Hicks’ Defense of Qualified Immunity.

Defendant Hicks raised qualified immunity and specifically argued that the law was not
clearly established.3 The Court need not address whether there was a constitutional violation. For
the reasons stated by Defendant Hicks, even assuming there was a constitutional violation, the
Court concludes that Plaintiff failed to carry his heavy burden that the law was clearly established.
Qualified immunity “is an entitlement not to stand trial or face the other burdens of
litigation. The privilege is an immunity from suit rather than a mere defense to liability. When a
defendant asserts the defense of qualified immunity, the burden shifts to the plaintiff to overcome
the asserted immunity.” Ahmad v. Furlong, 435 F.3d 1196, 1198 (10th Cir. 2006) (internal
citations and quotation marks omitted). “Cleary established law should not be defined at a high
level of generality…the clearly established law must be “particularized” to the facts of the case.”
White v. Pauly, 137 S. Ct. 548, 552, 196 L. Ed. 2d 463 (2017) (quotation marks and internal
citations omitted). Under the White v. Pauly analysis, the Supreme Court requires courts to identify
a case where a government official acting under similar circumstances as Defendant Hicks was
held to have violated the First Amendment. Id.
Plaintiff bears the burden of citing to case law and articulating the clearly established right
he claims had been violated. See Thomas v. Durastanti, 607 F.3d 655, 669 (10th Cir. 2010);
Martinez v. Carr, 479 F.3d 1292, 1295 (10th Cir. 2007) (“[T]he record must clearly demonstrate
the plaintiff has satisfied his heavy two-part burden; otherwise, the defendants are entitled to

3

Defendant Hicks is the CEO of Spaceport America, a New Mexico state governmental entity. Plaintiff does not
dispute that Defendant Hicks is an individual entitled to assert the defense of qualified immunity.

Aplt. App. 094

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 18 of 19
70a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 49

qualified immunity.” (internal quotation marks omitted)). In analyzing clearly established law, the
Court looks at the cases cited by Plaintiff to determine whether those cases can serve as clearly
established law. See, e.g., A.M. v. Holmes, 830 F.3d 1123, 1154 (10th Cir. 2016) (granting
qualified immunity where “neither of Plaintiff’s cited sources can serve as the clearly established
law governing this First Amendment retaliation claim.”)
Here, Plaintiff cites to cases which are not factually on point or are cited for general
statements of law which would not make a reasonable official aware that he or she was violating
Plaintiff’s First Amendment rights. Plaintiff cites to no cases that apply the complex First
Amendment analysis to the facts of this case, i.e., that it was clearly established that issuing a
trespass notice barring Plaintiff for his alleged conduct from a state agency visitor center would
violate Plaintiff’s First Amendment rights. Therefore, those cases cited by Plaintiff do not clearly
establish that Defendant Hicks would violate Plaintiff’s First Amendment rights by having a
trespass notice served on him.
For example, in an attempt to satisfy his burden, Plaintiff cited to Wolford v. Lasater, 78
F.3d 484, 488 (10th Cir. 1996). In that case the Tenth Circuit affirmed dismissal of a First
Amendment retaliatory prosecution claim because probable cause supported the charges filed
against Plaintiff. Here, Defendant Hicks was not alleged to have been involved in the arrest or
prosecution of Plaintiff, and that case would not have placed Defendant Hicks on notice that he
could violate Plaintiff’s First Amendment rights by signing the trespass notice. Plaintiff also cites
to a number of California state cases that the “presumptively protected status of peaceful picketing
activities” is a well-established right. Doc. 26, p. 10-11.
Plaintiff also cites to the First Amendment retaliation elements. Nielander v. Bd. Of Cnty
Comm’rs, 582 F.3d 1155, 1165 (10th Cir. 2009) and Smith v. Plati, 258 F.3d 1167, 1176-77 (10th

Aplt. App. 095

Case 2:18-cv-00634-WJ-GBW Document 38 Filed 02/26/19 Page 19 of 19
71a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 50

Cir. 2001). Again, that law is too general to identify to a reasonable official under these
circumstances that his or her conduct was unlawful.
Most of Plaintiff’s response ably argues why a constitutional violation occurred. While a
constitutional violation may or may not have occurred, Plaintiff did not satisfy his burden of citing
to cases that make it apparent to a reasonable government official that his conduct was unlawful.
CONCLUSION
The Court finds and concludes that Defendants Apodaca and Alirez are entitled to qualified
immunity on the First Amendment claim (Count I). Defendant Alirez is also entitled to qualified
immunity as to the supervisory liability claim (Count III). However, the Monell claim (Count III)
against the City of Truth or Consequence remains. Moreover, Defendant Hicks is entitled to
qualified immunity on Count I. Finally, Count II, which was not addressed in any of the motions
to dismiss, remains.
IT IS THEREFORE ORDERED that the Truth or Consequences Defendants’ Motion to
Dismiss Plaintiff’s Complaint for Failure to State a Claim and Lack of Jurisdiction (Doc. 13) is
hereby GRANTED IN PART for reasons described in this Memorandum Opinion and Order; and
IT IS FURTHER ORDERED that the Defendant Hicks’ Motion to Dismiss (Doc. 18) is
hereby GRANTED for reasons described in this Memorandum Opinion and Order.

______________________________________
CHIEF UNITED STATES DISTRICT JUDGE

Aplt. App. 096

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 1 of 14
72a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 51

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
_________________________
RON FENN,
Plaintiff,
vs.

No. 2:18-cv-00634 WJ-GW

CITY OF TRUTH OR CONSEQUENCES,
MICHAEL APODACA, Truth or Consequences
Police Captain individually acting under the color of Law,
LEE ALIREZ, Truth or Consequences Police Chief individually
Acting under color of state law, and DANIEL HICKS,
Director of Spaceport America,
Defendants.
MEMORANDUM OPINION AND ORDER
GRANTING DEFENDANT’S MOTION FOR SUMMARY JUDGMENT ON
PLAINTIFF’S SECOND AND THIRD CAUSES OF ACTION
THIS MATTER comes before the Court upon a Motion for Summary Judgment on
Plaintiff’s Second and Third Causes of Action, filed by Defendants City of Truth or Consequences,
Chief Lee Alirez, and Captain Michael Apodaca (“Defendants” herein) on August 12, 2019 (Doc.
42).

Having reviewed the parties’ pleadings and the applicable law, the Court finds that

Defendant’s motion is well-taken and, therefore, is granted.
BACKGROUND
Plaintiff, a resident of Sierra County, New Mexico, was an outspoken critic of the
Spaceport America facility located in Sierra County. According to the complaint, Plaintiff claims
that he “has been very outspoken regarding his disagreement with the city of Truth or
Consequences regarding the lease of a city building to” Spaceport America. Compl., ¶¶1, 10. He

Aplt. App. 111

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 2 of 14
73a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 52

alleges that “[h]e has frequently attended meetings and publicly protested in traditional forums
against the use of Truth or Consequences funds for the benefit of Spaceport America.” Id. at ¶ 10.1
Aug. 2, 2018).
Plaintiff has a lengthy history of being asked to leave the Lee Belle Johnson Center, 301
S. Foch St., which was a senior center in Truth or Consequences (where the Spaceport America
Visitor’s Center is housed, alongside other facilities). He was ultimately arrested for trespassing
at the Johnson Center in June of 2017, and criminal trespass charges were filed against him. In
the criminal case, Plaintiff filed a motion to dismiss for failure to establish essential elements of
the offense. A hearing was held, and the motion to dismiss was denied. The criminal case was
dismissed without prejudice (Nolle Proseque) on October 11, 2017.
Plaintiff filed this complaint alleging (1) First Amendment Retaliation; (2) Malicious
Prosecution and Abuse of Process; and (3) supervisory and Monell liability.
In its prior Memorandum Opinion and Order, this Court granted in part Defendants’ First
Motion to Dismiss, concluding that:
(1) Defendants Apodaca and Alirez were entitled to qualified immunity on the First
Amendment claim (Count I) because a “reasonable [law enforcement] officer could have
reasonably believed that probable cause existed for criminal trespass in light of well-established
law,” Doc. 38 at 8;
(2) Defendant Alirez was also entitled to qualified immunity as to the supervisory
liability claim (Count III); and that
(3) Defendant Hicks is entitled to qualified immunity on the First Amendment claim
(Count I);
(4) However, the Court found that the Monell claim (Count III) against the City of Truth
or Consequence remains.

1

A more detailed factual account is contained in the Court’s previous Memorandum Opinion and Order, Doc. 38.

Aplt. App. 112

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 3 of 14
74a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 53

DISCUSSION
In this motion, Defendants seek summary judgment on the second and third counts
in the complaint which assert claims of (1) Malicious Prosecution and Abuse of Process;
and (2) supervisory and Monell liability.
I.

Legal Standard
Defendants have raised the defense of qualified immunity, which shields government

officials from liability for civil damages “insofar as their conduct does not violate clearly
established statutory or constitutional rights of which a reasonable person would have known.”
Pearson v. Callahan, 555 U.S. 223, 231 (2009); Romero v. Story, 672 F.3d 880 (10th Cir. 2012).
“In resolving questions of qualified immunity at summary judgment, courts engage in a twopronged inquiry.” Tolan v. Cotton, 134 S.Ct. 1861, 1865(2014). The first prong asks whether the
facts, taken in the light most favorable to the party asserting the injury—here the Defendant
officers—show that the officer’s conduct violated a federal right. The second asks whether the
right in question was “clearly established” at the time of the violation. Id. at 1865–66 (citations
and quotation marks omitted). The Court may consider these two inquiries in any order. See
Pearson, 555 U.S. 223, 236 (2009).
Once a defendant asserts a defense of qualified immunity, the burden shifts to the plaintiff
to show that the defendant violated a constitutional or statutory right, and that the right was clearly
established at the time of the conduct. See McBeth v. Himes, 598 F.3d 708, 716 (10th Cir. 2010).
The contours of the right must be sufficiently clear that a reasonable official would understand
what he is doing violates that right.” Thomas v. Kaven, 765 F.3d 1183, 1194 (10th Cir. 2014).
Courts may decide “which of the two prongs of the qualified immunity analysis should be

Aplt. App. 113

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 4 of 14
75a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 54

addressed first in light of the circumstances in the particular case.” Pearson, 555 U.S. at 236
(2009); Quinn v. Young, 780 F.3d 998, 1004 (10th Cir. 2015).
As Defendants point out, Plaintiff has not complied with Fed.R.Civ.P.56 by offering any
responsive facts to Defendants’ thirty-one Statement of Undisputed Facts. Under Rule 56, a party
opposing a motion for summary judgment must set out in its response specific facts showing a
genuine issue for trial.” Failure to do so allows the Court to consider the movant’s facts as
undisputed and enter summary judgment against the non-movant. See Fed.R.Civ.P. 56(e)(2);
Elephant Butte Irr. Dist. of New Mexico v. U.S. Dep't of Interior, 538 F.3d 1299, 1305 (10th Cir.
2008); see also D.N.M.LR-Civ.56.1(b) (“All material facts set forth in the Memorandum will be
deemed undisputed unless specifically controverted”).
All of Defendants’ statement of facts are supported by evidence presented in exhibits.
Based on Plaintiff’s failure to controvert any of these facts, the Court deems as undisputed all facts
leading up to Plaintiff’s arrest for criminal trespass, as well as the description and disposition of
the criminal charges that were filed.
II.

Second Cause of Action: Malicious Prosecution/Abuse of Process
Plaintiff asserts claims of malicious prosecution/abuse of process against Defendants

Apodaca and Alirez.2 Defendants contend that Plaintiff cannot maintain a claim for malicious
prosecution under the first qualified immunity prong, and that Defendants Alirez and Apodaca are
entitled to qualified immunity under the second “clearly established” prong.
A.

Malicious Prosecution: Probable Cause and Favorable Termination

To state a Section 1983 claim for malicious prosecution, a plaintiff must show:

2

Defendants point out that Captain Apodaca did not actually arrest Plaintiff on June 18, 2017 or file charges against
him. Doc. 42 at 11, n.5. Chief Alirez arrested Plaintiff and filed the second complaint regarding the June 4, 2017
encounter with plaintiff. See Doc. 38 at 3 (details of encounters and arrests). However, the identity of the arresting
officer is not critical for purposes of deciding whether Plaintiff can maintain the second cause of action.

Aplt. App. 114

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 5 of 14
76a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 55

(1) the defendant caused the plaintiff’s continued confinement or prosecution;
(2) the original action terminated in favor of the plaintiff;
(3) no probable cause supported the original arrest, continued confinement, or
prosecution;
(4) the defendant acted with malice; and
(5) the plaintiff sustained damages.
Wilkins v. DeReyes, 528 F.3d 790, 799 (10th Cir. 2008); see also Margheim v. Buljko, 855 F.3d
1077, 1085 (10th Cir. 2017); Griffin v. Kinnison, 2018 WL 1415185, *8 (D.N.M. Mar. 21, 2018)
(unpublished). To meet the second element, the plaintiff has the “burden to show that the
termination was favorable.” Cordova v. City of Albuquerque, 816 F.3d 645, 650 (10th Cir. 2016).
To carry that burden, a plaintiff must allege facts which, if true, would allow a reasonable jury to
find the proceedings terminated “for reasons indicative of innocence.” See M.G. v. Young, 826
F.3d 1259, 1263 (10th Cir. 2016). A plaintiff must prove lack of probable cause to prosecute as
an essential element of his malicious prosecution or false arrest claim. See, e.g., McCarty v.
Gilchrist, 646 F.3d 1281, 1285-86 (10th Cir. 2011); U.S. v. White, 584 F.3d 935, 945 (10th Cir.
2009); Novitsky v. City of Aurora, 491 F.3d 1244, 1258 (10th Cir. 2007); Hoffman v. Martinez, 92
F. App’x 628,

631 (10th Cir. 2004) (unpublished). This is so “because not every arrest,

prosecution, confinement, or conviction that turns out to have involved an innocent person should
be actionable.” See Pierce v. Gilchrist, 359 F.3d 1279, 1294 (10th Cir. 2004). In a Fourth
Amendment malicious prosecution case such as this one, “the third element deals only with the
probable cause determination during the institution of legal process.” McGarry v. Bd. of Cnty.
Comm’rs for Cnty. of Lincoln, 294 F.Supp.3d 1170, 1194 (D.N.M. 2018).

Aplt. App. 115

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 6 of 14
77a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 56

1.

Probable Cause

The question here is whether the officers “arguably had probable cause.” Kaufman v.
Higgs, 697 F.3d 1297, 1300 (10th Cir. 2012). The validity of an arrest “does not depend on whether
the suspect actually committed the crime; the mere fact that the suspect is later acquitted of the
offense for which he is arrested is irrelevant to the validity of the arrest.” Michigan v. DeFillippo,
443 U.S. 31, 37 (1979); see also Summers v. Utah, 927 F.2d 1165, 1166-67 (10th Cir. 1991)
(citations omitted).
Plaintiff’s own admissions in the complaint and references to documents attached to the
complaint constitute evidence that Defendants arguably had probable cause. See Guidry v. Sheet
Metal Workers Int’l. Ass’n., 10 F.3d 700, 716 (10th Cir. 1993) (allegations contained in a
complaint can constitute judicial admissions). Plaintiff’s trespassing and disruptive activities at
the Johnson senior center over a period of nearly two years. He was issued trespass warnings
directing him to stay away from center on multiple occasions and by his own admission, Plaintiff
ignored or refused orders by law enforcement to leave the center. Moreover, while the criminal
charges against plaintiff were pending, the Sierra County Magistrate Court ordered plaintiff to stay
away from the Johnson Center/Spaceport America Visitor’s Center. See Docs. 1-2, 1-3; 1-6 to 18; Doc. 23 at 1-2). Thus, under these undisputable facts, arguable (if not actual) probable cause
existed to prosecute plaintiff. See, e.g., Williams v. Town of Greenburgh, 535 F.3d 71, 78-79 (2d
Cir. 2008) (plaintiff’s false arrest and malicious prosecution claims failed because “there was
probable cause to arrest [plaintiff], who was therefore not deprived of any constitutional right”).3

3

Defendants argue that Plaintiff is collaterally estopped from challenging the existence of probable cause for his
criminal charges under the full faith and credit doctrine, see 28 U.S.C. §1738. Doc. 42 at 13. However, given that
the Court finds that probable cause existed, this issue is irrelevant to the issues raised in this motion.

Aplt. App. 116

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 7 of 14
78a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 57

2.

Favorable Termination

It is not entirely clear whether the original action terminated in Plaintiff’s favor.
Defendants contend that the nolle prosequis does not constitute a favorable termination for
Plaintiff because a “bare nolle prosse without more is not indicative of innocence.” Wilkins v.
DeReyes, 528 F.3d 790, 803 (10th Cir. 2008). Rather, the “dispositive inquiry is whether the failure
to proceed implies a lack of reasonable grounds for the prosecution.” Id.
Defendants argue that because the nolle prosequis was filed without prejudice, it could
have been refiled at a later time and does not imply a lack of reasonable grounds for the
prosecution.

Therefore, they argue, it is insufficient to satisfy the favorable termination

requirement. However, Wilkins does not entirely resolve the question of whether Plaintiff’s case
ended favorably. In that case, the Tenth Circuit concluded that the nolle proseques “should be
considered terminations in favor of Plaintiffs [because the] dismissals were not entered due to
any compromise or plea for mercy. . . [but rather] they were the result of a judgment by the
prosecutor that the case could not be proven beyond a reasonable doubt” and that it was “the State’s
opinion that currently there is insufficient evidence upon which to retry the defendant[s] for these
crimes.” Id. (emphasis added).
In this case, the State of New Mexico found that there was “insufficient evidence to proceed
with charges at this time.” Doc. 42-8. One might conclude that this basis for dismissal is not
unlike the reason given in Wilkins, which would mean that Plaintiff’s proceeding ended favorably
for him. However, Plaintiff cannot sustain a malicious prosecution claim even if the original
criminal action had a favorable termination because the elements of the claim are conjunctive and
probable cause existed for the criminal charges. Because at least arguable probable cause existed,
Plaintiff cannot proceed on this claim.

Aplt. App. 117

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 8 of 14
79a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 58

B.

Malicious Abuse of Process4

The tort of malicious abuse of process recognizes that the legal process may be invoked or
used in a wrongful manner, causing harm to the party forced to bear the consequences of the
wrongful lawsuit. The malicious abuse of process tort is disfavored in the law because of the
potential chilling effect on the right of access to the courts. Fleetwood Retail Corp. v. LeDoux, 142
N.M. at 150, 156 (N.M. 2007). Maliciously filing a complaint is insufficient to state a malicious
abuse of process claim unless it was done without probable cause or was accompanied by some
subsequent abuse of process. Durham v. Guest, 204 P.3d 19, 25 (N.M. 2009). The elements of this
tort are: (1) the use of process in a judicial proceeding that would be improper in the regular
prosecution or defense of a claim or charge; (2) a primary motive in the use of process to
accomplish an illegitimate end; and (3) damages.
An improper use of process may be shown several different ways, either by showing that
a complaint was filed without probable cause or by demonstrating a misuse of procedural devices
such as discovery, subpoenas, or attachments, or an irregularity or impropriety in the proceedings
suggesting extortion, delay, or harassment. Fleetwood, 142 N.M. at 155. Here. Plaintiff can show
neither the lack of probable cause or the use of impropriety since his own judicial admissions
demonstrate that the criminal charges were based on probable cause. Therefore, Plaintiff cannot
maintain a claim of malicious abuse of process.

4

When addressing malicious prosecution claims brought pursuant to §1983, a court uses common law elements of
malicious prosecution as starting point for its analysis; however, the ultimate question is whether plaintiff has
proven the deprivation of a constitutional right. Novitsky v. City Of Aurora, 491 F.3d 1244 (10th Cir. 2007).
In New Mexico, the Supreme Court has merged the torts of malicious prosecution and abuse of process into a
single cause of action known as malicious abuse of process. DeVaney v. Thriftway Mktg. Corp., 124 N.M. 512, 953
P.2d 277, 285-86 (1997), cert. denied 118 S.Ct. 2296 (1998) (listing elements). Neither party suggests addressing
count II as a merged tort. Plaintiff styles Count II as “Malicious prosecution, Abuse of Process” and Defendants
analyze these as separate claims as well.

Aplt. App. 118

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 9 of 14
80a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 59

C.

Retaliatory Malicious Prosecution

Plaintiff does not expressly assert a claim for retaliatory malicious prosecution, but
Defendants contend that to the extent he intends to assert such a claim, it would fail.5 For this
claim, a plaintiff must show both retaliatory motive on the part of the official urging prosecution
and lack of probable cause. Hartman v. Moore, 547 U.S. 250, 265 (2006). Becker v. Kroll, 494
F.3d 904, 925 (10th Cir. 2007) (stating elements of retaliatory prosecution claim); Reichle v.
Howards, 566 U.S. 658, 666 (2012) (“a plaintiff cannot state a claim of retaliatory prosecution in
violation of the First Amendment if the charges were supported by probable cause”).
The Court agrees with Defendants that based on the undisputed facts, Plaintiff has failed
to show lack of probable cause as well as retaliatory motive on the part of Defendants and so
Plaintiff cannot sustain this claim, either.
D.

Defendants Alirez and Apodaca are Entitled to Qualified Immunity

(1) First Prong of Qualified Immunity Inquiry:
In the foregoing discussion, the Court has determined that Plaintiff has not shown that
Defendants violated his constitutional rights based on claims of Malicious Prosecution, Malicious
Abuse of Process and Retaliatory Malicious Prosecution. These findings are sufficient to entitle
Defendants to qualified immunity under the first prong of the inquiry.
(2) Second Prong of Qualified Immunity Inquiry: The Court need not consider the second
part of the inquiry, since if a plaintiff “fails to satisfy either part of the two-part inquiry, the court
must grant . . . qualified immunity.” Gross v. Pirtle, 245 F.3d 1151, 1156 (10th Cir. 2001).

Defendants’ desire to be thorough in its analysis is understandable, given the lack of clarity in the complaint.
While the Second Cause of Action is titled as “Malicious Prosecution, Abuse of Process,” the text of that count
alleges that Defendants attempted to “chill his activities and retaliate against him for disclosing their malfeasance”—
which looks similar to Plaintiff’s First Amendment retaliatory prosecution claim asserted in the First Cause of
Action. Compl., ¶70.
5

Aplt. App. 119

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 10 of 14
81a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 60

However, the Court will consider it to illustrate that there is no basis for Plaintiff to continue
litigating his claims. Defendants claim they would be entitled to qualified immunity on the second
part of the inquiry because there is an absence of controlling authority that specifically prohibited
Defendants from their actions toward Plaintiff regarding the criminal trespass charges. The Court
agrees with Defendants that Plaintiff has failed to satisfy his burden to show that the law was
clearly established such that Defendants Alirez and Apodoca would have known that their conduct
violated Plaintiff’s Fourth Amendment rights.
Plaintiff’s first legal error is to urge the Court to espouse a more general concept of “clearly
established” law, when this notion has been soundly rejected by the United States Supreme Court.
Cases offered to show “clearly established law” must include facts that are sufficiently analogous
and specific so that a reasonable official would know “that his conduct was unlawful in the
situation he confronted.” Saucier v. Katz, 533 U. S. 194, 202 (2001); D.C. v. Wesby, 138 S. Ct.
577, 590 (2018) (“We have repeatedly stressed that courts must not “define clearly established law
at a high level of generality, since doing so avoids the crucial question whether the official acted
reasonably in the particular circumstances that he or she faced”):
A rule is too general if the unlawfulness of the officer’s conduct “does not follow
immediately from the conclusion that [the rule] was firmly established.” The
rule's contours must be so well defined that it is “clear to a reasonable officer that
his conduct was unlawful in the situation he confronted.” This requires a high
degree of specificity.
Wesby, 138 S. Ct. at 590 (emphasis added) (citing Saucier, 533 U.S. at 202. Plaintiff commits a
second error as well: even after having advanced the position that “clearly established” law should
be premised on a more general statement of the law, he offers no case law at all as examples.
Instead, Plaintiff engages in legal argument (Doc. 45 at 1-2) and lamely argues that the operative

Aplt. App. 120

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 11 of 14
82a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 61

inquiry is whether officer’s actions were objectively reasonable (id. at 3)—which does not in any
way satisfy his burden of showing the law was clearly established.
Plaintiff’s failure to carry his burden of showing the law was clearly established entitles
Defendants to qualified immunity. See Cox v. Glanz, 800 F.3d 1231, 1247 (10th Cir. 2015)
(plaintiff failed burden under qualified immunity by failing to cite to any Supreme Court or Tenth
Circuit opinion that would indicate right was clearly established); citing Thomas v. Durastanti,
607 F.3d 655, 669 (10th Cir. 2010) (“The plaintiff bears the burden of citing to us what he thinks
constitutes clearly established law.”); Hedger v. Kramer, 2018 WL 1082983, at *5 (10th Cir. 2018)
(“The failure to identify [] a case is fatal to the claim.”). Accordingly, Defendants are entitled to
qualified immunity on Plaintiff’s second cause of action, under either prong of the qualified
immunity inquiry.
III.

Third Cause of Action: §1983 Municipal and Supervisory Liability for

Violations of Federal Constitutional Rights.
In the Third Cause of Action, Plaintiff claims that Chief Alirez, by virtue of a policy
over which he possessed supervisory responsibility, and the City of Truth or Consequences
(“City”) through this policy, caused a violation of Plaintiff’s clearly established
constitutional rights.
Plaintiff’s municipal liability and supervisory liability claims hinge on a finding
that the complaint alleges the violation of a constitutional right. To establish municipal
liability under § 1983, a plaintiff must demonstrate a direct causal link between an
underlying constitutional violation and a municipal policy or custom exists. See Graves v.
Thomas, 450 F.3d at 1218. A plaintiff may impose liability upon a defendant-supervisor
who creates, promulgates, implements, or in some other way possesses responsibility for

Aplt. App. 121

Appellate Case: 19-2201

83a
Document: 010110471175

Date Filed: 01/26/2021

UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT
_________________________________
RON FENN,

Page: 1

FILED
United States Court of Appeals
Tenth Circuit

January 26, 2021
Christopher M. Wolpert
Clerk of Court

Plaintiff - Appellant,
v.
CITY OF TRUTH OR CONSEQUENCES;
MICHAEL APODACA, Truth or
Consequences Police Captain, individually
acting under the color of law; LEE
ALIREZ, Truth or Consequences Police
Chief, individually acting under color of
state law; DANIEL HICKS, Director of
Spaceport America,

No. 19-2201
(D.C. No. 2:18-CV-00634-WJ-GBW)
(D. N.M.)

Defendants - Appellees.
_________________________________
ORDER
_________________________________
Before TYMKOVICH, Chief Judge, LUCERO, and BACHARACH, Circuit Judges.
_________________________________
Appellant's petition for rehearing is denied.
Entered for the Court

CHRISTOPHER M. WOLPERT, Clerk

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 12 of 14
84a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 62

the continued operation of a policy which results in a deprivation of constitutional rights.
Dodds v. Richardson, 614 F.3d 1185 (10th Cir. 2010).
The Court has already determined that Plaintiff cannot maintain his second cause of action,
whether presented as a claim for Malicious Prosecution, Malicious Abuse of Process or Retaliatory
Malicious Prosecution; and that as a result, Defendants are entitled to qualified immunity on
Plaintiff’s second cause of action under the first prong of a qualified immunity inquiry. This
finding bars Plaintiff’s third cause of action against the City because there is no underlying
constitutional violation on which to base a Monell claim. See, Apodaca v. Rio Arriba County
Sheriff's Dept., 905 F.2d 1445, 1447 (10th Cir. 1990) (a municipality may not be held liable where
there is no underlying constitutional violation by any of its officers (citing City of Los Angeles v.
Heller, 475 U.S. 796, 799 (1986)); Hinton v. City of Elwood, Kan., 997 F.2d 774, 782 (10th Cir.
1993) (where an individual law enforcement officer is entitled to qualified immunity on the ground
that his or her conduct did not violate the law, it is proper to dismiss claims against the
municipality.
Plaintiff’s supervisory liability claim against Defendant Alirez also fails for the same
reason. See Butler v. City of Norman, 992 F.2d 1053, 1055 (10th Cir.1993) (liability of supervisor
based on showing that the defendant-supervisor personally directed the violation or had actual
knowledge of the violation and acquiesced in its continuance); Cox v. Glanz, 800 F.3d 1231, 1250
(10th Cir. 2015) (analyzing clearly established law as to supervisory liability claim). In addition,
the Court’s finding that Plaintiff has failed to show the law was clearly established also entitles
Defendant Alirez to qualified immunity. See Owen v. City of Independence, 445 U.S. 622, 638
(1980); Seamons v. Snow, 206 F.3d 1021, 1029 (10th Cir. 2000) (Qualified immunity is not
available as a defense to municipal liability.).

Aplt. App. 122

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 13 of 14
85a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 63

CONCLUSION
In sum, this Court finds and concludes that:
(1) Plaintiff cannot sustain his second cause of action against Defendants Apodaca and
Alirez asserting Malicious Prosecution and Abuse of Process and as a result, Defendants are
entitled to qualified immunity on both parts of the qualified immunity analysis;
(2) Plaintiff cannot sustain his second cause of action against Defendant Alirez based on
supervisory liability and as a result Defendant is entitled to qualified immunity on the second cause
of action; and that
(3) Plaintiff cannot sustain his second cause of action against Defendant City of Truth or
Consequences (“City”) based on municipal liability because there is no underlying constitutional
violation and as a result, the City is entitled to summary judgment on Count III in the Monell claim.
In its previous decision, the Court did not address the Monell claim with regard to the First
Amendment claim in Count I because Defendants did not offer any argument on this issue. See
Doc. 38 at 16. In their summary judgment motion, however, Defendants argue that the Monell
claim should be dismissed because Plaintiff cannot show that his constitutional rights were
violated. While the Court focused on the “clearly established” prong in the Order granting in part
Defendants’ motion to dismiss (Doc. 38 at 15-16), it is also clear that Plaintiff cannot show that
Defendants retaliated against him in violation of his First Amendment rights either, because
probable cause existed for the criminal trespass charge. See Mocek v. City of Albuquerque, 813
F.3d 912, 931–32 (10th Cir. 2015) (In First Amendment Retaliation claim, Plaintiff must show
lack of probable cause for retaliatory prosecution cases). As a result, the Monell claims in Count
III must be dismissed entirely, with regard to both of Plaintiff’s underlying substantive claims in
Count I and Count II.

Aplt. App. 123

Case 2:18-cv-00634-WJ-GBW Document 52 Filed 11/06/19 Page 14 of 14
86a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 64

THEREFORE,
IT IS ORDERED that Defendants’ Motion for Summary Judgment on Plaintiff’s Second
and Third Causes of Action (Doc. 42) is hereby GRANTED for reasons described in this
Memorandum Opinion and Order.
As a result of the Court’s cumulative findings in this Opinion and in its previous Opinion,
there are no claims remaining in Plaintiff’s complaint, and the rulings herein dispose of Plaintiff’s
case in its entirety.
By separate pleading, the Court shall issue a Rule 58 Judgment.

_________________________________________
CHIEF UNITED STATES DISTRICT JUDGE

Aplt. App. 124

Case 2:18-cv-00634-WJ-GBW Document 53 Filed 11/06/19 Page 1 of 1
87a
Appellate Case: 19-2201 Document: 010110308991
Date Filed: 02/25/2020 Page: 65

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF NEW MEXICO
_________________________
RON FENN,
Plaintiff,
vs.

No. 2:18-cv-00634 WJ-GW

CITY OF TRUTH OR CONSEQUENCES,
MICHAEL APODACA, Truth or Consequences
Police Captain individually acting under the color of Law,
LEE ALIREZ, Truth or Consequences Police Chief individually
Acting under color of state law, and DANIEL HICKS,
Director of Spaceport America,
Defendants.

RULE 58 JUDGMENT
THIS MATTER came before the Court upon Defendants’ Motion for Summary
Judgment on Plaintiff’s Second and Third Causes of Action (Doc. 42). Pursuant to the findings
and conclusions set forth in the Memorandum Opinion and Order which accompanies this Rule
58 Judgment (Doc. 52).
IT IS THEREFORE ORDERED and ADJUDGED that Defendants’ Motion for
Summary Judgment on Plaintiff’s Second and Third Causes of Action (Doc. 42) is hereby
GRANTED, thus disposing of this case on its merits and in its entirety.

______________________________________
CHIEF UNITED STATES DISTRICT JUDGE

Aplt. App. 125

Appellate Case: 19-2201

88a
Document: 010110308991

Date Filed: 02/25/2020

Page: 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

No. 19-2201

RON FENN
Plaintiff-Appellant
v.
CITY OF TRUTH OR CONSEQUENCES, MICHAEL APODACA, POLICE
CHIEF LEE ALIREZ, and DANIEL HICKS
Defendants-Appellees

On Appeal from the United States District Court
For the District of New Mexico (Hon. William P. Johnson)
District Case No. 2:18-cv-00634
APPELLANT’S OPENING BRIEF

WESTERN AGRICULTURE, RESOURCE
AND BUSINESS ADVOCATES, LLP
A. Blair Dunn, Esq.
400 Gold Ave. SW, Suite 1000
Albuquerque, NM 87102
(505) 750-3060
abdunn@ablairdunn-esq.com
Oral Argument Requested

Appellate Case: 19-2201

89a
Document: 010110308991

Date Filed: 02/25/2020

Page: 2

TABLE OF CONTENTS
Table of Authorities ................................................................................................ iv
STATEMENT OF PRIOR RELATED APPEALS ................................................. 1
JURISDICTIONAL STATEMENT ........................................................................ 1
STATEMENT OF THE ISSUES............................................................................. 1
STANDARD OF REVIEW ..................................................................................... 2
STATEMENT OF THE CASE ................................................................................ 2
STATEMENT OF THE RELEVANT FACTS ....................................................... 3
SUMMARY OF THE ARGUMENT ...................................................................... 4
ARGUMENT ........................................................................................................... 5
A. The District Court Erred in Affording Dan Hicks Qualified Immunity........ 6
1. Hicks Violated Plaintiff’s First Amendment Rights ................................ 7
2. Appellant had a Right to Protest at the Visitor Center ............................. 9
B. T or C Appellees are Not Entitled to Qualified Immunity for
Either Retaliatory Arrest or Malicious Prosecution .................................... 13
1. The Actions of Chief Alirez and Captain Apodaca to “Press
Charges” by Seeking Out and Inducing Mr. Hicks to Obtain
A Trespass Order Against Mr. Fenn when there was No Probable
Cause that a Crime was Being Committed was Objectively
Unreasonable and Therefore Conflicts with the Supreme Court’s
Decision in Nieves Regarding Retaliatory Arrest ................................. 13
2. The District Court’s Decision Regarding the Prosecution of
Mr. Fenn is Inconsistent with the Jurisprudence from the U.S.
Supreme Court and the 10th Circuit. ....................................................... 15

Appellate Case: 19-2201

90a
Document: 010110308991

Date Filed: 02/25/2020

Page: 3

C. Without a Determination that Appellees are Entitled to Qualified
Immunity the District Court’s Decision Regarding the Monell
Claims is in Error ......................................................................................... 23
CONCLUSION ...................................................................................................... 23
ORAL ARGUMENT STATEMENT .................................................................... 23
CERTIFICATE OF COMPLIANCE ..................................................................... 24
CERTIFICATE OF DIGITAL SUBMISSION ..................................................... 25
CERTIFICATE OF SERVICE .............................................................................. 25
Attachment 1 – Memorandum Opinion and Order Granting in
Part Truth or Consequences Defendants’ Motion to Dismiss and
Granting Defendant Daniel Hicks’ Motion to Dismiss
(ECF Doc. 38) ............................................................................... Aplt App 078-096
Attachment 2 – Memorandum Opinion and Order Granting
Defendant’s Motion for Summary Judgment on Plaintiff’s
Second and Third Causes Of Action (ECF Doc. 52) .................... Aplt App 111-124
Attachment 2 – Rule 58 Judgment (ECF Doc. 53) .............................. Aplt App 125

Appellate Case: 19-2201

91a
Document: 010110308991

Date Filed: 02/25/2020

Page: 4

TABLE OF AUTHORITIES
Cases
Adderley v. Florida; Greer v. Spock, 424 U.S. 828, 96 S.Ct. 1211,
47 L.Ed.2d 505 (1976); ............................................................................................10
Agric. Labor Relations Bd. v. California Coastal Farms, Inc., 31 Cal. 3d 469,
645 P.2d 739 (1982);................................................................................................10
Anthony v. Baker, 767 F.2d 657 (10th Cir.1985).....................................................20
Becker v. Kroll, 494 F.3d 904 (10th Cir. 2007) .......................................................20
Cordova v. City of Albuquerque, 816 F.3d 645 (10th Cir. 2016). ..................... 16, 17
Cowley v. West Valley City, supra, 2018 WL 1305709 ...........................................20
Doe v. Woodard, 912 F.3d 1278 (10th Cir. 2019), ....................................................2
Durham v. Guest, 2009-NMSC-007, 145 N.M. 694 ...............................................23
Estate of Lockett v. Fallin, 841 F.3d 1098 (10th Cir. 2016) ......................................2
Fleetwood Retail Corp. of N.M. v. LeDoux, 2007-NMSC-047, 142 N.M. 150. .....23
Franks v. Delaware, 438 U.S. 154, 98 S. Ct. 2674, 57 L. Ed. 2d 667 (1978); .......19
Gehl Group v. Koby, 63 F.3d 1528 (10th Cir. 1995), ....................................... 21, 22
Hague v. Comm. for Indus. Org., 307 U.S. 496, 59 S. Ct. 954,
83 L. Ed. 1423 (1939), ...............................................................................................9
Hartman v. Moore, 547 U.S. 250 (2006) .................................................................20
I.B. v. Woodard, 139 S. Ct. 2616, 204 L. Ed. 2d 265 (2019) ....................................2
Kaplan's Fruit and Produce Co. v. Superior Court (1979)
26 Cal.3d 60, 81, 162 Cal.Rptr. 745, 603 P.2d 1341 ...............................................10
Lozman, 585 U.S., at ––––, 138 S.Ct., at 1952–1953 ..............................................14

Appellate Case: 19-2201

92a
Document: 010110308991

Date Filed: 02/25/2020

Page: 5

Lusby v. T.G. & Y. Stores, 749 F.2d 1423 (10th Cir.1984 .......................................20
M. G. v. Young, 826 F.3d 1259 (10th Cir. 2016). .....................................................17
McCullen v. Coakley, 134 S. Ct. 2518, 189 L. Ed. 2d 502 (2014). ...........................8
McGarry v. Bd. Of Cty. Comm’rs for Cty. Of Lincoln, 294 F. Supp.3d 1170
(D.N.M. 2018). .....................................................................................................18
Meyer v. Grant, 486 U.S. 414, 108 S.Ct. 1886, 100 L.Ed.2d 425 (1988) ............... 8
Monell v. New York City Dep’t of Social Servs, 436 U.S. 658 (1978) ....................23
Nielander v. Bd. of Cnty Comm’rs, 582 F.3d 1155 (10th Cir. 2009) ........................7
Nieves v. Bartlett, 139 S. Ct. 1715, 204 L. Ed. 2d 1 (2019). ......................... 6, 13-15
Phelps v. Hamilton, 59 F.3d 1058 (10th Cir. 1995) ................................................21
Poole v. County of Otero, 271 F.3d 955 (10th Cir. 2001), ......................................20
Rakovich v. Wade, 850 F.2d 1180 (7th Cir. 1988)). ................................................22
Smith v. Plati, 258 F.3d 1167 (10th Cir. 2001)..........................................................7
State v. Haidle, 2012-NMSC-033, 285 P.3d 668 ....................................................19
State v. McCormack, 1984-NMCA-042, 101 N.M. 349, 682 P.2d 742 ..................10
U.S. Postal Service v. Greenburgh Civic Assns., 453 U.S. 114, 101 S.Ct. 2676,
69 L.Ed.2d 517 (1981). ............................................................................................10
United Farm Workers of America v. Superior Court (1976)
16 Cal.3d 499, 505, 128 Cal.Rptr. 209, 546 P.2d 713 .............................................10
United States v. Armstrong, 517 U.S. 456, 116 S.Ct. 1480,
134 L.Ed.2d 687 (1996).” ........................................................................................14
United States v. Lampley, 127 F.3d 1231 (10th Cir. 1997) .....................................21
United States v. P.H.E., Inc., 965 F.2d 848 (10th Cir. 1992) ..................................21

Appellate Case: 19-2201

93a
Document: 010110308991

Date Filed: 02/25/2020

Page: 6

United States v. Wall, 37 F.3d 1443 (10th Cir. 1994). ............................................21
Verlo v. Martinez, 820 F.3d 1113 (10th Cir. 2016). ................................................13
Wilkins v. De Rey 528 F.3d 790 (10th Cir. 2008) .....................................................16
Wilkins v. DeReyes, 528 F.3d 790 (10th Cir. 2008). ...............................................15
Wolford v. Lasater, 78 F.3d 484 (10th Cir. 1996) ...................................................21
Statutes
28 U.S.C. § 1331 ........................................................................................................1
28 U.S.C. §1343 ......................................................................................................... 1
42 USC §1983 ............................................................................................................2
NMSA 1978 § 30-14-1 ............................................................................................18

Other Authorities
Slaughter-House Cases, 16 Wall. page 79, 21 L.Ed. 394. .........................................9

Appellate Case: 19-2201

I.

94a
Document: 010110308991

Date Filed: 02/25/2020

Page: 7

STATEMENT OF PRIOR RELATED APPEALS
There are no prior related appeals.

II.

JURISDICTIONAL STATEMENT
The United States District Court for the District of New Mexico had subject

matter jurisdiction and personal jurisdiction of the underlying case pursuant to 28
U.S.C. §§ 1331 and 1343.
This Court has jurisdiction over the appeal per 28 U.S.C. § 1291. The District
Court entered its Memorandum Opinion and Order Granting in Part Truth or
Consequences Defendants’ Motion to Dismiss and Granting Defendant Daniel
Hick’s Motion to Dismiss on February 26, 2019 (Aplt App 078-096) and its
Memorandum Opinion and Order Granting Defendant’s Motion for Summary
Judgment on Plaintiff’s Second and Third Cause of Action on November 6, 2019,
with final judgment issued November 6, 2019. (Aplt App 111-125). Appellant timely
noticed his appeal on December 2, 2019.
III.

STATEMENT OF THE ISSUES

The District Court erred in granting qualified immunity to all Appellees and
those decisions conflict with the U.S. Supreme Court’s decision in Nieves v. Bartlett,
139 S. Ct. 1715, 204 L. Ed. 2d 1 (2019).

Appellate Case: 19-2201

IV.

95a
Document: 010110308991

Date Filed: 02/25/2020

Page: 8

STANDARD OF REVIEW

The Federal Court of Appeals for the 10th Circuit review de novo the grant of
a motion to dismiss under Rule 12(b)(6) due to qualified immunity. See Doe v.
Woodard, 912 F.3d 1278, 1288 (10th Cir. 2019), cert. denied sub nom. I.B. v.
Woodard, 139 S. Ct. 2616, 204 L. Ed. 2d 265 (2019) citing Estate of Lockett v.
Fallin, 841 F.3d 1098, 1106 (10th Cir. 2016).
V.

STATEMENT OF THE CASE
This is 42 USC §1983 litigation against the CEO of Spaceport America, a

New Mexico government agency, for the intentional and malicious deprivation of
the Plaintiff/Appellant’s 1st Amendment right to free speech and against City of
Truth or Consequences (“T or C”), its Chief of Police and a police officer for
retaliatory prosecution for the exercise of Plaintiff’s right to free speech.
In sum, Appellant filed a Complaint alleging (1) First Amendment
Retaliation; (2) Malicious Prosecution and Abuse of Process; and (3) supervisory
and Monell liability in the U.S. District Court for the District of New Mexico on July
5, 2018. T or C Defendant/Appellees moved for partial dismissal on qualified
immunity on August 2, 2018 and Defendant/Appellee Hicks moved for dismissal on
qualified immunity on August 28, 2018. After completion of briefing, the District
Court granted in part the T or C Appellees’ Motion and granted Appellee Hick’s

Appellate Case: 19-2201

96a
Document: 010110308991

Date Filed: 02/25/2020

Page: 9

Motion. T or C Appellees then moved to dismiss the remaining claims on qualified
immunity grounds which after the completion of briefing the District Court granted.
VI.

STATEMENT OF THE RELEVANT FACTS

Appellant Ron Fenn frequented a senior center at 301 S. Foch St., Truth or
Consequences, New Mexico. The senior center was converted to other uses, and was
eventually leased out to Spaceport America, a New Mexico public agency, for use
as a visitor center. Appellant publicly protested the conversion of the senior center.
On May 5, 2017, Captain Apodaca responded to a call by John Muenster, a
volunteer of Geronimo Trail Scenic Byway center (another tenant from a separate
part of the building from Spaceport America), about Mr. Fenn being on the property
in violation of trespass orders (there was no trespass order in place preventing Mr.
Fenn from occupying the public space of Spaceport America) as Mr. Fenn was
putting up posters on a counter inside the center. Captain Apodaca told Mr. Fenn
that he could “put up his propaganda and stay… but not to harass any visitors.” Mr.
Muenster was concerned that expensive items kept in the center could be damaged
or stolen. Ms. Rosemary Bleth (of Geronimo Trail Scenic Byway center) notified
the officer that she was interested in a criminal trespass order against Mr. Fenn to
prevent him from entering the location.
On May 11, 2017, Mr. Hicks, CEO of Spaceport America was contacted by
then Chief Alirez who encouraged him to request a trespass order from Chief Alirez

Appellate Case: 19-2201

97a
Document: 010110308991

Date Filed: 02/25/2020

Page: 10

based on prior incidents as a preventative measure, which Mr. Hicks agreed to
request. Chief Alirez drove 75 miles to the offices of Spaceport America for
Defendant Hicks’ signature that day. Chief Alirez then met with Mr. Fenn on May
12, 2017 to serve the trespass order. Mr. Fenn received it but refused to sign it.
On June 4, 2017, Larena Miller contacted the police department to report Mr.
Fenn inside 301 S. Foch St. Sgt. Baker responded and found Mr. Fenn inside the
“common use area of the building,” (Aplt App. 013, 024) in the area housing a
satellite library. Sgt. Baker and Chief Alirez told Plaintiff to leave, and Mr. Fenn
refused. Then Chief Alirez met with Plaintiff on June 13, 2017 in his office and
offered to hold the trespass citation in abeyance as long as Appellant Fenn had no
further violations at 301 S. Foch St. (Aplt App 024).
On June 18, 2017, Officer Ontiveros was dispatched to another trespassing
call at 301 S. Foch St. Mr. Fenn was “within the common area of the areas he had
previously been trespassed from.” (Aplt App 024-025). Mr. Fenn said he was not
trespassing but was protesting. Both Officer Ontiveros and Chief Alirez ordered
Appellant to leave, and he refused. Chief Alirez then arrested Appellant and a
criminal complaint was filed against him for Criminal Trespass pursuant to NMSA
§ 30-14-1(C). The criminal complaint was eventually dismissed nolle prosequi and
never refiled within the statute of limitations for the event. See Aplt App 009-015.

Appellate Case: 19-2201

98a
Document: 010110308991

Date Filed: 02/25/2020

Page: 11

VII. SUMMARY OF THE ARGUMENT
There was never probable cause (at no time did Mr. Fenn do anything other
than quietly and peacefully engage in lawful protest) for the T or C Appellees to seek
and obtain a trespass order, nor was there probable cause for Mr. Hicks to obtain a
trespass order. The actions of all Appellees amount to nothing more than the
manufacture of the probable cause that enabled them to deprive Mr. Fenn of his First
Amendment protected right to peaceably protest on the basis of the content of his
speech. Quite simply, the Appellees engaged in retaliation against Mr. Fenn because
they did not like what he had to say, and the Appellees are not entitled to qualified
immunity for that retaliation.
VIII. ARGUMENT
At the heart of the error by the District Court in this case is the important
aspect that no conduct by Appellant initiated or ever justified the actions that all
Appellees took against him. Which is to say that Mr. Fenn engaged in peaceful
protest and there was no reason for the Police Chief and his Captain to seek out and
obtain from Mr. Hicks a trespass order, nor was there any reason for Mr. Hicks to
obtain a trespass order barring the free exercise of protected speech in a peaceful
manner in the public space under Mr. Hicks control. Instead, the only evidence
before the District Court was that of retaliatory animus regarding the content of Mr.
Fenn’s protected speech, which is the only reason that the retaliatory actions,

Appellate Case: 19-2201

99a
Document: 010110308991

Date Filed: 02/25/2020

Page: 12

including the manufacturing of probable case for the malicious arrest and
prosecution, occurred. Thus, the District Court’s insistence that the Appellees were
all entitled to qualified immunity ignores the reality of the retaliatory actions based
upon an animus towards the content of Mr. Fenn’s speech which is a clearly
established violation of Mr. Fenn’s constitutional rights. This premise was clarified
after the District Court’s first decision and before the second decision in Nieves v.
Bartlett, 139 S. Ct. 1715, 204 L. Ed. 2d 1 (2019) with which the District Court
decisions strongly conflict. Importantly, the U.S. Supreme Court’s decision in that
case in evaluating actions similar to those at issue in this case state that for retaliatory
prosecution claims holds,
“proving the link between the defendant's retaliatory animus and the
plaintiff's injury ... ‘is usually more complex than it is in other
retaliation cases.’” ...Unlike most retaliation cases, in retaliatory
prosecution cases the official with the malicious motive does not carry
out the retaliatory action himself—the decision to bring charges is
instead made by a prosecutor, who is generally immune from suit and
whose decisions receive a presumption of regularity.... Thus, even
when an officer's animus is clear, it does not necessarily show that the
officer “induced the action of a prosecutor who would not have pressed
charges otherwise.” ...
To account for this “problem of causation” in retaliatory prosecution
claims, Hartman adopted the requirement that plaintiffs plead and
prove the absence of probable cause for the underlying criminal charge.
Id.at 1723 (quoting Hartman, 547 U.S. at 261-63, 126 S.Ct. 1695).
A. The District Court Erred in Affording Dan Hicks Qualified Immunity
Regarding Mr. Hicks, Mr. Fenn alleged and the District Court refused to

Appellate Case: 19-2201

100a
Document: 010110308991

Date Filed: 02/25/2020

Page: 13

recognize that discrimination against the free exercise of protected speech by Mr.
Hicks, based solely on the content of Mr. Fenn’s speech as reported by Chief Alirez
and Captain Apodaca, clearly violated Mr. Fenn’s clearly established right protected
by the First Amendment to peaceably assemble in a public place and engage in
protected speech. The District Court concluded that Mr. Hicks was entitled to
qualified immunity from suit in his individual capacity. However, the actions alleged
in ¶ 33 and 35 of Appellant’s Complaint (Aplt App 012-013) support his personal
and specific involvement in discriminatory and retaliatory conduct directed at Mr.
Fenn. Mr. Hicks took the specific action to request a trespass order against Mr. Fenn
when he was invited to do so, in collusion with Chief Alirez, who drove 75 miles to
obtain Mr. Hicks signature on the trespass order request.
1. Hicks Violated Plaintiff’s First Amendment Rights.
Mr. Fenn correctly pointed out to the District Court that to prove a claim of
retaliation for the exercise of his First Amendment rights, he must prove the
following: (1) he was engaged in constitutionally protected activity; (2) that Hicks’
actions caused Mr. Fenn to suffer an injury that would chill a person of ordinary
firmness from continuing to engage in that activity; and (3) Hicks’ adverse action
was substantially motivated as a response to Mr. Fenn’s exercise of constitutionally
protected conduct. Nielander v. Bd. of Cnty Comm’rs, 582 F.3d 1155, 1165 (10th
Cir. 2009); Smith v. Plati, 258 F.3d 1167, 1176-77 (10th Cir. 2001).

Appellate Case: 19-2201

101a
Document: 010110308991

Date Filed: 02/25/2020

Page: 14

There is no doubt that Mr. Fenn was engaged in a constitutionally protected
activity while present at the public visitor’s center to discuss his concerns and protest
the elimination of the senior center and lease of the center to Mr. Hicks’ entity. This
same protected right has been well established and revisited as recently as 2014.
Meyer v. Grant, 486 U.S. 414, 424, 108 S.Ct. 1886, 100 L.Ed.2d 425 (1988)(in the
context of petition campaigns, “one-on-one communication” is “the most effective,
fundamental, and perhaps economical avenue of political discourse.”); McCullen v.
Coakley, 134 S. Ct. 2518, 2536, 189 L. Ed. 2d 502 (2014).
As to the second prong, “that Hicks’ actions caused Mr. Fenn to suffer an
injury that would chill a person of ordinary firmness from continuing to engage in
that activity,” Mr. Hicks’ sole argument was accepted by the District Court, i.e. that
Mr. Fenn was not injured because he could “voice his concerns at other venues.”
The assertion was fundamentally flawed, as seen from the discussion supra., that a
person’s right to protest at public locations is protected and curtailment is limited.
There is no question that Mr. Hicks’ action (to obtain a trespass order for no other
reason than the content of Mr. Fenn’s speech) did chill Mr. Fenn, a person of above
ordinary firmness, because Mr. Hicks’ action in conjunction with other Appellees
did exactly what each intended, to stop Mr. Fenn from seeking redress at the very
location that had been impacted by the City’s actions.
Importantly, Mr. Fenn was falsely arrested for trespass, based solely on a

Appellate Case: 19-2201

102a
Document: 010110308991

Date Filed: 02/25/2020

Page: 15

trespass order derived from representations to Mr. Hicks’ that Mr. Fenn was
“disruptive.” Yet, the only suggested disruptiveness was the content of Mr. Fenn’s
speech and seeking redress at the former senior center/vis a vis Spaceport visitor
center. There was no report of vulgar speech, nor report of abusive or hostile speech.
Simply put, but for Mr. Fenn speaking out against the visitor center/senior center
closure he would not have been removed or “trespassed” from the open public
location, accessible by all citizens and invitees and visitors, inclusive of a public
library.
This action by Mr. Hicks was motivated as a response to Mr. Fenn’s exercise
of constitutionally protected conduct, his protest in a public place regarding the use
of portions of 301 S. Foch St. for commercial purposes. These averments were
evident from the complaint and included exhibits and the District Court plainly erred
in determining otherwise.
2. Appellant had a Right to Protest at the Visitor Center.
“‘The right to peaceably assemble and petition for redress of grievance . . .
are rights of the citizen guaranteed by the Federal Constitution.’” Hague v. Comm.
for Indus. Org., 307 U.S. 496, 513, 59 S. Ct. 954, 963, 83 L. Ed. 1423 (1939), citing
to the Slaughter-House Cases, 16 Wall. page 79, 21 L.Ed. 394. In assessing a
restriction on the right to assemble, the Supreme Court has queried whether the place
of assembly is or is not a traditional public forum. Adderley v. Florida; Greer v.

Appellate Case: 19-2201

103a
Document: 010110308991

Date Filed: 02/25/2020

Page: 16

Spock, 424 U.S. 828, 96 S.Ct. 1211, 47 L.Ed.2d 505 (1976); U.S. Postal Service v.
Greenburgh Civic Assns., 453 U.S. 114, 101 S.Ct. 2676, 69 L.Ed.2d 517 (1981). To
answer that question, the Courts have asked whether the character of the place is
appropriate for the expression of views and ideas generally. State v. McCormack,
1984-NMCA-042, ¶¶ 17-18, 101 N.M. 349, 352, 682 P.2d 742, 745. Not a relevant
inquiry is whether the location is appropriate to the demonstration.
Invariably, the First Amendment provides and protects the rights of United
States citizens to peacefully assemble and seek redress from their government
representatives – regardless of whether those representatives like or desire to hear
such complaints. Long have the Courts been required to preserve the “presumptively
protected status of peaceful picketing activities...” in the face of overreaching to
curtail this well-established right. See Agric. Labor Relations Bd. v. California
Coastal Farms, Inc., 31 Cal. 3d 469, 481–82, 645 P.2d 739, 745–46 (1982); Kaplan's
Fruit and Produce Co. v. Superior Court (1979) 26 Cal.3d 60, 81, 162 Cal.Rptr. 745,
603 P.2d 1341; United Farm Workers of America v. Superior Court (1976) 16 Cal.3d
499, 505, 128 Cal.Rptr. 209, 546 P.2d 713.) Thus, courts must be “cautious in
entertaining actions to enjoin or restrain [peaceful picketing activities]’ (United
Farm Workers of America v. Superior Court, supra, 16 Cal.3d 499, 505, 128
Cal.Rptr. 209, 546 P.2d 713) and any action by a government official preventing or
impacting the right to peaceably assemble must “‘be couched in the narrowest terms

Appellate Case: 19-2201

104a
Document: 010110308991

Date Filed: 02/25/2020

Page: 17

that will accomplish the pin-pointed objective permitted by constitutional mandate
and the essential needs of the public order’ (id., at p. 504, 128 Cal.Rptr. 209, 546
P.2d 713).” Any judicially imposed restraints must be tailored with caution, reserved
for cases in which the threat of harm is clear. See United Farm Workers of America
v. Superior Court, supra, 16 Cal.3d 499, 506, 128 Cal.Rptr. 209, 546 P.2d 713;
Kaplan's Fruit and Produce Co. v. Superior Court, supra, 26 Cal.3d at p. 81, 162
Cal.Rptr. 745, 603 P.2d 1341.)
The question the District Court erred in answering is whether Mr. Fenn, a
citizen, had the right to petition and enjoyed freedom of speech at the public visitor
location that he selected and which all other citizens were invited to attend. The
Spaceport America visitor center was a public location at which every citizen as well
as international visitors, were invited to enter during its open hours. Mr. Fenn
enjoyed the same rights to enter the visitor center as did other citizens and visitors,
as long as his actions were peaceful. Mr. Hicks took specific action to impair Mr.
Fenn’s right to peacefully assembly, to air his grievances and to seek redress when
Mr. Hicks obtained a “trespass order”/restraining order to prevent Mr. Fenn’s access
to the public location with the express intent and purpose of quashing Mr. Fenn’s
speech. Mr. Hicks never denied his intent was to stop Mr. Fenn from speaking out
against Spaceport America’s use of the former senior center. Nor did Mr. Hicks deny
that he worked with Appellees Alirez and Apodaca to restrain Mr. Fenn from access

Appellate Case: 19-2201

105a
Document: 010110308991

Date Filed: 02/25/2020

Page: 18

to the public visitor center and cease Mr. Fenn’s speech by issuance of a trespass
order. While “exclusion” from a public location may – in certain instances – be
“lawful” as the District Court accepted, such curtailment of rights to speech and to
seek redress are not lawful simply because a public official personally desires to
exclude access. Such exclusion is not lawful when the intent and purpose of the actor
is to prevent speech, and then perfected outside of the careful judicial considerations
required before curtailing First Amendment rights. (Aplt App 075).
The Supreme Court has reaffirmed that pamphleteering and one-on-one
communications are First–Amendment–protected activities. See McCullen, 134
S.Ct. at 2536. In McCullen, the Court “observed that one-on-one communication is
the most effective, fundamental, and perhaps economical avenue of political
discourse” and that “no form of speech is entitled to greater constitutional
protection” than leafletting. Id. (internal quotation marks and alteration omitted).
The Court went on to state that when a governmental actor “makes it more difficult
to engage in these modes of communication, it imposes an especially significant
First Amendment burden.” Id. Plaintiff’s communications here are thus protected
by the First Amendment.
Nor did Mr. Hicks argue to the District Court or provide any facts to support
or legitimately assert that the location from which he sought to restrict Mr. Fenn,
was not a public location. Instead, the District Court accepted the suggestion that a

Appellate Case: 19-2201

106a
Document: 010110308991

Date Filed: 02/25/2020

Page: 19

person can be “excluded” from a location. While that may be the case, such
exclusion must be considered in the constitutional context, when it is sought at a
public location:
Turning now to the constitutional restrictions on speech, our analysis is guided
by Plaintiffs' wish to engage in First Amendment-protected activity on
government property. “Nothing in the Constitution requires the Government
freely to grant access to all who wish to exercise their right to free speech on
every type of Government property without regard to the nature of the
property or to the disruption that might be caused by the speaker's activities.”
Cornelius, 473 U.S. at 799–800, 105 S.Ct. 3439. But in some instances, the
public may have acquired by tradition or prior permission the right to use
government property for expressive purposes. See id. at 802, 105 S.Ct. 3439.
To determine when and to what extent the Government may properly limit
expressive activity on its property, the Supreme Court has adopted a range of
constitutional protections that varies depending on the nature of the
government property, or forum. Id. at 800, 105 S.Ct. 3439.
Verlo v. Martinez, 820 F.3d 1113, 1128–29 (10th Cir. 2016). Thus, applying Nieves,
this Court should find Mr. Hicks’ animus was clear and necessarily shows that the
actions of Mr. Hicks induced the actions of Chief Alirez and Captain Apodaca who
but for the signing of the trespass order could not have pressed charges for trespass
against Mr. Fenn.
B. T or C Appellees are Not Entitled to Qualified Immunity For Either
Retaliatory Arrest or Malicious Prosecution.
1. The Actions of Chief Alirez and Captain Apodaca to “Press
Charges” by Seeking Out and Inducing Mr. Hicks to Obtain a
Trespass Order Against Mr. Fenn when there was No Probable
Cause that a Crime was Being Committed was Objectively
Unreasonable and Therefore Conflicts with the Supreme Court’s
Decision in Nieves Regarding Retaliatory Arrest.

Appellate Case: 19-2201

107a
Document: 010110308991

Date Filed: 02/25/2020

Page: 20

Regardless of whether the District Court reviewed the actions of T or C
Appellees as a false arrest or a malicious prosecution under Nieves the decision they
should not have been to afford qualified immunity with regard to retaliatory arrest
based upon probable cause. In reviewing the lack of probable cause requirement for
retaliatory arrest the Nieves Court examined both malicious prosecutions and false
arrest context to conclude that the “no-probable-cause requirement should not apply
when a plaintiff presents objective evidence that he was arrested when otherwise
similarly situated individuals not engaged in the same sort of protected speech had
not been. United States v. Armstrong, 517 U.S. 456, 465, 116 S.Ct. 1480, 134
L.Ed.2d 687 (1996).” Nieves v. Bartlett, 139 S. Ct. 1715, 1727, 204 L. Ed. 2d 1
(2019). Thus, when the record clearly indicates that there was no other evidence that
a crime was being committed and that the officers were responding purely to the
content and location of Mr. Fenn’s speech to press charges, arrest Mr. Fenn and
prosecute Mr. Fenn, that objectively but for the officer’s animus towards the
protected activities of Mr. Fenn he would not have been persecuted. And having
sufficiently demonstrated the same to the District Court as he did, Mr. Fenn’s claims
for retaliatory prosecution should have been allowed to “proceed in the same manner
as claims where the plaintiff has met the threshold showing of the absence of
probable cause. See Lozman, 585 U.S., at ––––, 138 S.Ct., at 1952–1953.” Nieves at
1727. Thus, it is beyond argument that the retaliatory arrest of Mr. Fenn falls well

Appellate Case: 19-2201

108a
Document: 010110308991

Date Filed: 02/25/2020

Page: 21

outside of the realm for which Chief Alirez and Captain Apodaca enjoyed qualified
immunity. The Nieves Court’s application of Hartman serves to highlight that
violation of Mr. Fenn’s constitutional rights through retaliatory arrest based solely
upon the location and content of his peaceful protest was clearly established at the
time of injury as a retaliatory arrest.
2. The District Court’s Decision Regarding the Prosecution of Mr.
Fenn is Inconsistent with the Jurisprudence from the U.S. Supreme
Court and the 10th Circuit.
Likewise, rightfully putting aside the analysis of whether or not the ensuing
prosecution of Mr. Fenn was initiated with malice; the District Court erred in
determining that the prosecution did not terminate favorably. Of course, Fourth
Amendment malicious prosecution requires “(1) the defendant caused the plaintiff's
continued confinement or prosecution; (2) the original action terminated in favor of
the plaintiff; (3) no probable cause supported the original arrest, continued
confinement, or prosecution; (4) the defendant acted with malice; and (5) the
plaintiff sustained damages.” Wilkins v. DeReyes, 528 F.3d 790, 799 (10th Cir.
2008). The District Court, in evaluating favorable termination, should have
considered and accepted that entry of Appellant’s counsel into the criminal case and
the subsequent discussions of counsel resulting in the dismissal nolle prosequi,
coupled with the fact that the case was never refiled within the statute of limitations,

Appellate Case: 19-2201

109a
Document: 010110308991

Date Filed: 02/25/2020

Page: 22

proved a favorable termination for Mr. Fenn. The Tenth Circuit’s guidance should
have confirmed such for the District Court where this Court stated:
[I]n Wilkins ... the prosecutor had dismissed the underlying charges by
filing a so-called nolle prosequi—a voluntary dismissal of charges....
We found the mere fact that a prosecutor had chosen to abandon a case
was insufficient to show favorable termination. Instead, the termination
must in some way “indicate the innocence of the accused.” ... (quoting
Restatement (Second) of Torts § 660 cmt. a (1977)). When it is unclear
whether the termination indicates innocence, we “look to the stated
reasons for the dismissal as well as to the circumstances surrounding
it” and determine “whether the failure to proceed implies a lack of
reasonable grounds for the prosecution.” ... Or, as a leading treatise put
it, the abandonment of prosecution that “does not touch the merits ...
leaves the accused without a favorable termination.” Dan B. Dobbs et
al., Dobb's Law of Torts § 590 (2d ed. 2015).
Cordova v. City of Albuquerque, 816 F.3d 645, 651 (10th Cir. 2016) (emphasis
added).
Importantly, as noted above, the actions of Appellees to manufacture
probable cause, out of retaliation for the content of Mr. Fenn’s protected speech, is
fatal to the conclusion the District Court reached in analyzing malicious prosecution.
Perhaps more importantly, with regard to malicious prosecution’s second element,1
the fact that litigation terminated by the admission that there was “insufficient
evidence to proceed” by the District Attorney’s Office, after Mr. Fenn pointed out
the same in his pro se Motions to Dismiss (which though denied resulted in the
District Attorney dismissing the case nolle prosequi for the same reasons) that the

1

See Wilkins v. De Rey 528 F.3d 790,799(10th Cir. 2008)

Appellate Case: 19-2201

110a
Document: 010110308991

Date Filed: 02/25/2020

Page: 23

element of intent could not be met to convict a person of trespass that entered into a
public place upon the reasonable belief that their First Amendment right to engage
in protected speech to peaceably protest gave them the right to be in an open public
forum. Thus, a recognition that there was insufficient evidence to prosecute is
exactly the type of favorable termination that Mr. Fenn sought pro se in the criminal
proceeding.
Two other critical facts largely ignored by the District Court support the
notion that Mr. Fenn’s criminal prosecution terminated favorably. The first is the
fact that following Plaintiff’s retention of counsel, along with that counsel’s entry
into the case to discuss and point out to the District Attorney’s Office the lack of
merit to the criminal prosecution, the District Attorney’s Office abandoned their
prosecution. Further, while the abandonment of prosecution was without prejudice,
it was never refiled before the statute of limitations ran. All of these add support to
the notion that Mr. Fenn has met his “burden to show that the termination was
favorable.” Cordova v. City of Albuquerque, 816 F.3d 645, 630 (10th Cir. 2016). The
admission of the District Attorney to recognize that with a complete factual record
before them they lack sufficient evidence to prosecute such that a jury could easily
determine that proceeding terminated “for reasons indicative of innocence” is a
termination favorable to Plaintiff. See M. G. v. Young, 826 F.3d 1259, 1263 (10th Cir.
2016).

Appellate Case: 19-2201

111a
Document: 010110308991

Date Filed: 02/25/2020

Page: 24

Thus, the remaining inquiry not reached by the District Court is whether or
not the third element of determining “probable cause…during the institution of legal
process” was fact specific and critical for the District Court to have evaluated in
examining the claim of malicious prosecution. McGarry v. Bd. Of Cty. Comm’rs for
Cty. Of Lincoln, 294 F. Supp.3d 1170, 1194 (D.N.M. 2018). At the time prosecution
was initiated the Appellees clearly knew they lacked an essential element of probable
cause to support prosecution, namely, that Mr. Fenn had “enter[ed] or remain[ed] on
the lands of another knowing that such consent to enter or remain is denied.” NMSA
1978 § 30-14-1. What the District Court ignored was that that the Appellees were
lacking in the elements necessary to establish probable cause at the time that they
sought a trespass order as evidenced by the fact that Appellees had to contact the
current tenant and travel to Las Cruces to obtain a new trespass order for Spaceport
America’s Visitor Center, as the current tenant had never complained of Mr. Fenn’s
presence in their leased, open-to-the-public space, much less requested that Mr. Fenn
be trespassed from Spaceport America Visitor’s Center. A previous tenant,
ostensibly still in violation of Mr. Fenn’s First Amendment rights, Follow the Sun
Tours, had requested that Mr. Fenn no longer be allowed to peacefully protest against
their government action, but they were no longer the tenants at the time Mr. Fenn
resumed his exercise of protected speech to peacefully protest the use of a
government public space for the government agency Spaceport America Visitor’s

Appellate Case: 19-2201

112a
Document: 010110308991

Date Filed: 02/25/2020

Page: 25

Center. Appellee admitted to the District Court that the critical element of knowingly
entering and remaining at a place where consent was revoked was notably not
present at the time that they commenced their malicious prosecution and retaliatory
prosecution such that they had to proactively seek out and persuade the current tenant
to revoke consent so that they could claim probable cause. This was the equivalent
of filing a deficient affidavit to obtain a warrant for arrest or seizure. Under the great
weight of federal jurisprudence and New Mexico substantive law that warrant must
be tossed out as lacking probable cause just as this arrest must be held to have lacked
probable cause. See Franks v. Delaware, 438 U.S. 154, 156, 98 S. Ct. 2674, 2676,
57 L. Ed. 2d 667 (1978); see also State v. Haidle, 2012-NMSC-033, ¶ 12, 285 P.3d
668, 672. Obtaining a trespass order from a current tenant that had not complained
of Mr. Fenn’s conduct of protected speech during the act of peaceful protest is the
functional equivalent to obtaining an arrest warrant based upon the fabrication of
facts that support that a crime had been committed.
As to retaliatory prosecution, Mr. Fenn presented to the District Court what
the elements of a retaliatory prosecution or vindictive prosecution are, but the
District Court misapplied the facts to the law: first, the undisputed material facts
establish Mr. Fenn was clearly engaged in protected speech to criticize his
government during peaceful protest which is unquestionably a constitutionally
protected activity especially in light of the fact that at the time of the initiation of the

Appellate Case: 19-2201

113a
Document: 010110308991

Date Filed: 02/25/2020

Page: 26

prosecution there was no trespass order (valid or not) in place; second, it is beyond
question that Mr. Fenn’s arrest and prosecution for engaging in peaceful protest
would chill a person of ordinary firmness from continuing to engage in that activity;
and third, that Appellee’s actions were undeniably motivated solely as a response to
the First Amendment speech rights of Mr. Fenn that are only discernably different
from any other person based upon the content of his speech as being critical of the
government that employed those officers. See Becker v. Kroll, 494 F.3d 904, 925
(10th Cir. 2007).
Thus, retaliatory prosecutions such as this one that also display a lack of
probable cause, see Hartman v. Moore, 547 U.S. 250, 262 (2006); see also Cowley
v. West Valley City, supra, 2018 WL 1305709 at *8 & n.12, are appropriately viewed
through the lens of the 10th Circuit’s decisions on vindictive prosecutions that “if
the misuse of the legal procedure is egregious there may be a deprivation of
constitutional dimensions for which a plaintiff can invoke § 1983.” Lusby v. T.G. &
Y. Stores, 749 F.2d 1423, 1431 (10th Cir.1984), cert. denied, 474 U.S. 818, 106 S.Ct.
65, 88 L.Ed.2d 53 (1985). Such view was reiterated in Anthony v. Baker, 767 F.2d
657, 662–63 (10th Cir.1985). The 10th Circuit has also provided helpful guidance
of Poole v. County of Otero, 271 F.3d 955 (10th Cir. 2001), in evaluating a claim for
violation of a First Amendment right thru vindictive prosecution, stating:
[a] claim for vindictive prosecution ordinarily arises when, during
the course of criminal proceedings, a Plaintiff exercises

Appellate Case: 19-2201

114a
Document: 010110308991

Date Filed: 02/25/2020

Page: 27

constitutional or statutory rights and the government seeks to punish
him therefor by instituting additional or more severe charges, see,
e.g., United States v. Wall, 37 F.3d 1443, 1448 (10th Cir. 1994). In
this context, such a claim is governed by a two-part test, see United
States v. Lampley, 127 F.3d 1231, 1245 (10th Cir. 1997).
Nonetheless, we recognize that this court has not limited the term to
the criminal prosecution setting, but has characterized First
Amendment claims similar to Mr. Poole's as “vindictive
prosecution.” See Wolford v. Lasater, 78 F.3d 484, 488 (10th Cir.
1996) (comparing a First Amendment claim to a “vindictive
prosecution action”); Gehl Group, 63 F.3d at 1534 (stating that a
First Amendment claim alleging retaliatory prosecution “is
essentially one of vindictive prosecution”); United States v. P.H.E.,
Inc., 965 F.2d 848, 853 (10th Cir. 1992) (discussing vindictive
prosecution claim in terms of prosecution motivated by “the
improper purpose of interfering with the Appellee's constitutionally
protected speech”); cf. Phelps v. Hamilton, 59 F.3d 1058, 1065 n.12
(10th Cir. 1995) (stating that prosecution brought for the purpose of
hindering an exercise of constitutional rights may constitute
“harassing and/or bad faith prosecution”).”
Poole v. County of Otero, 271 F.3d 955, fn. 5 (10th Cir. 2001) (emphasis added).
In Wolford, the Tenth Circuit examined whether a plaintiff’s constitutional
rights were violated by the government’s prosecution of her, where she alleged the
government’s action was motivated in part to retaliate against her for exercising her
First Amendment rights. In that case the 10th Circuit commented that “[i]n the
context of a government prosecution, the decision to prosecute which is motivated
by a desire to discourage protected speech or expression violates the First
Amendment and is actionable under § 1983.” Wolford v. Lasater, 78 F.3d 484, 488
(10th Cir. 1996). The Court reasoned that a central question to be addressed in such
an action was “whether retaliation for the exercise of First Amendment rights was

Appellate Case: 19-2201

115a
Document: 010110308991

Date Filed: 02/25/2020

Page: 28

the ‘cause’ of the prosecution and the accompanying injuries to plaintiff.” Id.; citing
Rakovich v. Wade, 850 F.2d 1180, 1189 (7th Cir. 1988)). Likewise, in Gehl Group
v. Koby, 63 F.3d 1528 (10th Cir. 1995), a controversy the 10th Circuit characterized
as a vindictive prosecution case brought in retaliation against the plaintiffs’ exercise
of their First Amendment rights, 63 F.3d at 1534, the Tenth Circuit noted that “the
ultimate inquiry is whether as a practical matter there is a realistic or reasonable
likelihood of prosecutorial conduct that would not have occurred but for the hostility
or punitive animus towards the Appellee because he exercised his specific legal
rights.” Id. at n.6 (emphasis added) The Court framed the § 1983 claim for First
Amendment rights violations under the tort of “vindictive prosecution.” Id. “These
cases make clear that a governmental lawsuit brought with the intent to retaliate
against a citizen for the exercise of his First Amendment rights is of itself a separate
violation that provides grounds for a § 1983 suit.” Beedle v. Wilson, Ibid. at 1066.
Thus, when the District Court should have appropriately found that when
Appellees initiated their prosecution, by seeking out a trespass order to manufacture
probable cause for the arrest and continued prosecution of Mr. Fenn, that they lacked
probable cause, then the District Court should have found that Mr. Fenn could
sustain a Section 1983 claim for both a malicious prosecution and a vindictive
prosecution claim.

Appellate Case: 19-2201

116a
Document: 010110308991

Date Filed: 02/25/2020

Page: 29

C. Without a Determination that Appellees are Entitled to Qualified
Immunity the District Court’s Decision Regarding the Monell claims
is in Error.
The District Court’s determined that qualified immunity is determinative of
Mr. Fenn’s Monell claims, at least initially. Thus, without belaboring the analysis
contained in the District Court’s decision, Mr. Fenn offers that if the Appellee lacked
probable cause to initiate the prosecution that they undertook at the onset; then the
District Court’s decision must fail with regard to both Monell claims and the state
law claim for Malicious Abuse of Process. See Monell v. New York City Dep’t of
Social Servs, 436 U.S. 658, 694 (1978); see also Durham v. Guest, 2009-NMSC007, ¶ 29, 145 N.M. 694; see also Fleetwood Retail Corp. of N.M. v. LeDoux, 2007NMSC-047, ¶ 12, 142 N.M. 150.
IX.

CONCLUSION

The Court should reverse the decisions of the District Court.
X.

ORAL ARGUMENT STATEMENT
Pursuant to 10th Cir. L. R. 28.2(C)(f), Appellants request oral argument in

this matter. Such argument is necessary because the issues involve important
questions of law. Appellants respectfully suggest that the Court may benefit from
the interactive conversation that oral argument would provide on these issues.
Respectfully submitted this 25th day of February 2020.

Appellate Case: 19-2201

117a
Document: 010110308991

Date Filed: 02/25/2020

Page: 30

WESTERN AGRICULTURE, RESOURCE
AND BUSINESS ADVOCATES, LLP
/s/ A. Blair Dunn
A. Blair Dunn, Esq.
400 Gold Ave SW, Suite 1000
Albuquerque, NM 87102
(505) 750-3060
abdunn@ablairdunn-esq.com

CERTIFICATE OF COMPLAINCE
Undersigned counsel certifies that Appellants’ Opening Brief complies with
the type-volume limitation of Fed. R. App. P. 32(a)(7)(B) because it contains 5,900
words, excluding the parts of the brief exempted by Fed. R. App. P. 32 (a)(7)(B)
(iii). This opening brief complies with the typeface requirements of Fed. R. App. P.
32(a)(5) and the type style requirements of Fed. R. App. P. 32(a)(6) because the brief
has been prepared in a proportionally spaced typeface using Microsoft Office Word
2010 in 14-point Times New Roman.

Appellate Case: 19-2201

118a
Document: 010110308991

Date Filed: 02/25/2020

Page: 31

CERTIFICATE OF SERVICE
I hereby certify that I electronically filed the foregoing via the appellate
CM/ECF system on February 25th, 2020 causing all parties of record to be served
electronically.
/s/ A. Blair Dunn
A. Blair Dunn, Esq.

CERTIFICATE OF DIGITAL SUBMISSION
Pursuant to the Tenth Circuit ECF User’s Manual, Section II.J, I hereby certify,
with respect to the foregoing document, that:
1) All required privacy redactions have been made per 10th Cir. R. 25.5
2) Required hard copies will be filed with the court upon acceptance; and
3) The digital submission has been scanned for viruses with the most recent
version of Avast Premier version 11.1.2245 and, according to this program, is free
of viruses.
/s/ A. Blair Dunn
A. Blair Dunn, Esq.

Appellate Case: 19-2201

119a
Document: 010110463373

Date Filed: 01/11/2021

Page: 1

IN THE UNITED STATES COURT OF APPEALS
FOR THE TENTH CIRCUIT

No. 19-2201

RON FENN
Plaintiff-Appellant
v.
CITY OF TRUTH OR CONSEQUENCES, MICHAEL APODACA, POLICE
CHIEF LEE ALIREZ, and DANIEL HICKS
Defendants-Appellees

On Appeal from the United States District Court
For the District of New Mexico (Hon. William P. Johnson)
District Case No. 2:18-cv-00634

PETITION FOR PANEL REHEARING

WESTERN AGRICULTURE, RESOURCE
AND BUSINESS ADVOCATES, LLP
A. Blair Dunn, Esq.
400 Gold Ave. SW, Suite 1000
Albuquerque, NM 87102
(505) 750-3060
abdunn@ablairdunn-esq.com
Oral Argument Requested

Appellate Case: 19-2201

120a
Document: 010110463373

Date Filed: 01/11/2021

Page: 2

TABLE OF CONTENTS
Table of Authorities ................................................................................................ iv
STATEMENT OF THE ISSUES............................................................................. 1
SUMMARY OF THE ARGUMENT ...................................................................... 1
ARGUMENT ........................................................................................................... 2
A. The Panel Incorrectly Construed Facts to Engage in Independently
Determining Ultimate Facts Contrary to the Clear Precedent of the
United States Supreme Court ........................................................................ 2
B. Review of the Case is Vital to Maintaining the Consistency of
Dismissal Decisions Among District Courts in the Circuit ........................... 4
CONCLUSION ........................................................................................................ 5
CERTIFICATE OF COMPLIANCE ....................................................................... 6
CERTIFICATE OF DIGITAL SUBMISSION ....................................................... 6
CERTIFICATE OF SERVICE ................................................................................ 6

Appellate Case: 19-2201

121a
Document: 010110463373

Date Filed: 01/11/2021

Page: 3

TABLE OF AUTHORITIES
Cases
DeMarco v. United States,
415 U.S. 449, 94 S.Ct. 1185, 1186, 39 L.Ed.2d 501 (1974). .....................................2
Jenkins v. McKeithen,
395 U.S. 411, 89 S.Ct. 1843, 23 L.Ed.2d 404 (1969). ...............................................4
Kelley v. Southern Pacific Co.,
419 U.S. 318, 95 S.Ct. 472, 42 L.Ed.2d 498 (1974 ...................................................2
Pullman-Standard v. Swint,
456 U.S. 273, 102 S. Ct. 1781, 72 L. Ed. 2d 66 (1982). ............................................3

Appellate Case: 19-2201

I.

122a
Document: 010110463373

Date Filed: 01/11/2021

Page: 4

STATEMENT OF THE ISSUES
The Panel erred in affirming the district court’s decision which relied on

construing facts against the Appellant and in construing additional facts to
incorrectly determine that Appellees were entitled to qualified immunity.
II.

SUMMARY OF THE ARGUMENT
Few things are as basic and fundamental to our system of justice as the notion

that we are innocent until proven guilty. Such an important precept comes into play
in a civil case such as this when the district court, and then this Court, construe or
fabricate facts to convict Appellant of being “obnoxious” or determine without any
factual development that Appellant was not peacefully protesting in a traditional
forum. This panel has erred greatly in construing facts in an effort to protect the
government from liability for trampling Mr. Fenn’s rights, in order to use qualified
immunity as a force to close the courthouse door to cases pursuing civil rights justice.
It is hard to fathom that in America that a senior citizen, that is quietly and nonaggressively pamphlet-ing and protesting in an open public space that in no way
impeded access to the building, could be trespassed with zero due process merely
because the government found through a third-party that the content of his speech
“obnoxious.” Then to further tear open a wound in the heart of liberty enshrined in
the First Amendment, this Court and the lower court would protect such trampling
of liberty by upholding that it is then probable cause to arrest and jail a senior citizen

Appellate Case: 19-2201

123a
Document: 010110463373

Date Filed: 01/11/2021

Page: 5

exercising his rights. Such actions by any branch of the government must be
recognized as contributing to the decay of civility and the loss of faith in our
government that leads to events such as the insurrection of January 6, 2021 in our
sacred halls of freedom.
III.

ARGUMENT

A. The Panel Incorrectly Construed Facts to Engage in Independently
Determining Ultimate Facts Contrary to the Clear Precedent of the
United States Supreme Court.
The Supreme Court has been abundantly clear for a long time that “factfinding is
the basic responsibility of district courts, rather than appellate courts, and ... the
Court of Appeals should not have resolved in the first instance this factual dispute
which had not been considered by the District Court.” DeMarco v. United States,
415 U.S. 449, 450, n., 94 S.Ct. 1185, 1186, n., 39 L.Ed.2d 501 (1974). Moreover,
where there is more than one way to construe ultimate facts, as is the case here
regarding Mr. Fenn’s conduct, or whether or not the public space was traditional
public fora, the Supreme Court has directed that a remand is the proper course unless
the record permits only one resolution of the factual issue. Kelley v. Southern Pacific
Co., 419 U.S. 318, 331–332, 95 S.Ct. 472, 479–480, 42 L.Ed.2d 498 (1974). Instead
here, contrary to the holdings of the Supreme Court, the Panel engaged not only in
affirming the mistake of the district court but took its own independent step to further
construe allegations or create factual support to construe conclusions that support a

Appellate Case: 19-2201

124a
Document: 010110463373

Date Filed: 01/11/2021

Page: 6

finding of qualified immunity. As the Supreme Court has stated:
Proceeding in this manner seems to us incredible unless the Court of
Appeals construed its own well-established Circuit rule with respect to
its authority to arrive at independent findings on ultimate facts free of
the strictures of Rule 52(a) also to permit it to examine the record and
make its own independent findings with respect to those issues on
which the district court's findings are set aside for an error of law.
Pullman-Standard v. Swint, 456 U.S. 273, 293, 102 S. Ct. 1781, 1792, 72 L. Ed. 2d
66 (1982). The Panel erred in construing the following facts:
1) Dan Hicks, the Spaceport Director, never complaint about Mr. Fenn,
instead police initiated a conversation with Mr. Hicks and encouraged
him to request a trespass based upon their opinion of Mr. Fenn’s speech
and conduct.
2) There is absolutely no factual support in the record that would allow the
lower court, much less this Panel on Appeal, to construe that there was
probable cause to trespass Mr. Fenn from the open auditorium spaces.
Moreover, unsubstantiated, unfounded allegations from building tenants
not in control of the portion of the building where Mr. Fenn was
peacefully protesting, of feeling unsafe that a senior citizen would
suddenly turn violent or begin damaging property when he did not
exhibit nor is even alleged to have engaged in words or actions that could
reasonably be indicative of imminent threat, cannot provide the support
this Court has used to shield the government with qualified immunity.

Appellate Case: 19-2201

125a
Document: 010110463373

Date Filed: 01/11/2021

Page: 7

3) There is no factual development that the support’s the Panel’s
determination that the auditorium, no longer used (for over 75 years) for
meetings and political assembly, currently housing a promotional exhibit
for a government agency, was not “traditional public fora.”
Thus, this Panel has created facts not contained in the record that never happened,
such as that Appellee Dan Hicks complained about Mr. Fenn and that the space
(previously an auditorium used for public meetings) was not a type of space where
a person would traditionally engage in protected speech or conduct such a petitioning
for redress. Such action by the Panel is incorrect and is a clear contradiction of the
Supreme Court’s direction. This Panel in so construing facts compounded its error
by affirming the district court’s decision construing facts concerning Mr. Fenn’s
behavior against Mr. Fenn. Both the trial and reviewing courts must accept as true
all material allegations of the complaint and must construe the complaint in favor of
the complaining party. E.g., Jenkins v. McKeithen, 395 U.S. 411, 421—422, 89 S.Ct.
1843, 1848—1849, 23 L.Ed.2d 404 (1969).
B. Review of the Case is Vital to Maintaining the Consistency of Dismissal
Decisions Among District Courts in the Circuit.
The trial court simply failed in its duty to correctly construe the allegations of
facts of the complaint in favor of the Appellant as proper in a 12(b)(6) analysis. The
Panel’s contrary conclusion to affirm the error of the district court and then to
compound the error by independently finding and construing additional facts without

Appellate Case: 19-2201

126a
Document: 010110463373

Date Filed: 01/11/2021

Page: 8

factual development before the lower court is a serious legal error of extraordinary
importance because it conflicts in several ways with the Court's precedents in these
important areas, and leaves the door open for the district courts to experience
confusion about the standard that governs district court determinations of disputed
facts under Rule 12(b)(6) motions to dismiss for qualified immunity where the facts
are not clearly established or developed. Justice requires especially in the context
of civil rights that a person not be convicted of conduct that would condone stripping
them of a fundamental liberty with some examination of the proof upon which such
a conviction rest.
IV.

CONCLUSION

For the foregoing reasons, Appellant respectfully asks the Court to grant its petition
for panel rehearing.
Respectfully submitted this 25th day of February 2020.
WESTERN AGRICULTURE, RESOURCE
AND BUSINESS ADVOCATES, LLP
/s/ A. Blair Dunn
A. Blair Dunn, Esq.
400 Gold Ave SW, Suite 1000
Albuquerque, NM 87102
(505) 750-3060
abdunn@ablairdunn-esq.com

Appellate Case: 19-2201

127a
Document: 010110463373

Date Filed: 01/11/2021

Page: 9

CERTIFICATE OF COMPLAINCE
Undersigned counsel certifies that Appellants’ Petition for Panel Rehearing
complies with the type-volume limitation of Fed. R. App. P. 32(a)(7)(B) because it
contains 1154 words, excluding the parts of the brief exempted by Fed. R. App. P.
32 (a)(7)(B) (iii). This Petition for Panel Rehearing complies with the typeface
requirements of Fed. R. App. P. 32(a)(5) and the type style requirements of Fed. R.
App. P. 32(a)(6) because the brief has been prepared in a proportionally spaced
typeface using Microsoft Office Word 2010 in 14-point Times New Roman.

CERTIFICATE OF SERVICE
I hereby certify that I electronically filed the foregoing via the appellate
CM/ECF system on January 11, 2020 causing all parties of record to be served
electronically.
/s/ A. Blair Dunn
A. Blair Dunn, Esq.

CERTIFICATE OF DIGITAL SUBMISSION
Pursuant to the Tenth Circuit ECF User’s Manual, Section II.J, I hereby certify,
with respect to the foregoing document, that:
1) All required privacy redactions have been made per 10th Cir. R. 25.5
2) Required hard copies will be filed with the court upon acceptance; and

Appellate Case: 19-2201

128a
Document: 010110463373

Date Filed: 01/11/2021

Page: 10

3) The digital submission has been scanned for viruses with the most recent
version of Avast Premier version 11.1.2245 and, according to this program, is free
of viruses.
/s/ A. Blair Dunn
A. Blair Dunn, Esq.

